<html>
<title> - NOMINATION OF NORMAN Y. MINETA, TO BE SECRETARY OF THE DEPARTMENT OF TRANSPORTATION</title>
<body><pre>[Senate Hearing 107-1047]
[From the U.S. Government Printing Office]



                                                       S. Hrg. 107-1047

                    NOMINATION OF NORMAN Y. MINETA,
                         TO BE SECRETARY OF THE
                      DEPARTMENT OF TRANSPORTATION

=======================================================================

                                HEARING

                               before the

                         COMMITTEE ON COMMERCE,
                      SCIENCE, AND TRANSPORTATION
                          UNITED STATES SENATE

                      ONE HUNDRED SEVENTH CONGRESS

                             FIRST SESSION

                               __________

                            JANUARY 24, 2001

                               __________

    Printed for the use of the Committee on Commerce, Science, and 
                             Transportation




92-791              U.S. GOVERNMENT PRINTING OFFICE
                            WASHINGTON : 2003
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

       SENATE COMMITTEE ON COMMERCE, SCIENCE, AND TRANSPORTATION

                      ONE HUNDRED SEVENTH CONGRESS
                             FIRST SESSION

                     JOHN McCAIN, Arizona, Chairman
TED STEVENS, Alaska                  ERNEST F. HOLLINGS, South Carolina
CONRAD BURNS, Montana                DANIEL K. INOUYE, Hawaii
TRENT LOTT, Mississippi              JOHN D. ROCKEFELLER IV, West 
KAY BAILEY HUTCHISON, Texas              Virginia
OLYMPIA J. SNOWE, Maine              JOHN F. KERRY, Massachusetts
SAM BROWNBACK, Kansas                JOHN B. BREAUX, Louisiana
GORDON SMITH, Oregon                 BYRON L. DORGAN, North Dakota
PETER G. FITZGERALD, Illinois        RON WYDEN, Oregon
JOHN ENSIGN, Nevada                  MAX CLELAND, Georgia
GEORGE ALLEN, Virginia               BARBARA BOXER, California
                                     JOHN EDWARDS, North Carolina
                                     JEAN CARNAHAN, Missouri
                  Mark Buse, Republican Staff Director
               Ann Choiniere, Republican General Counsel
               Kevin D. Kayes, Democratic Staff Director
                  Moses Boyd, Democratic Chief Counsel


                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on January 24, 2001.................................     1
Statement of Senator Allen.......................................    42
Statement of Senator Boxer.......................................    10
    Prepared statement...........................................    11
Statement of Senator Breaux......................................    52
Statement of Senator Brownback...................................     8
    Prepared statement...........................................     9
Statement of Senator Carnahan....................................    57
    Prepared statement...........................................    57
Statement of Senator Cleland.....................................    67
    Prepared statement...........................................    69
Statement of Senator Dorgan......................................    62
Statement of Senator Edwards.....................................    73
Statement of Senator Ensign......................................    47
Statement of Senator Fitzgerald..................................    54
Statement of Senator Hollings....................................     3
    Prepared statement...........................................     4
Statement of Senator Hutchison...................................     7
    Prepared statement...........................................     7
Statement of Senator Inouye......................................     8
    Prepared Statement...........................................     8
Statement of Senator Kerry.......................................    40
Statement of Senator McCain......................................     1
    Prepared statement...........................................     3
Statement of Senator Rockefeller.................................    48
Statement of Senator Smith.......................................    61
Statement of Senator Snowe.......................................    55
Statement of Senator Stevens.....................................    36
Statement of Senator Wyden.......................................    65

                               Witnesses

Dreier, Hon. David, U.S. Representative from California..........    11
Mineta, Norman, Y., Secretary-Designate, Department of 
  Transportation.................................................    12
    Prepared statement...........................................    16
    Biographical Information.....................................    20

                                Appendix

Burns, Hon. Conrad, U.S. Senator from Montana....................    77
Feinstein, Hon. Dianne, U.S. Senator from California.............    78
The Air Crash Victims Families Group, prepared statement 
  submitted by A. Frank Carven III and Hans Ephraimson-Abt.......   111
Responses by Norman Y. Mineta to written questions submitted by:
    Hon. Sam Brownback...........................................   106
    Hon. Max Cleland.............................................   111
    Hon. John Edwards............................................   108
    Hon. Daniel K. Inouye........................................   107
    Hon. Trent Lott..............................................   104
    Hon. John McCain.............................................    79
    Hon. Ron Wyden...............................................   111

 
                    NOMINATION OF NORMAN Y. MINETA,
                         TO BE SECRETARY OF THE
                      DEPARTMENT OF TRANSPORTATION

                              ----------                              


                      WEDNESDAY, JANUARY 24, 2001

                                       U.S. Senate,
        Committee on Commerce, Science, and Transportation,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 9:30 a.m. in room 

SR-253, Russell Senate Office Building, Hon. John McCain, 
Chairman of the Committee, presiding.

            OPENING STATEMENT OF HON. JOHN McCAIN, 
                   U.S. SENATOR FROM ARIZONA

    The Chairman. Good morning. I want to first of all thank 
Senator Hollings for his generosity during the 17 day reign of 
terror while the Democrats were in charge of this Committee.
    [Laughter.]
    The Chairman. I want to welcome our new Committee members 
as we meet today to consider Norman Mineta's nomination to be 
United States Secretary of Transportation.
    For the benefit of the members, we have a formality to go 
through, but we can't do it until our Republican members are 
here. So perhaps at some point, we may interrupt in order to 
move forward.
    Senator Stevens. Can I just make the motion now and we'll 
distribute the ballots as they come in?
    The Chairman. If that's agreeable to the members.
    Senator Stevens. Mr. Chairman, I move that John McCain be 
the Chairman of the Commerce Committee for this Congress.
    Senator Brownback. Second.
    The Chairman. I thank the members and we'll distribute 
ballots when they come in. I thank the members.
    Senator Hollings. Mr. Chairman, let me recommend for 
consideration, and you can take it up with the members, but now 
that we've grown to 22 members, you know, in the Appropriations 
Committee if we waited for opening statements for all 22, the 
poor witness would never get to testify. So if we can just 
forego those or the Chairman or Ranking Member or whatever or 
if some Senator's got a particular interest, we always yield to 
exceptions. What we try to do is convenience the entire 
Committee, of course, and mainly the witnesses. Many of them 
travel from afar and everything else. And then they sit for an 
hour and a half and listen, you know what I mean? So I just 
suggest that to you.
    The Chairman. Well, Mr. Chairman, I would like for the 
members to consider that recommendation. I would like to if 
it's agreeable to you sort of adopt it informally. Because as 
you mentioned, there are some times where it's a burning issue 
for a witness or of a particular interest to members of the 
Committee. But perhaps we could informally adopt a general rule 
that we do as they do on the far more dictatorial 
Appropriations Committee that we restrict the opening 
statements to the Chairman and Ranking Member, except for those 
who might have a particular interest in the issue.
     Senator Stevens. Well, it is a little a more liberal than 
that. The Chairman and Ranking Member make opening statements 
pertaining to the bill. And members are then recognized in 
order of seniority going down to make comments before we take 
up amendments. But they are limited to very short statements. 
We have a tradition of not more than a minute, minute and a 
half. But it's just a tradition, Mr. Chairman. It is no rule.
    The Chairman. I thank you. Mr. Mineta, I think it is 
appropriate that you be the witness before our first formal new 
convening of this Committee. Because you as a Democrat I think 
are significant of the new Administration's bipartisanship and 
bipartisan approach to governing in this new millennium. This 
Committee has as you know because of your previous visits here 
works in a bipartisan fashion as well. I want to welcome you. 
We congratulate you on your appointment. We are pleased to see 
you before the Committee again and would like to acknowledge 
any of your family members who may be here. Would you like to 
do that at this time?
    Mr. Mineta. Senator, if you do not mind, I do appreciate 
very much the opportunity to introduce my family who are here. 
First of all, my wife Danny, my sister Itsu Mineta Moso-Oka, my 
stepson Mark Brantner and my son David Mineta's wife Christine 
Mineta. That's the whole family.
    The Chairman. We thank you for being here, and we know how 
proud you are of this fine and brave American who has served 
our country with great distinction. We are pleased and proud 
that he will continue to do so. We could not have done it 
without your dedicated help and assistance and love and 
affection.
    The confidence that Mr. Mineta inspires is important 
because the challenges he faces at the Department of 
Transportation are more daunting than ever. Take aviation, for 
example. As Chairman of the National Civil Aviation Review 
Commission, Norm Mineta warned us just a couple of years ago 
that we were fast approaching gridlock--that every day at an 
airport would be like the day before Thanksgiving. In many 
airports in America, we have already reached that point.
    I believe we must come together immediately and put our 
individual interests aside, to look into new ideas to ensure 
that our aviation system can continue to meet consumer and 
economic demands. Should we privatize our air traffic control 
system? Should we auction or otherwise allocate slots at our 
busiest airports? I cannot endorse any particular approach at 
this point. Even so, my sincere hope and belief is that we can 
best put gridlock behind us by focusing our energies on 
capacity enhancements instead of plans to ration existing 
capacity in the aviation system.
    Another issue that Mr. Mineta and we face is funding for 
Amtrak. It is high time for Congress and the Administration to 
debate and determine exactly what is our national policy for 
Amtrak. I have long fought Amtrak's continuous backdoor 
attempts to seek substantial Federal funding, while claiming it 
is nearly self sufficient. I will continue to do so. Yet if 
Congress is going to continue to provide subsidies, I believe 
we must own up to that fact in full view of the American 
public. Mr. Mineta, I look forward to the Department's input on 
this policy decision.
    Again, congratulations. You are a living example of the 
American dream, and we appreciate your dedication and service. 
We intend to move your nomination forward as soon as possible.
    [The prepared statement of Senator McCain follows:]

                Prepared Statement of Hon. John McCain, 
                       U.S. Senator from Arizona

    First of all, I want to welcome our new committee members as we 
meet today to consider Norman Mineta's nomination to be the United 
States Secretary of Transportation. Congratulations, Mr. Mineta, on 
your appointment to the transportation post. We are pleased to see you 
before the committee again, and would like to acknowledge any of your 
family members who may be here.
    Norm Mineta has all of the right qualifications to serve with 
distinction in President Bush's Cabinet. His long and distinguished 
record of public service includes several years as a member of, and 
then Chairman of, the House Public Works and Transportation Committee. 
Chairman Mineta was widely renowned for his transportation expertise 
and his hard work on the issues. It speaks volumes that the 
transportation community and his colleagues on both sides of the aisle 
continue to regard him with the utmost respect.
    The confidence that Mr. Mineta inspires is important, because the 
challenges he faces at the Department of Transportation are more 
daunting than ever. Take aviation, for example. As Chairman of the 
National Civil Aviation Review Commission, Norm Mineta warned us just a 
couple of years ago that we were fast approaching gridlock--that every 
day at an airport would be like the day before Thanksgiving. We have 
nearly reached that point, and no relief is in sight.
    I believe that we must come together immediately and put our 
individual interests aside, to look into new ideas to ensure that our 
aviation system can continue to meet consumer and economic demands. 
Should we privatize our air traffic control system? Should we auction 
or otherwise allocate slots at our busiest airports? I cannot endorse 
any particular approach at this point. Even so, my sincere hope and 
belief is that we can best put gridlock behind us by focusing our 
energies on capacity enhancements instead of plans to ration existing 
capacity in the aviation system.
    Another issue that Mr. Mineta and we face is funding for Amtrak. It 
is high time for Congress and the Administration to debate and 
determine exactly what is our national policy for Amtrak. I have long 
fought Amtrak's continuous backdoor attempts to seek substantial 
federal funding, while claiming it is nearly self sufficient. I will 
continue to do so. Yet if Congress is going to continue to provide 
subsidies, I believe that we must own up to that fact in full view of 
the American public. Assuming Mr. Mineta is confirmed, I look forward 
to the Department's input on this policy decision.
    Again, Mr. Mineta, congratulations. You are a living example of the 
American dream, and we appreciate your dedication and service. I intend 
to move your nomination forward as soon as possible.

    The Chairman. Senator Hollings.

             STATEMENT OF HON. ERNEST F. HOLLINGS, 
                U.S. SENATOR FROM SOUTH CAROLINA

    Senator Hollings. Well, thank you, Mr. Chairman. Trying to 
set an example, I will just include my statement.
    [The prepared statement of Senator Hollings follows:]

            Prepared Statement of Hon. Ernest F. Hollings, 
                    U.S. Senator from South Carolina

    Mr. Chairman, as you know, this is Mr. Mineta's third nomination 
hearing before this Committee since last May. He is a veteran of the 
confirmation process and I am certain that the former Secretary of 
Commerce will make an excellent Secretary of Transportation given his 
long history of work on transportation issues.
    Mr. Mineta has the benefit of his recent experience in the 
executive branch coupled with his 21 years of service in the 
legislative branch. His knowledge and background will serve him well as 
he moves through the confirmation process and into his new role as 
Secretary of Transportation. Clearly he is up to the task, but we don't 
want to downplay the host of challenges awaiting him at the Department 
of Transportation. I would like to highlight a few of my concerns.

Aviation Issues

Competition
    You and I have watched for many years as the airline industry has 
continued to consolidate, and as air carriers created bigger and bigger 
fortress hubs. In 1978, we had 5 air carriers with 68.6 percent of the 
total U.S. market. Frank Borman warned us about concentration levels. 
Today, with the recent American announcement, two carriers may end up 
with 51 percent of the market, and the top 6 will account for 89 
percent.
    Look at the major airports in this country. Virtually everyone of 
them is controlled by one air carrier. DOT, GAO, and the National 
Academy of Sciences (Transportation Research Board), have cited serious 
concerns with hub domination. We have had studies, more studies, and 
hearings.
    Last week, DOT put out another series of reports that made the 
following findings:
    <bullet> In dominated hubs as a whole, 24.7 million passengers pay 
on average 41 percent more than do their counterparts flying in hub 
markets with low fare competition. It is reasonable to expect that with 
the benefit of low fare-competitors another 25 to 50 million passengers 
annually would travel in these markets.
    <bullet> Passengers in short-haul markets without low-fare carriers 
pay even higher fares, or 54 percent more on average than passengers in 
comparable markets with a low-fare competitor.
    <bullet> DOT specifically cited Charlotte, Cincinnati, Minneapolis 
and Pittsburgh as having the highest overall fare differentials. In 
total there are 17 cities where one carrier dominates.
    With respect to TWA, it has been clear for years that the carrier 
has faced bankruptcy. Senator Danforth and I spent a great deal of time 
trying to be helpful to the airline. Under the antitrust laws, TWA and 
American can make a legitimate case that TWA is in imminent danger of 
failing, that it has no realistic prospects for a successful 
reorganization, and that there is no viable alternative that poses a 
less anti-competitive risk. However, that does not end the focus on 
airline mergers. I know the committee will look at this issue in more 
detail next week.
    And I know you will hit the ground running--we have got to focus on 
the lack of competition. We have got to restore the public interest in 
reviewing what the airlines do--when they merge, when they fail to 
provide service and when they use their market positions to give us 
higher prices.
    You will need to work with us on solutions. Mr. Oberstar has 
suggested that we regulate prices when three carriers have 70 percent 
of the U.S. market. I will take a hard look at that proposal, but I 
want to focus on the hubs. I asked, as part of AIR-21 that airports 
submit competition plans on ways to ensure that they do all they can to 
increase the ability of carriers to enter concentrated hubs. I 
understand that some of the airports have developed ways to change 
their contracts with the dominant carrier, allowing more flexibility to 
accommodate new entry. That is a start, but there is more that we must 
do. I also know that hubs provide an efficiency network, and enable 
small communities to receive more service, but, and it is a critical 
but--at some point, the word efficiency becomes a monopoly. We can ask 
the airports to do what they can, but ultimately it is your 
responsibility, and this Administration's responsibility to protect 
people from monopoly pricing in hundreds of small markets--a situation 
that will only get worse.
FAA/Capacity/Delays
    You will face the challenge of increasing the capacity of the air 
traffic control system as a result of many factors. Everyone agrees 
that we need more capacity, and that we have to build more runways. We 
must figure out a better process, while respecting the environmental 
concerns, but it should not take ten to 12 years to build new runways 
or 5 years to redesign airspace. In addition, you need to quickly 
modernize ATC's oceanic services but I believe, you know all of this.
    Finally, I want to say, we all recognize that safety is the FAA's 
first priority and that efficiency is critical also. This Committee 
fought long and hard to improve the ability of the FAA to function. In 
AIR-21, we set up a series of reforms and gave the FAA an additional 
two billion dollars in fiscal year 2001 for new runways and new air 
traffic control equipment. We must make sure that this remains a 
national priority. Implement those reforms. Spend the money wisely. 
Focus on what needs to, and can be done. You led the NCARC and made a 
recommendation for a PBO. You now have it through AIR-21 and President 
Clinton's Executive Order. We do not need, and should not undertake a 
divisive debate on a new set of FAA reforms or on privatizing the FAA. 
Use your existing authority wisely, Mr. Secretary, as I know you will.

Maritime Issues

    There are few organizations in the Federal bureaucracy that are 
more liked and better respected than the Coast Guard. Each year we add 
to the Coast Guard'' s diverse missions in law enforcement, search and 
rescue, drug interdiction, port security, and marine environmental 
protection. Each year the men and women of the Coast Guard rise to the 
new challenges we offer them. But there is a limit to what we can ask 
without compromising their safety and security of the Nation. We have 
made strides this past Congress ensure appropriations can support the 
Agency'' s mission, but even after securing substantial additional 
funding, budget shortfalls remain. These shortfalls, made chronic by 
ever-tightening budget caps, will continue to undermine the agency'' s 
operational readiness and the safety of its service members until we 
come up with a solution.
    We all have a vested interest in properly protecting the safety and 
well-being of our citizens and our coastal resources. In particular, 
coastal areas like my home State of South Carolina are most vulnerable 
to cutbacks in service as Americans increasingly move to the sea. 
Coastal populations increase by 3,600 people per day--a rate of growth 
is faster than that for the Nation as a whole--and these folks are out 
on the water, whether for business or pleasure. Acknowledging these 
ever mounting pressures and the challenges we will face, we enacted the 
Oceans Act of 2000 that will create a new national Commission on Ocean 
Policy. I look forward to working with the new Administration during 
the appointment process to ensure that the members of the Commission 
are up to the task we set before them--including looking at how well 
agencies like the Coast Guard are prepared for the coming century. I 
would also commend the Department for its efforts evaluating our Marine 
Transportation System through the NITS initiative, and would encourage 
the SecretaryDesignate to continue this effort. Both of these 
initiatives have a very important role to play if we are to formulate a 
good ocean and maritime transportation policy.
    I would also like to highlight my concern about the State of 
security at U.S. seaports. Seaports are just as much a international 
border as our airports, or our land borders, but we do not have a 
coordinated policy to help us prevent against drug smuggling, cargo 
theft, trade fraud, and potential acts of terrorism. Last year, an 
interagency commission released a report on the status of security at 
U.S. seaports, and rated security as poor to fair. Mr. Secretary-
Designate, we need your help in getting all stakeholders involved in a 
solution which will give us greater protection. Maritime trade is 
projected to double by 2020, and if we do not take prudent steps now, 
we may be forced to confront major crises in the future.

Trucking Issues

    One area that I am especially concerned about is the safety of 
Mexican trucks. It is my understanding that in the next month a NAFTA 
arbitration panel will likely issue a decision siding with Mexico's 
position that the U.S. is improperly preventing Mexican trucks from 
operating in the U.S. At that time, the DOT will need to address safety 
issues in the context of possible international sanctions.
    While NAFTA provided that Mexican trucking companies were to have 
been granted operating rights to deliver international cargo throughout 
the entire U.S. by January 2000, the Clinton Administration did not 
open the border, citing safety concerns. I share some of their concerns 
given the inadequate number of safety inspectors at the border and the 
poor condition of many of the Mexican trucks that have been allowed in 
the U.S. under limited circumstances along the border.
    In 2000, there were 40 inspectors at the border, although this is 
an improvement from the 13 inspectors in 1998, the DOT IG estimates 
that a minimum of 126 inspectors are needed during operating hours to 
provide two inspectors to each border inspection facility. In 2000, 35 
percent of inspected Mexican vehicles were placed out of service for 
significant safety violations, compared with 25 percent of U.S. trucks. 
In addition, the DOT IG found that there were hundreds of Mexican 
carriers operating improperly outside of the commercial zones.
    If we do not have the ability to properly oversee the safety and 
movements of Mexican trucks when they are only permitted to operate in 
the U.S. on a limited basis, how can we have any confidence in their 
adherence to U.S. safety and cabotage requirements if the borders are 
opened.
    In addition, I will be paying close attention to the new Federal 
Motor Carrier Safety Administration. There has been widespread 
criticism of the FMCSA regarding a lack of leadership at the Department 
of Transportation, within the modal administration and with regard to 
truck safety. There was no permanent Administrator during the first 
year of the new agency's existence, although my former staffer, Mr. 
Clyde Hart, was tapped for double duty, sharing responsibilities for 
both truck safety and maritime issues.

NHTSA Issues

Harmonization
    I am deeply concerned about persistent efforts by DOT to involve 
the U.S. in international proceedings that are designed to facilitate 
harmonization of safety regulations. Because U.S. safety standards 
generally are higher than other countries' safety rules, harmonization 
commonly leads to the lowering of U.S. safety rules and regulations. 
This, of course, has the effect of compromising the safety protections 
afforded to U.S. consumers. Accordingly, I am hopeful that the incoming 
Secretary will work to make sure that U.S. safety standards are not 
affected and compromised by actions of international bodies. 
Additionally, I hope that the Secretary will work cooperatively with 
Congress on this issue and will adhere to a practice of seeking 
legislative approval for any action involving an agreement with a 
foreign entity that has the effect of impacting U.S. safety laws.
Enforcement
    I also hope that the new Secretary will demand stringent 
enforcement of safety regulations by NHTSA. It does no good to have 
regulations on the books if they are not enforced. We discovered how 
harmful lax enforcement can be during the Committee's recent 
investigations of the hazards associated with the Firestone tires that 
were used on Ford sport utility vehicles. During that investigation, it 
was discovered that NHTSA had received information from State Farm 2 
years prior to the recall initiated by the companies in August 2000. At 
that time, the tires had been linked to close to 100 deaths. Clearly, 
NHTSA dropped the ball. Moreover, it also was revealed that of the more 
than 99 million vehicles that have been recalled over the past 5 years, 
NHTSA has not initiated a single one. That is not effective enforcement 
in my view.

Other Issues

    Last Congress the Senate approved a pipeline safety bill. I fully 
expect the Committee to take up pipeline safety legislation early this 
session. It is my hope that we can work with the Administration to 
achieve a strong safety regime for interstate pipeline operators.
    In addition, last Congress the Committee conducted a number of 
oversight hearings on Amtrak. The issue of Amtrak funding will continue 
to be a top priority as we work to see the provisions of the 1997 
Amtrak Reform and Accountability Act implemented, which requires that 
Amtrak operate without Federal operating grant funds by the end of 
fiscal year 2002. I look forward to working with DOT to address rail 
passenger issues during the next few years.
    Again, I am pleased with President Bush's choice for Secretary of 
Transportation. Although you will certainly face many challenges, I 
look forward to seeing you confirmed as Secretary of Transportation and 
working with you in the future.

    The Chairman. I do note the presence of Senator Ensign and 
Senator Allen and Senator Carnahan and Senator Boxer. Our other 
new members have decided not to attend. That is OK. Noted. But 
we want to thank and congratulate our new members.
    Senator Carnahan, I am told by the staff that we have 
efforts under way to extend that side of the dais so that you 
will not be subjected to sitting with the press. So, is there 
anyone who would like to make an opening statement or comments 
before we move to Senator Boxer and Congressman Dreier? We just 
adopted a rule to make them very brief, OK? Go ahead.
    Senator Hutchison.

            STATEMENT OF HON. KAY BAILEY HUTCHISON, 
                    U.S. SENATOR FROM TEXAS

    Senator Hutchison. Thank you, Senator McCain. I would just 
like to say that I am very pleased with the appointment of 
Norman Mineta. When I was the Vice Chairman of the National 
Transportation Safety Board, Norm Mineta was the Chairman of 
the Public Works Committee. And I think that his experience in 
transportation is not only welcome, but it absolutely 
necessary.
    Because I think our transportation system in our country is 
under the most trial that it has been in a number of years. 
Certainly in the aviation sector, I want to say I am very 
concerned about this new performance based organization for the 
FAA. I hope that we will be able to monitor it closely and work 
out kinks if we find them quickly.
    I secondly hope that we will adopt a policy of an 
intermodal system that works for our country. We are in vast 
need of highway resources, especially in my State of Texas, 
that has the highest number of highway miles and the longest 
foreign border of any State in our country. And we are woefully 
short in highway infrastructure. But also, I think rail should 
be a part of our infrastructure in this country.
    So, Mr. Chairman, I thank you for letting us make short 
opening statements. And I look forward to working with and 
supporting the nomination of Norm Mineta.
    [The prepared statement of Senator Hutchison follow:]

           Prepared Statement of Hon. Kay Bailey Hutchison, 
                        U.S. Senator from Texas

    Thank you Mr. Chairman. Welcome, Secretary Mineta.
    Our national transportation system is at a crossroads. Our skies 
are crowded and our Air Traffic Control structure is near the breaking 
point. Our highway network, while among the world's finest, has serious 
gaps where construction and maintenance have not matched population 
growth. We have been too slow to implement alternative solutions, such 
as intercity and commuter passenger rail, to the mounting problems of 
highway congestion and air quality in our cities. Maintaining and 
improving our national transportation network must be among our highest 
legislative and administrative priorities.
    I am extremely pleased that President Bush has chosen someone with 
real handson transportation experience to head this critical 
Department. During his years in Congress, Secretary Mineta spent years 
focusing on these problems. As Chairman of the Public Works Committee, 
he shepherded legislation that encouraged mass transit and congestion 
reduction. He is battle-tested and unafraid to tackle big issues.
    With the number of air passengers in the U.S. steadily approaching 
one billion per year, I am particularly concerned about the State of 
the nation's air traffic control system. Last month, the Clinton 
Administration created a separate Air Traffic Organization within the 
Federal Aviation Administration to deliver these services. While I 
applaud the effort and initiative, I have some doubts about the 
oversight of this so-called ``performancebased organization.'' Public 
safety and the reliability of air travel are at stake and the flying 
public must be assured that these interests are protected.
    Another issue that will confront the Transportation Department is 
the continuing inequity suffered by states such as Texas which do not 
receive their fair share of Federal transportation funding. I have 
areas along the Mexican border where there is virtually no 
transportation infrastructure whatsoever. NAFTA is straining our 
inadequate transportation system even more. We have madesome real 
improvements in recent years, but so much more needs to be done. Texas 
has three of the ten largest cities in the U.S. In between, we have 
more miles of highway than California and the longest continuous 
foreign border in America. Our population is growing at an incredible 
rate. With all due respect to my colleagues, no State has 
greater,transportation needs than Texas.
    Yet the Department of Transportation has consistently shortchanged 
my State in the distribution of discretionary funding. Excluding 
formula funding, which is subject to a 91.5 percent minimum guarantee, 
Texas receives about 50 cents for every dollar it 2 contributes to the 
Highway Trust Fund. This must change.
    I met with Secretary Mineta earlier this week and I was pleased to 
find that we have similar opinions on many issues. One of these 
concerns the need to maintain strict safety standards for Mexican and 
Canadian trucks on American highways. Under NAFTA, we must begin 
allowing these foreign trucks across the border, provided they meet 
U.S. safety standards. Unfortunately, Mexico and Canada allow much 
higher truck weights than in the U.S. These heavy, trucks can be an 
unsafe mix with passenger vehicles on our high-traffic American roads 
and if they do not meet all U.S. standards they present a safety hazard 
to other drivers. Make no mistake, I support NAFTA and I welcome the 
commerce brought in by these trucks, but we must keep our highways 
safe.
    I plan to support this nomination and I look forward to working 
with Secretary Mineta.

    The Chairman. Thank you, Senator Hutchison. Anyone else?
    Senator Inouye. Mr. Chairman.
    The Chairman. Senator Inouye.

              STATEMENT OF HON. DANIEL K. INOUYE, 
                    U.S. SENATOR FROM HAWAII

    Senator Inouye. Mr. Chairman, as you have noted, Mr. Mineta 
is an American success story and I ask that my statement be 
made part of the record.
    [The prepared statement of Senator Inouye follow:]

             Prepared Statement of Hon. Daniel K. Inouye, 
                        U.S. Senator from Hawaii

    Six months and 7 days ago, I had the great privilege of introducing 
the Honorable Norman Mineta, nominated by President Clinton for the 
position of Secretary of Commerce. Today, once again, I find myself 
deeply honored and privileged to present the same Honorable Norman 
Mineta as President Bush's nominee to serve as Secretary of 
Transportation. Secretary Mineta's service as Secretary of Commerce has 
been outstanding and exemplary.
    Although he was there only a few months, he made his mark. Duly 
impressed, the Bush Administration has selected him to continue his 
service to our nation.
    Because of my presentation on Secretary Mineta on July 17, 2000, 
just a few months ago, I will not repeat in detail his extraordinary 
history, but simply to say that here is a person who was born on 
November 12, 1931, and at the age of 10 was declared by this Nation to 
be an enemy alien.
    He was incarcerated in an internment camp in Wyoming for 1\1/2\ 
years, but his love for this country stayed intact. He rose above the 
experience of this period of sanction and discrimination and began his 
public service as a member of the San Jose City Council and 
subsequently Mayor of San Jose, and 21 years in the U.S. Congress.
    This is America's success story. This is the story of America. 
Ladies and gentlemen, I am pleased to present President George W. 
Bush's nominee to serve as Secretary of Transportation, the Honorable 
Norman Y. Mineta.

    The Chairman. Without objection.
    Senator Brownback.

               STATEMENT OF HON. SAM BROWNBACK, 
                    U.S. SENATOR FROM KANSAS

    Senator Brownback. Mr. Chairman, just briefly. And I have 
got a full statement to put in the record. But I welcome 
Secretary Mineta and look forward to approving him on this. I 
will be introducing a bill shortly to try to truncate the 
procedure by which runways, additional capacity at our airports 
are put in place. I think it is important that we start the 
process now of trying to increase the capacity. I think all of 
us have sat for hours now on tarmacs at different airports. And 
that is just part of what the public is frustrated about.
    I just want to put that out there. Because I know you know 
about those as issues. And I think we have got to really become 
aggressive in this legislation session to deal with that. And I 
look forward to working with the Secretary of Transportation 
about that. Thank you, Mr. Chairman.
    [The prepared statement of Senator Brownback follow:]

               Prepared Statement of Hon. Sam Brownback, 
                        U.S. Senator from Kansas

    Thank you, Mr. Chairman. Mr. Secretary, welcome to the Commerce 
Committee. I want to thank you for coming to visit me last friday; I 
enjoyed our visit, and appreciate the time you took out of your busy 
schedule.
    I think this hearing will be a little less contentious than the 
hearings I sat in last week for our former colleague on this Committee, 
John Ashcroft. As you said when you were nominated, transportation 
issues are not partisan, there is no such thing as a Republican or a 
Democrat traffic jam, or Democrat or Republican airport congestion. I 
couldn't agree more; one of the advantages of this Committee is the 
opportunity to work across party lines on issues important to the 
entire country. In that spirit, I welcome your nomination, and applaud 
President Bush's choice of a distinguished and highly qualified 
Democrat to head the Department of Transportation.
    Mr. Secretary, there is little doubt in my mind, that the problem 
of capacity in our Nation's aviation infrastructure is one of the most 
serious and immediate problems you will face at the Department of 
Transportation. We spoke last week in my office about this issue, and I 
appreciate your thoughts and comments. Mr. Secretary, we are not 
looking at a crisis down the road, we are looking a crisis right in the 
face--we are there. Every member of the flying public knows this, and, 
as the chairman of the Mineta Commission, no one knows this better than 
you. Delays and congestion are only going to get worse, not better. It 
is my belief that we can best provide immediate relief for our Nation's 
air travelers by increasing capacity on the ground; by building more 
airport runways, and by building them much faster than they are being 
built today. THis is an emergency, and we need to take swift and bold 
action. I intend to shortly introduce legislation that will do just 
that, and i look forward to working with you, Mr. Secretary, as well as 
my colleagues on this Committee, on this vital issue.
    Mr. Secretary, I think you are already well aware of the importance 
of aviation in my home State of Kansas. It may, however, come as a 
surprise to you to know that aviation manufacturing is second only to 
agriculture in Kansas in terms of jobs. Over 43,000 hard-working men 
and women are employed in Kansas in aviation manufacturing, with a 
total Kansas payroll of over $2 billion dollars, and Kansas supplies 
purchased of over $1.1 billion dollars. It is estimated that $10 of 
every $100 in earnings in Kansas results from the aviation industry. In 
Kansas, the aviation industry accounts for 21.5 PERCENT of 
manufacturing employment. Approximately $24 of every $100 earned in 
manufacturing in Kansas is generated by the aviation industry. In the 
Wichita metro area alone, the aviation industry makes up more than 60 
PERCENT of manufacturing earnings. I would therefore like to invite you 
to come to Wichita, Kansas, to visit Cessna, Learjet, [or as they are 
now called Bombardier Aerospace], Raytheon Aircraft, and Boeing 
Wichita, so that you can become more familiar with aviation 
manufacturing.
    There are a lot of exciting things happening in Wichita. Boeing 
Wichita produces about 75 PERCENT of the next generation 737, and 
designs and builds nascelles and nose sections for the 747, 757, 767 
and 777 jetliners. In addition, Boeing Wichita Military Programs 
include the airborne laser, updates on the KC-135 Tanker Program, 
upgrades for the A-WACS AND B-52 Bomber, and performs maintenance on 
air force one.
    In addition to the famous Learjet 31A, 45, and 60, Bombardier 
Aerospace in Wichita is the site of production of the company's newest 
business jet, the Continental, a new super-midsize jet produced by a 
consortium of partners from around the world. The Bombardier flight 
test center in Wichita is the busiest civil flight test facility.
    Cessna Aircraft Company, the pioneer of general aviation, has 
maintained its worldwide headquarters in Wichita for over 73 years, and 
produces four single engine piston aircraft in Independence, Kansas, as 
well as the industry's most extensive line of business jets, the 
citation series, in Wichita.
    Raytheon Aircraft, the world's leading business and special mission 
aviation company, has manufacturing sites in Andover, Salina, and 
Wichita, and includes the Hawker and Beechcraft line of business jets, 
as well as turboprop products including the 1900-D airliner and Beech 
King air series, the most popular turboprop ever.
    Thank you Mr. Chairman, I have a number of questions i would like 
to ask Secretary Mineta when my turn comes.

    The Chairman. Welcome, Senator Boxer and welcome to the 
Committee.

               STATEMENT OF HON. BARBARA BOXER, 
                  U.S. SENATOR FROM CALIFORNIA

    Senator Boxer. Mr. Chairman, I am just so delighted to be a 
member of your Committee, Senator Hollings and you, Mr. 
Chairman are great leaders on the issues that the Committee 
focuses on. And, of course, one of them is transportation.
    I will be brief and ask unanimous consent that my whole 
statement appear in the record.
    The Chairman. Without objection.
    Senator Boxer. And the reason I can be brief is because 
know that our friend Norm Mineta is no stranger to you. I was 
here introducing him when he was nominated to be the Commerce 
Secretary by President Clinton. Now President Bush has made 
this fine appointment.
    I would like to ask unanimous consent that Senator 
Feinstein's statement be inserted in the record at this time 
[see Appendix].
    The Chairman. Without objection.
    Senator Boxer. She apologizes to you, Norm. She is in 
another Committee at this time.
    Briefly, I want to tell you that Norm Mineta represented 
the Silicon Valley in the House of Representatives for 21 years 
and I was happy to serve with him for 10 of those. During his 
tenure, he was the Chairman of the Public Works and 
Transportation Committee. So he already is very familiar with 
the responsibilities of the Department of Transportation and 
transportation policy.
    As Chairman of that Committee, he was the principle author 
of the Intermodal Surface Transportation Efficiency Act of 
1991. And that landmark legislation expanded traditional 
highway legislation to include transit, pedestrian 
improvements, bike paths. It took a bigger look at the needs of 
our people.
    His knowledge does not just stop at surface transportation. 
He has extensive knowledge about our aviation systems, as has 
been pointed out by Chairman McCain, from serving as the 
Chairman of the Aviation SubCommittee and serving on the 
Metropolitan Washington Airports Authority.
    Since leaving the House, Mr. Mineta has served on several 
transportation related Federal commissions and advisory panels. 
Mr. Mineta began his political career in 1967 when he became 
the first Asian Pacific American member of the City Council of 
his home town of San Jose, California which is as you know in 
the heart of the Silicon Valley.
    Just 4 years later in 1971, he was elected the Mayor of San 
Jose, the first Asian Pacific American mayor of a major United 
States city. While serving in the Congress, Mr. Mineta founded 
the Congressional Asian Pacific American caucus and he served 
as its first chair.
    One area where I admire Norm so much, and I know so many of 
you do as well, was his fight to ensure the passage of the 
Civil Liberties Act of 1988 which officially apologized for and 
addressed the injustices endured by Japanese Americans during 
World War II.
    Mr. Mineta and his family were among the 120,000 Americans 
of Japanese ancestry forced into internment camps by the United 
States government during the war. But even with this heavy 
heart and this terrible experience, Mr. Mineta has devoted his 
life to making this country the greatest that she can be. And 
he has devoted his life to public service. I believe this is an 
excellent choice and I want to say, Norm, I'm very proud of you 
and look forward to working with you in this new capacity.
    [The prepared statement of Senator Boxer follow:]

               Prepared Statement of Hon. Barbara Boxer, 
                      U.S. Senator from California

    I am very happy to be here today at my first hearing as a member of 
the Commerce Committee to introduce Norman Mineta to be Secretary of 
Transportation. Mr. Mineta is extremely qualified to be the 
Transportation Secretary.
    He represented Silicon Valley in the House for 21 years. During his 
tenure, he was the Chairman of the Public Works and Transportation 
Committee. He already knows the responsibilities of the Department of 
Transportation and transportation policy.
    As Chairman of the Committee, he was the principle author of the 
Intermodal Surface Transportation Efficiency Act in 1991. This landmark 
legislation expanded traditional highway legislation to include 
transit, bike paths, and pedestrian improvements.
    His knowledge does not stop at surface transportation. He has 
extensive knowledge about our aviation systems from serving as the 
Chairman of the Aviation Subcommittee and serving on the Metropolitan 
Washington Airports Authority.
    Since leaving the House, Mr. Mineta has served on several 
transportation-related Federal commissions and advisory panels, 
including the National Aviation Review Commission and a truck safety 
panel.
    Mr. Mineta began his political career in 1967, when he became the 
first Asian Pacific American Member of the City Council of his hometown 
of San Jose, California. Just 4 years later, in 1971, he was elected 
Mayor of San Jose--the first Asian Pacific American Mayor of a major 
U.S. city. While serving in the Congress, Mineta founded the 
Congressional Asian Pacific American Caucus and served as its first 
Chair.
    One area where I admire Norm is his fight to ensure the passage of 
the Civil Liberties Act of 1988, which officially apologized for and 
redressed the injustices endured by Japanese Americans during World War 
II. Mr. Mineta and his family were among the 120,000 Americans of 
Japanese ancestry forced into internment camps by the U.S. Government 
during the War. Even with this experience, Mr. Mineta has devoted his 
life to public service.
    I believe that he is an excellent choice to be the Secretary of 
Transportation.

    The Chairman. Congressman Dreier.

                STATEMENT OF HON. DAVID DREIER, 
              U.S. REPRESENTATIVE FROM CALIFORNIA

    Senator Dreier. Thank you very much, Mr. Chairman. It is 
nice to be here. I want to say what a great honor it is for me 
to have joined Senators Boxer and Feinstein over the past week. 
And we're now introducing our third Californian for 
confirmation. And I am particularly honored to be able to be 
here on behalf of my friend and former colleague Norm Mineta.
    We have heard talk about air safety which is something that 
is of great concern to every single one of us. As a Southern 
Californian, I have to say that we have a wide range of 
infrastructure problems which need to be addressed. And that is 
why I believe that Norm Mineta will in this position as 
Secretary of Transportation do a superb job.
    Last Saturday as we all listened to President Bush's 
inaugural address, I was struck with the alliteration in which 
he referred to the need for civility, compassion and character 
and courage. And as we listened to the descriptions from our 
colleagues here of Norm Mineta, obviously, he comes to mind 
when we think of all of those words.
    And I believe that if we look at the challenges ahead in 
this new millennium, infrastructure, transportation issues will 
be key at every level.
    I am also very concerned about the globalization of our 
economy and the fact that we are going to need to make sure 
that we move goods and services that are coming in from all 
over the world going to and from. And I believe that it is 
essential that we focus on and improve our infrastructure so 
that we are able to maintain our preeminence in this global 
economy. And again, Norm Mineta will be in the forefront to 
ensure that that happens.
    So I am very pleased and proud as a Californian and as an 
American to wholeheartedly recommend and encourage the 
confirmation of our friend Norm Mineta. Thank you very much, 
Mr. Chairman.
    The Chairman. We thank you, Congressman Dreier. And we know 
that you and Senator Boxer speak for all Californians as well 
as Americans in endorsing his new position in the Bush Cabinet.
    Mr. Mineta, welcome.

    STATEMENT OF MR. NORMAN Y. MINETA, SECRETARY-DESIGNATE, 
                  DEPARTMENT OF TRANSPORTATION

    Mr. Mineta. Mr. Chairman, Members of the Committee, I am 
honored to find myself before you again, this time as President 
Bush's nominee as Secretary of Transportation. And I would like 
to ask unanimous consent that my full statement be made a part 
of the record.
    The Chairman. Without objection.
    Mr. Mineta. I want to thank Senator Inouye, Senator Boxer, 
Senator Feinstein and Congressman David Dreier for their taking 
from their own valuable schedules to be here and to be 
supportive of me and to introduce me to this wonderful panel.
    I must confess that I was very surprised to get the call, 
and to be offered this position by President Bush. After some 
careful consideration and discussion, I decided to say yes to 
the President's invitation to join his great team, and perhaps 
I should explaining why.
    Three decades ago when I was Mayor of San Jose, California, 
and was focused on how I could improve the community where I 
had been born and raised, I had the usual range of policy tools 
that mayors use to try to improve their communities: city 
planning and zoning authorities, economic development programs, 
grants for housing, and so on. But what I found in practice was 
that the tool that made the most difference in my community was 
transportation. Nothing else had as great an impact on our 
economic development, on the pattern of growth, or the quality 
of life than transportation.
    And what I have found in the years since is that this is 
true not just locally, but also nationally. Transportation is 
the key to productivity, and therefore, the success, of 
virtually every business in America. Congestion and delay not 
only waste our time as individuals, but they also burden our 
businesses and our entire economy with inefficiency and higher 
costs.
    The bottom line is that transportation is key in generating 
and enabling economic growth, in determining the patterns of 
that growth, and in determining the competitiveness of our 
businesses in the world economy. Transportation is thus key to 
both our economic success and to our quality of life. And that 
is why I said yes to the President's wonderful invitation.
    I did so, however, painfully aware of the formidable 
challenges that all of us now face in transportation. Let me 
give you my sense of some of the most significant of all of 
these challenges.
    First of all the major challenges facing us is the 
guaranteeing of the safety of the traveling public. And I 
consider that to be the No. 1 job at the Department of 
Transportation. We have an enviable transportation safety 
record in this country--and in many modes we are among the 
leaders in the world as it relates to safety. Even in our most 
difficult category--highways, where 94 percent of all 
transportation fatalities occur--we have shown in recent years 
the ability to hold the number of highway fatalities flat, 
despite significantly rising numbers of vehicles on the road, 
thus improving the fatality rate.
    Nevertheless, despite our generally solid performance on 
safety, we need to recognize that we have reached that point by 
constantly searching for the next best safety improvement that 
could be made. We have to continue to do that, and we have to 
do it in a way that gets for the public the greatest possible 
safety improvement for each dollar spent.
    Second, a central challenge for the Department is to close 
the gap between demand for transportation and the capacity of 
our transportation infrastructure. That gap is what generates 
the traffic that all of us face on the highways, the delays 
that we all experience on the taxiway or at the gate, the 
inefficiencies that shippers face when their shipments are 
jammed up at a rail bottleneck, a beltway traffic jam, or a 
port operation struggling with constrained landside 
transportation access. Congressional enactment of TEA-21 and 
AIR-21 has put in place levels of capital investment that will 
be important in resolving these jams, but there will be a need 
for more than just the funding that is provided.
    And nowhere is this more evident than in Air Traffic 
Control. As Chairman McCain mentioned, in 1997, the National 
Civil Aviation Review Commission, which I had the privilege and 
honor to chair, warned that, due to rapidly growing demand and 
a system that was just not keeping up with that rapid growth, 
our nation's aviation system was approaching gridlock. And by 
the summer of 1999 Americans faced skyrocketing air traffic 
control delays. And we had the same experience in the year 
2000.
    And I need to be very candid with you on this point--we are 
very likely to have a very similar--or worse--delay problems 
this year as well. We simply have an air traffic control system 
that, despite real improvements, has not been able to keep pace 
with rapidly rising demand. At the highest demand times, and at 
times when there are additional considerations, such as adverse 
but routine weather, we find more and more often than not that 
demand reaches or exceeds the capacity of at least part of the 
system.
    When that happens, the system quite rightly elects to take 
that capacity shortfall as ground holds and other forms of 
delay, rather than compromise safety. But even though that is 
the right choice, it still imposes very real penalties on 
passengers and ultimately on our economy.
    It is essential that all of us first understand the origin 
of this problem, and that is the dramatic growth in the number 
of passengers trying to fly and shippers trying to move 
packages by air. In the year 2000, we had nearly 215 million 
more enplaned passengers than we did in 1991. 215 million more 
people showing up per year than we did just 9 years ago is a 
number nearly equal to the entire population of the United 
States. Given the fact that it is impossible to expand air 
traffic control quickly or airport capacity or airline 
capacity, it is not surprising that the result is that 
everything is crowded--not just the ATC system, but the airport 
parking lot, the counters, the terminal corridors, the 
passenger cabin, the baggage carousel, the customs checkpoint . 
. . everything.
    The challenge before us now is given that surging demand, 
what can we do about the congestion and delay?
    First, we have to recognize that airlines, airports, and 
air traffic control are all struggling to keep up with demand, 
and all are having problems, and all have significant work to 
do in order to catch up. Each of those parties placing blame on 
the others is not a solution. Each must instead get serious 
about addressing its own part of the problem. And let's start 
with our part of the problem--the Federal Government and its 
sole responsibility for air traffic control. Let us make it the 
highest priority of the Federal government to find better ways 
to meet the challenges of air traffic control.
    Second, let's not make an excuse out of the fact that there 
is relatively little we can do that will have any big effect on 
the short term. Let's take whatever steps we need to, no matter 
how large or small, even if the payoff is not immediate. 
Inaction is not a responsible option.
    The only sure remedy for air traffic control congestion in 
the near term would be a recession, which would suppress 
demand. Who among us wants to advocate that to the American 
people--or to the President--as our alternative to expanding 
capacity?
    Third, we have experienced in the past decade an 
extraordinary leap in technology in our great country. 
Dramatically new approaches to computing and software have been 
developed. Computer power that was unimaginable a decade ago 
not only exists today, it is cheap and it is common. A whole 
new class of technology managers has emerged who are expert at 
applying this new technology to complex real-world problems 
throughout our economy. It is a point of enormous frustration 
to me that we have not been able to put this new technological 
power and talent to the task of modernizing air traffic 
control.
    Key positions in the ATC modernization effort, including 
FAA Deputy Administrator and the new Air Traffic Organization 
Chief Operating Officer position, remain vacant, despite heroic 
efforts by Administrator Garvey. If confirmed, I will take it 
as my personal assignment to get top quality people into these 
positions.
    Fourth, in the longer term, we have to recognize that the 
pace of growth in demand and the pace of change in technology 
require a degree of nimbleness that the traditional Federal 
agency, for all its strengths, simply cannot keep up with. What 
we have all adopted--the Congress, the National Civil Aviation 
Review Commission, and the executive branch--is the concept 
that we will keep the modernization and operation of the Air 
Traffic Control system in the FAA, but we will give FAA many of 
the attributes of a private entity.
    We are building a hybrid, and this is still a work in 
progress. And I want to commend in particular Administrator 
Jane Garvey for her energetic commitment to change at FAA. But 
we all need to recognize that this will not be a perfectly 
smooth ride and the success of this approach is not guaranteed. 
It is something we all have to make work.
    Now, a third major area of challenge facing the Department 
of Transportation is in the area of economic deregulation. We 
have come to rely far more on the marketplace to regulate 
transportation economics, and far less on government 
bureaucracies. In general, under deregulation the result has 
been to generate real benefits for more people than was the 
case under regulation. Average airfares, for example, have 
declined nearly 20 percent in real terms in the past decade, 
and about 40 percent since the enactment of the Airline 
Deregulation Act. Every business in America is more productive 
and can offer its customers more for the money because of the 
efficiencies that have resulted from a more market-oriented 
system for the movement of freight. These are direct pocketbook 
benefits to every citizen.
    Nevertheless, we need to remember that these benefits rely 
on actual competition in the marketplace. No industry in 
America operates in a perfectly competitive market, but we need 
to make sure that every industry, including every 
transportation industry, operates in a market that is at least 
as competitive as it needs to be in order to protect the 
interests of consumers.
    Now, this is simply not a case of government abandoning the 
field and leaving the marketplace to do it all. We have an 
affirmative responsibility to make sure that competition 
continues to be sufficient to protect the interests of 
consumers.
    And the first of those responsibilities is one we have 
already discussed here today, and that is the responsibility to 
make sure that we have a transportation infrastructure adequate 
to meet demand. Nothing so surely restricts competition as 
inadequate infrastructure capacity. The result is not only the 
increased costs that are associated with congestion, as we have 
already discussed, but also the increased prices that come with 
the scarcity artificially imposed by infrastructure 
bottlenecks. It is the equivalent of double jeopardy for the 
consumer.
    Second, government needs to be the watchdog of competition, 
not to determine any particular outcome, but to assure that 
competition or competitive conditions continue to exist. Now, 
that means government needs to work with the marketplace and 
not against it, but it also means that there is a role for 
government.
    The fourth major challenge for the Department of 
Transportation is that it serves in many ways as the nation's 
first line of defense and serves a very important law 
enforcement function. And I refer primarily to the officers and 
to the staff and the men and women of the Coast Guard, which 
accounts for 40 percent of the Department's personnel and some 
of its most important functions. The task of keeping that 
protective function of the Coast Guard is one that we will all 
need to focus on in the coming months.
    Let me close and turn to your questions with this thought. 
If I am confirmed, you get me as I am, and I am probably well-
known to most of you. My style is inclusive. I want at the 
Department of Transportation the greatest possible involvement 
of all levels of government, the input of the private sector, 
of all points of view, of all of those who are committed to 
finding the solutions to the transportation problems that delay 
our citizens and burden our economy.
    And I want this to be a completely bipartisan approach. I 
do not believe there is such a thing as Democratic or 
Republican traffic jams or Democratic or Republican solutions 
to those traffic jams. We all have the same interest in better-
working transportation systems, and the only way we will all 
get there is by all of us working together. I don't know of any 
other way to do it.
    So again, Mr. Chairman, I thank you very much for your 
kindness in setting this time aside for this hearing. I am very 
honored and humbled by President Bush asking me to join his 
team. And I am now ready to try to answer your questions.
    [The prepared statement of Mr. Mineta follow:]

     Prepared Statement of Norman Y. Mineta, Secretary-Designate, 
                      Department of Transportation

    Mr. Chairman, Members of the Committee, I am honored to find myself 
before you again, this time as President Bush's nominee for Secretary 
of Transportation.
    I must confess that I was a little surprised to get the call, and 
to be offered the job by the President. After some careful 
consideration and discussion, I decided to say yes to the President's 
invitation to serve in his Administration, and perhaps I should begin 
by explaining why.
    Three decades ago I was Mayor of San Jose, California, and was 
focussed on how I could improve the community where I had been born and 
raised. I had the usual range of policy tools that mayors use to try to 
improve their communities: city planning and zoning authorities, 
economic development programs, grants for housing, and so on. But what 
I found in practice was that the tool that made the most difference in 
my community was transportation. Nothing else had as great an impact on 
our economic development, on the pattern of growth, or on the quality 
of life.
    What I have found in the years since is that this is true not just 
locally, but also nationally. Transportation is key to the 
productivity, and therefore, the success, of virtually every business 
in America. Congestion and delay not only waste our time as 
individuals, they also burden our businesses and our entire economy 
with inefficiency and higher costs. The bottom line is that 
transportation is key in gene-rating and enabling economic growth, in 
determining the patterns of that growth, and in determining the 
competitiveness of our businesses in the world economy. Transportation 
is thus key to both our economic success and to our quality of life.
    In short, three decades of experience tell me that transportation 
is vital to our national wellbeing, whether measured as economic 
growth, as international competitiveness, or as quality of life, 
Congestion and inefficiency in transportation are not just inconvenient 
and aggravating though they certainly are that--but they are also a tax 
that burdens every business and every individual. We have to find ways 
to lighten that load.
    Given my views on the importance of transportation, and my belief 
that I will be able to work well with the President and others in the 
Administration, I said yes to the President.
    I did so, however, painfully await of the formidable challenges we 
now face in transportation. Let me give you my sense of some of the 
most significant of those challenges.
    First of all, guaranteeing the safety of the travelling public is 
the number one job at the Department of Transportation. We have an 
enviable transportation safety record in this country--in many modes we 
are among the leaders of the world in safety. Even in our most 
difficult category--highways, where 94% of all transportation 
fatalities occur--we have shown in recent years the ability to hold the 
number of highway fatalities flat, despite significantly rising numbers 
of vehicles on the road, thus improving the fatality rate.
    Nevertheless, despite our generally solid performance on safety, we 
need to recognize that we reached this point by constantly searching 
for the next best safety improvement that could be made. We have to 
continue to do that, and we have to do it in a way that gets for the 
public the greatest possible safety improvement for each dollar spent.
    A few examples of the safety challenges we face:
    <bullet> A year ago Congress created the Federal Motor Carrier 
Safety Administration, elevating a function that had previously had 
been in the Federal Highway Administration. We need to make sure that 
this is more than just a change in the organizational chair and that it 
leads to improved safety and greater compliance with motor carrier 
safety requirements. We must look at what needs to be done, in 
coordination with the states, which do most of the enforcement work, to 
achieve that goal.
    <bullet> A couple of months ago, Congress passed legislation 
requiring significant new reporting on safety issues involving tires. 
For that action to produce any real benefit for the public, we are 
going to have to make sure that we have sufficient resources at NHTSA 
to effectively use that data to spot adverse safety trends and to do 
something about those trends if and when they emerge.
    <bullet> In air traffic control, we have long had one of the most 
envied safety records in the world, due in large part to some very 
dedicated individuals who work every day to achieve that result. But it 
is simply not good safety practice, in my view, to have the 
organization responsible for moving the traffic also be the 
organization responsible for determining what the safety standards 
should be and whether they are being met. While it is true that every 
part of the organization has a safety responsibility, it should be a 
separate unit of the organization that independently determines whether 
the rest of the organization has met that responsibility. Combining 
these two responsibilities, as we have traditionally done, in a single 
unit simply puts too great a burden on the people who are attempting to 
meet the very strong demands placed on them in this field. These two 
functions should be in separate units in FAA.
    Second, a central challenge for the Department is to close the gap 
between demand for transportation and the capacity of our 
transportation infrastructure. That gap is what generates the traffic 
you face on the highways, the delay you experience on the taxiway or at 
the gate, the inefficiencies shippers face when their shipments are 
jammed up in a rail bottleneck, a beltway traffic jam, or a port 
operation struggling with constrained landside transportation access. 
Congressional enactment of TEA-21 and AIR-21 has put in place levels of 
capital investment that will be important in resolving these jams, but 
there will need to be more than just funding provided.
    Nowhere is this more evident than in Air Traffic Control. In 1997, 
the National Civil Aviation Review Commission, which I chaired, warned 
that, due to rapidly growing demand and a system that was just not 
keeping up with that rapid growth, our nation's aviation system was 
approaching gridlock. And by the summer of 1999 Americans faced 
skyrocketing air traffic control delays. We had the same experience in 
2000.
    And I need to be very candid with you on this point--we are very 
likely to have similar--or worse--delay problems this year as well. We 
simply have an air traffic control system that, despite real 
improvements, has not been able to keep pace with rapidly rising 
demand. At the highest demand times, and at times. when there are 
additional considerations, such as adverse but routine weather, we find 
more and more often that demand reaches or exceeds the capacity of at 
least part of the system.
    When that happens, the system quite rightly elects to take that 
capacity shortfall as ground holds and other forms of delay, rather dm 
compromise public safety. But even though that is the right choice, it 
still imposes very real penalties on passengers and ultimately on our 
economy.
    We all understand that severe weather can require airports to close 
or aircraft to be rerouted. But now we have reached the point where, 
particularly during the high-traffic summer months, a routine line of 
thunderstorms in Indiana can back up traffic from coast-to-coast. We 
are often operating right at the capacity of the system, so it takes 
relatively little to precipitate the aviation version of gridlock.
    It is essential that all of us first understand the origin of this 
problem, and that is the dramatic growth in the number of passengers 
trying to fly and shippers trying to move packages by air. In the year 
2000, we had nearly 215 million more enplaned passengers than we did in 
1991. 215 million more people showing up per year than we did just nine 
years ago is a number nearly equal to the entire population of the 
United States. We only had about 450 million show up in 1991, so that's 
nearly a 5O% increase in just 9 years. Given the fact that it is 
impossible to quickly expand air traffic control capacity, airport 
capacity, and airline capacity, it is not surprising that the result is 
that everything is crowded--not just the ATC system, but the airport 
parking lot, the counters, the terminal corridors, the passenger cabin, 
the baggage carousel, the customs checkpoint. . . everything.
    That surging demand is partly due to a surging economy, and partly 
due to the fact that deregulation has made air travel more affordable 
for more people--average airfares have declined in real terms by nearly 
20% over the past decade, by nearly 40% since the Deregulation Act was 
passed. People have more money and air travel on average costs less--
the result is that lots more of them show up.
    The challenge before us now is, given that surging demand, what can 
we do about the congestion and the delay?
    First, we have to recognize that airlines, airports, and air 
traffic control are all struggling to keep up with demand, all are 
having problems, and all have significant work to do to catch up. Each 
of those parties placing blame on the others is not a solution. Each 
must instead get serious about addressing its own part of the problem. 
And let's start with our part of the problem--the federal government 
has sole responsibility for air traffic control. Let's make it the 
highest priority of the federal government to find better ways to meet 
the challenges of air traffic control.
    Second, let's not make an excuse out of the fact that there is 
relatively little we can do that will have any big effect in the short 
term. Let's take whatever steps we need to, no matter how large of 
small, even if the payoff is not immediate. Delay and/or inaction are 
not responsible options.
    The only sure remedy for air traffic control congestion in the near 
term would be a recession, which would suppress demand. Who among us 
wants to advocate that to the American people or to the President--as 
our alternative to expanding capacity?
    There are measures that are worth looking at, because they could 
have some beneficial effect in the near term. They include such things 
as:
    <bullet> Better utilization of radio spectrum. We add capacity to 
the system by adding sectors, and every sector we add means adding more 
radio channels in a given area. In some parts of the country, most 
notably the Northeast, we are bumping up against the limits of the 
amount of radio spectrum available to civil aviation. We should look 
into technology that would allow us to get more channels into the 
existing amount of available spectrum.
    <bullet> Better use of existing technology. In several areas, FAA 
sometimes has a tendency to want to phase out an existing technology 
because it believes that a newer and better technology will be 
available in the near future. Sometimes the near future then turns out 
to be not so near. An example is precision approach. The current 
technology is Instrument Landing Systems. FAA is working on a GPS-based 
replacement known as Local Area Augmentation System. It looks quite 
promising, but it is several years from being ready, even if everything 
stays on schedule. Meanwhile, a number of large airports, doing their 
part to catch up with demand, are bringing major new runway projects 
toward completion, Philadelphia and Phoenix recently completed new 
runways. Denver, Detroit, the Twin Cities, Orlando, and Seattle are in 
construction, and Cleveland, Miami, Houston, Atlanta, St. Louis, and 
Charlotte are close to construction. In short, lots of concrete is on 
the way. Yet many of these airports are being told that ILS's might not 
be available from FAA when the new runways are completed, meaning we 
would not have full use of this new runway capacity when it becomes 
available. In a situation where we cannot keep up with demand, we 
cannot afford to stop installing today's technology until tomorrow's 
technology actually arrives and is ready to use.
    Third, we have experienced in the past decade an extraordinary leap 
in technology in this country. Dramatically new approaches to computing 
and software have been developed. Computer power that was unimaginable 
a decade ago not only exists today, it is cheap and it is common. A 
whole new class of technology managers has emerged who are expert at 
applying this new technology to complex real-world problems throughout 
our economy. It is a point of enormous frustration to me that we have 
not been able to put this new technological power and talent to the 
task of modernizing air traffic control.
    Key positions in the ATC modernization effort, including FAA Deputy 
Administrator and the new ATO Chief Operating Officer position, remain 
vacant despite heroic efforts by Administrator Garvey. If confirmed, I 
will take it as my personal assignment to get top quality people into 
these positions. I know the hi-tech industry, and I know that there are 
talented people out there who are ready to prove their talent by 
tackling one of the biggest technology challenges ever.
    Fourth, in the longer term, we have to recognize that the pace of 
growth in demand and the pace of change in technology require a degree 
of nimbleness that the traditional federal agency, for all its 
strengths, simply cannot keep up with. What we have all adopted--the 
Congress, the National Civil Aviation Review Commission and the 
Executive Branch--is the concept that we will keep the modernization 
and operation of the Air Traffic Control system in the FAA, but we will 
give FAA many of the attributes of a private entity. These attributes 
have been provided by various actions over the past 5 years, and they 
include procurement reform, personnel reform, a cost accounting system, 
a COO, oversight boards that function much as a board of directors 
might in a private corporation, and so on. We are building a hybrid, 
and this is still a work in progress. We are, in some respects, in 
uncharted territory, and this is in many ways an ongoing experiment. I 
want to commend in particular Jane Garvey for her energetic commitment 
to change at FAA. But we all need to recognize that this will not be a 
perfectly smooth ride, and the success of this approach is not 
guaranteed. It is something we have to make work. And we are going. to 
have to keep in mind that we simply cannot afford the high cost of 
having an air traffic control system that cannot meet the needs of this 
nation.
    Fifth, I have emphasized the management changes needed to make ATC 
modernization work, but we should also understand that it will take 
both improved management and adequate resources. Enactment of AIR-21 
was a very notable and positive step toward an Air Traffic Control 
system adequate to meet demand, but we need to make sure that we not 
only enact it but also fully implement it.
    Congestion is not only a problem in the air, it is a problem in 
virtually every mode of transportation. I want to mention in particular 
the problems we have in highways and transit. The Eisenhower Interstate 
Highway System did an extraordinary job of knitting our country 
together and making efficient nationwide highway transportation a 
reality both for people and for goods. The result was a quantum leap in 
the productivity and the competitiveness of our economy. But we are now 
losing that productivity to specific bottlenecks in the system, and 
gains made nationwide are too often being lost locally.
    In the ISTEA legislation in 1992 we attempted to address this 
critical problem, and it is something we are going to have to continue 
to address. We recognized that effective solutions to these bottlenecks 
would have to involve a high degree of local, metropolitan, and state 
involvement in order to build the broad spectrum of support necessary 
to overcome resistance and to get the problem solved. We also 
recognized that this could not be a one-size-fits-all approach, and 
that the combination of solutions needed in one location would not be 
the same combination of solutions needed in another location. Every 
instance requires its own mix of new highway capacity, better 
management of existing capacity, Intelligent Transportation Systems, 
transit, pedestrian improvements, and so on. To be effective in dealing 
with these bottlenecks we have to be prepared to use whatever mix of 
transportation alternatives will work, and we have to take a balanced 
approach to all alternatives. We have to constantly be looking for what 
works and what is the most cost-effective solution to the problem. We 
simply do not have the excess resources to do otherwise.
    TEA-21 has continued that approach, while providing badly needed 
addition capital investment.
    A third major area of challenge facing the Department is in the 
area of economic deregulation. We have come to rely far more on the 
marketplace to regulate transportation economics, and far less on 
government bureaucracies. In general, under deregulation the result has 
been to generate real benefits for many more people than was the case 
under regulation. As I indicated earlier, average airfares, for 
example, have declined nearly 20% in real terms in the past decade, and 
about 40% since the enactment of the Airline Deregulation Act. Every 
business in America is more productive and can offer its customers more 
for the money because of the efficiencies that have resulted from a 
more market-oriented system for the movement of freight. These are 
direct pocketbook benefits to every citizen.
    Nevertheless, we need to remember that these benefits rely on 
actual competition in the marketplace. No industry in America operates 
in a perfectly competitive market, but we need to make sure that every 
industry, including every transportation industry, operates in a market 
that is at least as competitive as it needs to be to protect the 
interests of consumers.
    This is not simply a case of government abandoning the field and 
leaving the marketplace to do it all. We have an affirmative 
responsibility to make sure that competition continues to be sufficient 
to protect the interests of consumers.
    The first of those responsibilities is one we have already 
discussed here today, and that is the responsibility to make sure that 
we have a transportation infrastructure adequate to meet demand. 
Nothing so surely restricts competition as inadequate infrastructure 
capacity. The result is not only the increased costs associated with 
congestion, as we have already discussed, but also the increased prices 
that come with the scarcity artificially imposed by infrastructure 
bottlenecks, It is the equivalent of double jeopardy for the consumer.
    Second, government needs to be the watchdog of competition, not to 
determine any particular outcome, but to assure that competitive 
conditions continue to exist. That means government needs to work with 
the marketplace and not against it, but it also means that there is a 
role for government.
    For example, in 1984, all consumer protection and fair competitive 
practices statutes at DOT with regard to airlines were set to expire by 
law. I led the effort to amend the law to retain those statutory 
authorities, and with them such consumer protection rules as the denied 
boarding compensation rules, the CRS rules, the smoking rules, and the 
notice to passengers about tariff conditions and the right to inspect 
the tariff. I am pleased to say that with the support of colleagues in 
both houses and on both sides of the aisle, we prevailed.
    By the same token, I have been increasingly concerned in recent 
years that in order to effectively use those authorities for the 
genuine benefit of consumers, we need far greater ability to analyze 
these complex industries and to better determine which proposed 
remedies will, in the real world, benefit consumers and which, however 
well-intentioned, will not. The analytic resources of the Department to 
do this kind of work have been greatly reduced, and we have to reverse 
that trend if we are to be effective in looking out for competition and 
for the consumer. I have made this a personal priority, and have 
discussed it with the President.
    And a fourth major challenge for the Department is that it serves 
in many ways as the nation's first line of defense and serves an 
important law enforcement function. I refer primarily to the Coast 
Guard, which accounts for 40% of the Department's personnel and some of 
its most important missions. The task of keeping that protective 
function of the Coast Guard up to the task is one that we will all need 
to focus on in the coming months.
    Let me close and turn to your questions with this thought. If I am 
confirmed, you get me as I am, and I am well-known to most of you. My 
style is inclusive. I want at DOT the greatest possible involvement of 
all levels of government, of all points of view, of all those committed 
to finding the solutions to the transportation problems that delay our 
citizens and burden our economy. And I want this Department to be a 
completely bipartisan department. I do not believe there is such a 
thing as Democratic or Republican traffic jams or Democratic or 
Republican solutions to those traffic jams. We all have the same 
interest in better-working transportation systems, and the only way we 
will get there is by all working together. I don't know any other way 
to do it.
    I thank you for your kindness in inviting me back yet once more, 
and I am prepared to try to answer your questions.
                                 ______
                                 
          Biographical and Financial Information Requested of 
                       Department/Agency Nominees

                      A. BIOGRAPHICAL INFORMATION

    1. Name: Norman Yoshio Mineta.
    2. Position to which nominated: U.S. Secretary of Transportation.
    3. Date of nomination: January 2, 2001.
    4. Address: Not available to the public.
    5. Date and place of birth: November 12, 1931, in San Jose, 
California.
    6. Marital status: Married to Danealia Darlene Mineta. Maiden name: 
Danealia Darlene Hill.
    7. Names and ages of children: David K. Mineta (son): 36; Stuart S. 
Mineta (son): 30; Robert M. Brantner (stepson): 30; and Mark D. 
Brantner (stepson): 29.
    8. Education: San Jose High School, San Jose, California, 1946-
1949, Diploma; University of California at Berkeley, Berkeley, 
California, 1949-1953, B.S.
    9. Employment record: 1953 to 1956: U.S. Army, Military 
Intelligence Officer, Korea and Japan; 1953 to 1966: U.S. Army Reserve, 
Attained Rank of Major; 1956 to 1992: Mineta Insurance Agency, Owned/
Managed family insurance business, San Jose, California; 1967 to 1971: 
City of San Jose, Member of City Council, San Jose, California; 1971 to 
1974: City of San Jose, Mayor, San Jose, California; 1975-1995: U.S. 
House of Representatives, Member, Washington, D.C.; 1995-1998: 1995 to 
4/98 Senior Vice President and Managing Director, Transportation 
Systems Services, Lockheed Martin Corp., Bethesda, Maryland; 1998-2000: 
Vice President, Special Business Initiatives, Lockheed Martin Corp., 
Bethesda, Maryland; 2000-present: Secretary of Commerce.
    10. Government experience: Metropolitan Washington Airports 
Authority Board of Review; Chair, 1987-1995, Metropolitan Washington 
Airports Authority Board of Review; Member, 2000 President's Advisory 
Commission on Asian Americans & Pacific Islanders; Member, 2000, 
Smithsonian Institution; Member, Board of Regents, 1977 to 1995; 
Member, National Board; Member, Smithsonian Environmental Research 
Committee; Chair, Asian Pacific American Advisory Committee; 
President's Commission on Critical Infrastructure Protection; Member, 
Advisory Committee, September-December 1997; National Civil Aviation 
Review Commission; Chair, 1997, U.S. Department of Transportation; 
Unpaid consultant to Secretary U.S. Department of Transportation, 
March-June 1999; Drafted Motor Carrier Safety Administration Report.
    11. Business relationships: Santa Clara University, Santa Clara, 
California; Members Board of Regents; Santa Clara, California.12. 
Memberships: Japanese American National Museum, Board of Directors; San 
Jose Chamber of Commerce; 1Center for Policy Alternatives, Board of 
Directors; Eno Transportation Foundation, Board of Directors; Aero Club 
of Washington, Board of Directors; Asian Pacific American Institute for 
Congressional Studies, Board of Directors; Junior Statesman Foundation, 
Board of Directors; History Museums of San Jose, Board of Directors; 
National Japanese American Memorial Foundation, Board of Directors; San 
Jose Museum of Art; Boy Scouts of America, Santa Clara County Council.
    13. Political affiliations and activities: (a) Candidacies: 1969, 
San Jose City Council (Appointed, 1967); 1971, Mayor of San Jose; 1974 
and every 2 years thereafter, through 1994, U.S. House of 
Representatives from San Jose, California. (b) Democratic Congressional 
Campaign Committee, member; Dukakis for President Committee, Co-Chair 
Santa; Clara County United Democratic Committee, member; Democratic 
Central Committee, Santa Cruz Country, member; Democratic State Central 
Committee, member. (c) Itemize all political contributions to any 
individual, campaign organization, political party, political action 
committee, or similar entity of $500 or more for the past 10 years.
    The following contributions were made by Mineta for Congress 
political action committee:


------------------------------------------------------------------------

------------------------------------------------------------------------
A Lot of Folks for Pat         Federal........     11/02/92      500.00
 Williams.
A Lot of People Supporting     Federal........      5/09/97      500.00
 Tom Daschle.
Abercrombie for Congress.....  Federal........     10/09/72     1000.00
Al Swift Campaign............  Federal........     11/02/92      500.00
Alan Wheat for U.S. Senate...  Federal........     05/04/94      500.00
A Lot of Friends for Pat       Federal........     11/07/94      500.00
 Williams.
Angelides for Treasurer......  Non-Federal....      9/14/97      500.00
Anna Eshoo for Congress......  Federal........      6/19/96      500.00
Anna Eshoo for Congress......  Federal........     10/15/96      500.00
Barca for Congress...........  Federal........      7/12/90      500.00
Bonior for Congress..........  Federal........     10/31/92      500.00
Boxer for Congress...........  Federal........     10/31/92     1000.00
Brennen of Governor/Maine....  Non-Federal....     10/26/90      500.00
Bud Cramer for Congress......  Federal........      9/28/92      500.00
Citizens for John Olver for    Federal........     05/30/91      500.00
 Congress.
Committee to Elect Antonio R.  Non-Federal....     03/31/98      500.00
 Villaraigosa.
Committee to Re-Elect Tom      Federal........     11/07/94
 Foley.
Committee to Re-Elect Wayne    Federal........     10/26/90      500.00
 Owen.
Congressman Bart Gordon        Federal........     06/03/96      500.00
 Committee.
Congressman Jerry Kleczka....  Federal........     01/09/96
Congressman Klidee Committee.  Federal........     11/07/94      500.00
Congressman William 0.         Federal........     05/15/92      500.00
 Lipinski Committee.
Daniel K. Inouye in `98......  Federal........     02/28/98     1000.00
Democratic Central Committee   Political           10/30/95     2000.00
 Santa Clara County.            Organization.
Democratic Congressional       Federal........     03/14/89     3000.00
 Dinner Committee.
Democratic Congressional       Federal........     03/27/91     3000.00
 Dinner Committee.
Democratic Congressional       Federal........     09/19/89     1000.00
 Campaign Committee.
Democratic Congressional       Federal........     02/05/90     5000.00
 Campaign Committee.
Democratic Congressional       Federal........     10/26/90      500.00
 Campaign Committee.
Democratic Congressional       Federal........     03/27/91     5000.00
 Campaign Committee.
Democratic Congressional       Federal........     11/06/91      500.00
 Campaign Committee.
Democratic Congressional       Federal........     04/06/92     5000.00
 Campaign Committee.
Democratic Congressional       Federal........     09/23/93     5000.00
 Campaign Committee.
Democratic Congressional       Federal........     05/17/94     5000.00
 Campaign Committee.
Democratic Congressional       Federal........     01/24/95     5000.00
 Campaign Committee.
Democratic State Central       Political           05/26/92     4000.00
 Committee.                     Organization.
Democratic Party, Santa Clara  Political           05/22/94      500.00
 County.                        Organization.
Democratic State Central       Political           09/25/92     2000.00
 Committee.                     Organization.
Don Beyer for Governor.......  Non-Federal....     09/07/97      500.00
Eshoo for Congress...........  Federal........     03/31/92     1000.00
Eshoo for Congress...........  Federal........     09/30/92     1000.00
Faleomavaega for Congress      Federal........     11/07/94      500.00
 Committee.
Fifth Exploratory Committee    Federal........     10/20/89     1000.00
 (Moffett).
Ford for Congress............  Federal........     10/31/91      500.00
Friends of Bob Carr..........  Federal........     10/31/92      500.00
Friends of Bob Carr..........  Federal........     07/22/94      500.00
Friends of Daniel Akaka......  Federal........     07/23/90     1000.00
Friends of Farr..............  Federal........     11/07/94     1000.00
Friends of Jim Oberstar......  Federal........     04/15/98      500.00
Friends of L.F.Payne.........  Non-Federal....     09/30/97      500.00
Friends of Mark Takano.......  Federal........     02/11/94      500.00
Friends/ Congressman George    Federal........     03/31/97      500.00
 Miller Committee.
Hamburg for Congress.........  Federal........     11/07/94     1000.00
Hefner for Congress..........  Federal........     10/26/90      500.00
Hoyer for Congress...........  Federal........      6/17/97      500.00
IMPAC 2000...................  Political           05/07/90   10,000.00
                                Organization.
IMPAC 2000...................  Political           06/04/90   25,000.00
                                Organization.
IMPAC 2000...................  Political           05/07/91   10,000.00
                                Organization.
IMPAC 2000...................  Political           07/10/91   10,000.00
                                Organization.
IMPAC 2000...................  Political           09/30/91   15,000.00
                                Organization.
Jerry Estruth for Congress     Federal........     10/17/95     5000.00
 Committee.
Keep George Brown............  Federal........     10/26/90     1000.00
Keep Nick Rahall in Congress   Federal........     11/02/92      500.00
 Committee.
Keep Nick Rahall in Congress   Federal........     03/13/98      500.00
 Committee.
Kennelly for Connecticut.....  Non-Federal....     04/15/98      500.00
Les AuCoin for Senate........  Federal........     06/24/91     1000.00
Les AuCoin for Senate........  Federal........     06/26/91     1000.00
Lynn Schenk for Congress.....  Federal........     11/07/94      500.00
Mike Honda for Assembly `96..  Non-Federal....     10/15/96      500.00
Moffett for Congress.........  Federal........     10/26/90      500.00
Nagle for Congress...........  Federal........     10/26/92      500.00
Nagle for Congress...........  Federal........     10/31/92      500.00
Pastor for Congress..........  Federal........     09/17/92      500.00
Price for Congress...........  Federal........     03/25/96      500.00
Rahall, Nick (Keep Nick        Federal........     05/02/90     1000.00
 Rahall/Congress).
Sam Farr for Congress........  Federal........      3/13/98      500.00
Santa Clara County United      Political            3/16/90    5,000.00
 Democratic Committee.          Organization.
Santa Clara County United      Political            9/30/96    1,610.00
 Democratic Committee.          Organization.
Sawyer for Congress..........  Federal........     11/07/94      500.00
Sherman for Congress.........  Federal........     10/09/96      500.00
Spratt for Congress..........  Federal........     07/16/96      500.00
Studds for Congress..........  Federal........     10/26/90     1000.00
Takano for Congress..........  Federal........     06/15/93      500.00
Torricelli for Congress......  Federal........     06/03/96     1000.00
Torricelli for Congress......  Federal........     06/03/96     1000.00
United Democratic Campaign...  Political           07/13/90      891.50
                                Organization.
United Democratic Campaign...  Political           07/23/90      931.50
                                Organization.
 United Democratic Campaign..  Political           08/15/90    2,464.50
                                Organization.
United Democratic Campaign...  Political           08/31/90    2,812.50
                                Organization.
United Democratic Campaign...  Political           09/13/90    2,113.50
                                Organization.
United Democratic Campaign...  Political           03/29/93      500.00
                                Organization.
United Democratic Campaign...  Political           03/25/92     1000.00
                                Organization.
United Democratic Campaign...  Political           09/30/94    2,500.00
                                Organization.
United Democratic Campaign...  Political           11/04/94    2,500.00
                                Organization.
United Democratic Campaign...  Political           11/28/95    5,500.00
                                Organization.
Victory '90 Federal Account..  Political           10/24/90    4,000.00
                                Organization.
Vinich for Congress..........  Federal........     04/20/89     1000.00
Washington State Democratic    Federal........     10/30/96    2,750.00
 Party.
Washington State Democratic    Federal........     10/30/90    2,750.00
 Party.
Wolpe for Congress...........  Federal........     10/26/90     1000.00
Woolsey for Congress           Federal........     12/21/93      500.00
 Committee.
Yates for Congress Committee.  Federal........     12/29/89     1000.00
------------------------------------------------------------------------

    14. Honors and awards: Due to my retirement from Congress 5 years 
ago, it is no longer possible to assemble a comprehensive list of my 
awards and honors. The following is my best effort to recall some of 
the awards and honors I have received over the years: Outstanding 
Citizen, San Jose, CA, 2000; Aviation Achievement Award, Aero Club of 
Washington, 1985; Industry Public Service Award. Air Transport World, 
1987; Award for Extraordinary Service, Federal Aviation Administration, 
1989; Martin Luther King, Jr. Commemorative Medal, George Washington 
University, 1995; Distinguished Service Medal, National Aeronautics and 
Space Administration, 1996; Hubert Humphrey Award, Leadership 
Conference on Civil Rights, 1996; Public Service Award, American 
Institute of Aeronautics and Astronautics, 1996; Glen A. Gilbert 
Memorial Award, Air Traffic Control Association; 1996 Joseph P. 
Hartranft, Jr. ``Doe Award'', Aircraft Owners and Pilots Association, 
1987; and Distinguished Service Award, American Public Transit 
Association, 1993.
    15. Published writings: Due to my retirement from Congress 5 years 
ago, it is no longer possible to assemble a comprehensive list of my 
published writings. The following is best effort to list as many of my 
published writings as I can: ``Winning the Peace,'' Sun World/view 
point--July 1991; ``Making Sense of the Census: An Opinion Editorial,'' 
The Rafu Shimpo, It Pays to Know--April 18, 1990; ``Congressional 
Insight: Biotechnology and the Future,'' Details--May/June 1991; 
``Mineta on Strategy: Government Should Help, Not Ignore, U.S. 
Companies in World Markets,'' The Business Journal (Santa Clara 
Valley)--October 16, 1989; ``Will there Be Life in Our Space Program,'' 
AD ASTRA Space Politics Forum--November 1989; ``Comments to Letter to 
Gorbachev (Perspective),'' San Jose Mercury News--June 3, 1990; ``In 
Cast of Oil Emergency,'' San Jose Mercury News--October 15, 1990; 
``Time to Rebuild America,'' State Government News November 1991; ``Ice 
Tea' is Working,'' ROLL CALL, Infrastructure Policy Briefing, June 29, 
1992; ``Override Bush's Veto on the FSX,'' San Jose Mercury News, 
Commentary--August 4, 1989; ``Defining the Federal Role in 
Infrastructure Funding,'' Stone Review--April 1991; ``Trains, Planes, 
and Automobiles--Getting from Here to There in the 1990s,'' TRAIL--
February 1991; ``ADA: A Matter of Civil Rights,'' Worklife--Fall 1990; 
``National Transportation Systems--SOLUTIONS FOR THE FUTURE,'' DES--
October 1990; ``Penny-Wise and Pound-Foolish,'' ROLL CALL 
Infrastructure Policy Briefing--July 23, 1990; ``Mobility Safety 
Concern Congress,'' Roads and Bridges--December 1989; ``U.S. Airlines 
Should Not Be Routinely Repaired Overseas,'' Scripps Howard News 
Service--December 11, 1989; ``Infrastructure: The Federal Road Ahead,'' 
Stone Review--April 1989; ``Curing the Air Travel Crunch,'' Air and 
Space--October/November 1987; ``Building the Future Today,'' U.S. 
MAYOR--February 15, 1993; ``Looking To The Future,'' Heavy/Highway 
Report--January 1993; ``Reinventing Superfund,'' ROLL CALL Environment 
Policy Briefing--July 25, 1994.; ``Technology in Motion; Privacy at 
Issue,'' San Jose Mercury News--September 4, 1994; ``The Flight Into 
the 104th Congress,'' The Alliance (published by the Association of 
Flight Attendants (SFO United Council 11))--March 20, 1995; ``In 
Transit We Trust,'' San Jose Mercury News--March 17, 1995; ``Now, the 
Point is `Nonpoint','' ROLL CALL Environment Policy Briefing--April 3,1 
995; ``GOP Congress Must Exempt Infrastructure From Its Attacks on 
Government Spending,'' ROLL CALL, Infrastructure Policy Briefing--May 
8, 1995; ``The Wounds of War,'' People Magazine--December 14, 1987
    16. Speeches: Provide the Committee with two copies of any formal 
speeches you have delivered during the last 5 years which you have 
copies of topics relevant to the position for which you have been 
nominated.
    Due to my retirement from Congress 5 years ago, it is no longer 
possible to assemble a comprehensive list of my speeches. However, I 
have given approximately ten speeches in two areas: Asian Pacific 
American Affairs and Federal aviation matters. I do not have copies of 
these speeches readily at hand. I will attempt to provide copies of 
these speeches if the Committee so desires.
    17. Selection: (a) I assume I was nominated because of my long 
record on transportation issues, because of my belief that 
transportation is key to so much of our economic strength and quality 
of life, and because of my commitment to transportation programs that 
move us forward in those areas. (b) Please see my answer to Question F 
(1) of this questionnaire.

                   B. FUTURE EMPLOYMENT RELATIONSHIPS

    1. Will you sever all connections with your present employers, 
business firms, business associations or business organizations if you 
are confirmed by the Senate?
    Yes.
    2. Do you have any plans, commitments or agreements to pursue 
outside employment, with or without compensation, during your service 
with the government?
    No.
    3. Do you have any plans, commitments or agreements after 
completing government service to resume employment, affiliation, or 
practice with your previous employer, business firm, association, or 
organization?
    No.
    4. Has anybody made a commitment to employ your services in any 
capacity after you leave government office?
    No.
    5. If confirmed, do you expect to serve out your full term or until 
the next Presidential election, whichever is applicable?
    Yes.

                   C. POTENTIAL CONFLICTS OF INTEREST

    1. Describe all financial arrangements, deferred compensation 
agreements, and other continuing dealings with business associated, 
clients or customers.
    As an employee of Lockheed Martin Corporation, I received a salary, 
certain stock options, retirement benefits, 401(k), and health 
benefits. In addition, as a former Member of Congress, I am vested in 
the Federal retirement plan and draw a retirement annuity.
    2. Indicate any investments, obligations, liabilities, or other 
relationships, which could involve potential conflicts of interest in 
the position to which you have been nominated.
    I retained stock and stock options with Lockheed Martin. I will 
disqualify myself from participation in matters likely to affect these 
interests, consistent with ethics regulations. I do not anticipate 
these holdings creating a conflict of interest with my duties in light 
of this recusal.
    3. Describe any business relationship, dealing, or financial 
transactions which you have had during the last 10 years, whether for 
yourself, on behalf of a client, or acting as an agent, that could in 
any way constitute or result in a possible conflict of interest in the 
position to which you have been nominated.
    During the past 10 years, I have had no clients and only three 
employers. I do not anticipate any conflict of interest being created 
by any of my past activities. I will disqualify myself from 
participating in matters concerning Lockheed Martin or organizations 
with which I have served, as provided in ethics regulations.
    4. Describe any activity during the past 10 years in which you have 
been engaged for the purpose of directly or indirectly influencing the 
passage, defeat or modification of any legislation affecting the 
administration and execution of law or public policy.
    Until October, 1995, I had served as a member of the US House of 
Representatives continuously since January, 1975. I have been outspoken 
in matters related to Asian Pacific Americans. I have also served on 
Federal panels in public proceedings and have testified to Congress in 
related matters. Presently, I am serving as Secretary of Commerce.
    5. Explain how you will resolve any potential conflict of interest, 
including any that may be disclosed by your responses to the above 
items. (Please provide a copy of any trust or other agreements.)
    I will consult with ethics officials of the Department of 
Transportation and, if appropriate, divest myself of conflicting 
interests, recuse myself, or obtain a waiver of conflict of interests 
restrictions, if applicable.
    6. Do you agree to have written opinions provided to the Committee 
by the designated agency ethics officer of the agency to which you are 
nominated and by the Office of Government Ethics concerning potential 
conflicts of interest or any legal impediments to your serving in this 
position?
    Yes.

                            D. LEGAL MATTERS

    1. Have you ever been disciplined or cited for a breach of ethics 
for unprofessional conduct by, or been the subject of a compliant to 
any court, administrative agency, professional association, 
disciplinary committee, or other professional group? If so, provide 
details.
    No.
    2. 1Have you ever been investigated, arrested, charged or held by 
any Federal, State, or other law enforcement authority. for violation 
of any Federal, State, county, or municipal law, regulation or 
ordinance, other than a minor traffic offense? If so, provide details.
    No.
    3. Have you or any businesses of which you are or were an officer 
ever been involved as a party in interest in an administrative agency 
proceeding or civil litigation? If so, provide details.
    I'm aware of none.
    4. Have you ever been convicted (including please of guilty or nolo 
contendere) of any criminal violation other than a minor traffic 
offense?
    No.
    5. Please advise the Committee of any additional information, 
favorable or unfavorable, which you feel, should be considered in 
connection with your nomination.
    None.

                     E. RELATIONSHIP WITH COMMITTEE

    1. Will you ensure that your department/agency complies with 
deadlines set by congressional committees for information?
    To the limits of my powers, yes.
    2. Will you ensure that your department/ agency does whatever it 
can to protect congressional witnesses and whistle blowers from 
reprisal for their testimony and disclosures?
    To the limits of my powers, yes.
    3. Will you cooperate in providing the committee with requested 
witnesses, to include technical experts and career employees with 
firsthand knowledge of matters of interest to the committee?
    To the limits of my powers, yes.
    4. Are you willing to appear and testify before any duly 
constituted committee of the Congress on such occasions as you may be 
reasonably requested to do so?
    To the limits of my powers, yes.

                  F. GENERAL QUALIFICATIONS AND VIEWS

    Please describe how your previous professional experience and 
education qualifies you for the position for which you have been 
nominated.
    1. How have your previous professional experience and education 
qualified you for the position for which you have been nominated?
    Beginning with my experience as Mayor of San Jose, I came to 
appreciate the importance of transportation in generating and enabling 
economic growth, in determining the patterns of that growth, and 
ultimately in determining the quality of life of our citizens. From the 
time I arrived in Congress I have served on transportation committees 
and played a major role in transportation issues and legislation. 
During my 20-plus years in the House I served on the Transportation and 
Infrastructure Committee (formerly the Public Works and Transportation 
Committee), and chaired at various times both its Aviation Subcommittee 
and its Surface Transportation Subcommittee. Ultimately I chaired the 
full Committee. After leaving Congress, I served as head of the 
Transportation Systems and Services unit of Lockheed Martin IMS. And 
most recently, as Secretary of Commerce, I had responsibility for 
programs with particular relevance for transportation, such as weather 
reporting, trade and tourism, and ocean policy.
    2. Why do you wish to serve in the position for which you have been 
nominated?
    I believe transportation plays a key role in our standard of 
living, and it does. so by being a primary factor in economic growth, 
in the livability of our communities, in the public safety, and in the 
competitiveness of our businesses in the world economy. To the extent 
we can have safe and efficient transportation systems, we make real 
progress toward all those goals. I cannot think of a better field in 
which to serve the public interest.
    3. What goals have you established for your first 2 years in this 
position, if confirmed?
    I intend to work on many issues, foremost among them:
    <bullet> Preserving and improving on generally strong safety 
records in our transportation modes.
    <bullet> Building toward a transportation infrastructure which is 
fully able to meet the demands of our growing economy and which can 
contribute to that growth by providing greater efficiency in the 
movement of people and goods. Strong economic growth in recent years 
has given us greater demand in some modes than our existing 
infrastructure can efficiently handle, most notably in aviation and 
highways/transit. This inefficiency creates a drag on the economy that 
burdens future growth. I would like to put us well on the path to a 
transportation infrastructure fully and efficiently able to meet the 
demand our present economy places and our future economy will place on 
it.
    <bullet> Economic deregulation of transportation has been a major 
contributor to improved transportation efficiency and therefore to 
growth. Furthermore, in many instances, economic deregulation has 
distributed the benefits of our transportation systems far more widely 
in our society. I want to see economic deregulation and the. 
competition that makes it work, continued and strengthened, and I want 
to see its benefits even more widely distributed throughout our 
society.
    <bullet> Our air traffic control system in particular has not been 
able to keep up with the rising demands put on it. Where and when it is 
not able to meet demand, we quite rightly take the penalty for that 
shortfall in increased delays, rather than in a reduced margin of 
safety. Nevertheless we pay a very large penalty throughout our economy 
for those delays. We have simply not been able to bring to bear on the 
problem of air traffic control the full technological advances our 
society has generated in the past decade. I would like to put us well 
on the path to accomplishing that.
    <bullet> Our surface transportation system nationwide is burdened 
by bottlenecks and choke points of its own, often in and around major 
metropolitan areas. We need not only to invest more in the 
transportation infrastructure solutions. to those bottlenecks, given 
the enormous size of the problem we need to invest in each instance in 
the most cost-effective solution. That will sometimes be new roads, 
sometimes transit, sometimes modifications to existing infrastructure, 
such as HOV, coordinated signalization, and other applications of hi-
tech to the problem of more efficiently moving traffic. Above all we 
need a balanced approach to these decisions, not automatically favoring 
one solution over another, but looking for the best solution in that 
particular location. And that inherently calls for full participation 
in those decisions by local, metropolitan, and State officials. I would 
like to further strengthen our balanced approach to solving these 
problems, and to do it with full participation by all levels of 
government.
    4. What skills do you believe you may be lacking which may be 
necessary to successfully carry out this position? What steps can be 
taken to obtain those skills?
    I believe that I have the skills necessary to meet the 
responsibilities of this position. However, I also realize that this 
position carries with it high expectations across a wide range of 
areas, and I am sure there will be humbling moments in the face of 
great challenges.
    5. Please discuss your philosophical views on the role of 
government. Include a discussion of when you believe the government 
should involve itself in the private sector, and what standards should 
be used to determine when a government program is no longer necessary.
    I believe that the proper test of what should be determined by the 
public sector and what should be determined by the private sector is 
what is in the public's best interest? And I believe that is a case-by-
case determination and a pragmatic issue, not one appropriate to 
across-the-board or ideologically driven answers.
    I believe that what the private sector, and the competitive market 
in particular, does well for the public interest, it does better than 
any other mechanism. But I also believe that it does not do everything 
well for the public interest.
    We, as policymakers and as citizens, are called upon to parse out 
which mechanism best serves the public interest in each instance, and 
that has always been the role of policymakers and citizens in our 
country.
    Let me give some more specific examples.
    I believe that the national defense, and the decisions about the 
use of military force and the size, deployment, and preparedness of our 
military forces are decisions best made in the public interest when 
they are made by the public sector. But I believe that decisions about 
how best to manufacture the weapons and other materiel necessary to 
support our military are best made in the public interest when made in 
a competitive marketplace in response to public sector specification of 
the military's needs.
    I believe that in specific instances the marketplace does not take 
us toward the public interest unless basic limits are set by the public 
sector. In areas such as the environment or worker safety, unfettered 
competition will reduce those areas to levels of protection well below 
what is in the public interest. However, if the public sector then sets 
limits of permissible behavior and allows free competition within those 
limits, the private sector will make the best decisions through a 
competitive marketplace as to how to produce products within those 
limits. And the private sector will make the best decisions with 
respect to how to comply with those limits, e.g., as a general matter, 
the public sector should prohibit levels of pollution above a certain 
level, but leave it to the private sector to determine how best to 
reduce pollution to that prescribed level. In that regard, I support 
the idea in the Clean Air Act that we should not only limit the amount 
of pollution emitted in a metropolitan axea, but we should also allow 
the competitive marketplace to reallocate those limited allowances to 
pollute, so that we always get the greatest possible economic output 
from the limited amount of pollution allowed. That example seems to me 
to be a very appropriate blending of private and public sector 
decisionmaking.
    And I believe that in transportation in particular, the public 
sector has a key role in determining the limits with respect to safety, 
including, for example, the design and maintenance of aircraft, and 
separation standards for air traffic control. But the basic allocation 
of assets--where to fly the aircraft, when, and how to price those 
seats--are questions where the private sector has done a far better job 
(not perfect, but far better) of allocating under deregulation than the 
public sector did prior to deregulation. And that is why I was an early 
advocate of economic deregulation--not only in airlines but also in 
trucking, buses, and to a large degree in railroads--and have defended 
it since. I believe that the overall economic efficiencies economic 
deregulation has brought to our transportation sector, and through it 
to all sectors of the economy, all of which rely on transportation and 
pay for it, have been a significant factor in the extraordinary 
performance of our economy in the past decade. My particular concern in 
this area is that it is not enough in transportation for the public 
sector to simply say it has economically deregulated, it also needs to 
make sure that the mechanisms are in place for there to be adequate 
transportation infrastructure capacity in place (whether created by 
private or public investment) so that a competitive marketplace is 
realistic possibility. In that regard I worry in particular about our 
investment in highway, transit, and air traffic control capacity, 
particularly in light of the strong demand being created in these areas 
by our strong economy.
    6. In your own words, please describe the agency's current 
missions, major programs, and major operational objectives.
    The ten agencies and the Bureau of Transportation Statistics that 
make up the Department have a broad range of responsibilities, but the 
overarching objective is to maintain the enviable safety record in 
transportation and to improve upon it. Additional major objectives 
include providing for the efficient movement of people and goods, 
improving through transportation the nation's economic growth and 
competitiveness, and enhancing the quality of life. Under the 
Government Performance and Results Act (GPRA), the Department's stated 
mission is to provide ``a safe transportation system that furthers our 
vital national interests and enhances the quality of life of the 
American people.'' I agree with this mission.
    Most of the Department's agencies have a long-established history 
and a clear safety regulatory presence, such as the Federal Aviation 
Administration's (FAA) Federal Aviation Sub Regulations, the Coast 
Guard's regulations for vessels and seamen, and the design standards of 
the Federal Highway Administration (FHWA) for the National Highway 
System. One newly created agency, the Federal Motor Carrier Safety 
Administration, has substantial safety challenges to address, and 
should receive the highest level of focus from the Department's new 
leadership. Close coordination with the National Transportation Safety 
Board is also integral to carrying out the Department's broad safety 
duties.
    Through the FAA, the FHWA, and the Federal Transit Administration, 
the Department fulfills another national objective: assuring the 
transportation capacity that allows our economy to perform at its best. 
For example, the growing congestion in airline travel, particularly at 
identified ``choke points'' primarily in the eastern portion of the 
United States, calls for a combination of actions. My time as the 
Secretary of Commerce has convinced me of the close relationship of our 
economic well being, and the world's economic health as well, with 
having the needed infrastructure in place, whether it is in the 
communications, transportation, or energy sector. Having the capacity 
at our borders to process the passengers and cargo entering and leaving 
the United States is just a single case of where the Department has a 
role in assuring the smooth functioning of our economy.
    In terms of major operational objectives, it will be incumbent upon 
the DOT and FAA leadership to coordinate action among government, 
airport operators, and the airlines to bring to bear upon the air 
traffic control system all the tools at our disposal to address the 
congestion problems that have developed in the past 2 years. The 
industry and air travelers deserve a heightened effort by the 
Department.
    The U.S. Coast Guard is an sub-agency of the Department whose 
missions exemplify the breadth of the Department's responsibilities. In 
addition to assuring the safety of vessels and seamen, the Coast Guard 
enforces fishing laws, immigration along our water borders, and 
environmental requirements under the Clean Water Act. The Oil Pollution 
Act of 1990, enacted following the Exxon Valdez disaster, is just one 
element of the Coast Guard's responsibilities.
    7. In reference to question No. 6, what forces are likely to result 
in changes to the mission of this agency over the coming 5 years.
    Speaking broadly, the globalization of business alliances and trade 
activities have an enormous impact on transportation activities, most 
importantly in pressure on traditional bilateral arrangements, and on 
issuing high standards .of safety internationally. For example, we are 
seeing the beginning of a shift from a bilaterally structured civil 
aviation world regime to a more multilateral approach. Not only are 
airlines engaged in multinational alliances creating global system 
networks, but the legal and regulatory regimes are moving from the 
decades old bilateral system to multilateral pacts.
    The ``digital revolution'' is reshaping transportation activity, 
both governmental and private-sector, in ways that would have been 
unimaginable just a few years ago. Much of this is exemplified in the 
large and growing ``Intelligent Transportation Systems'' that Congress 
wisely initiated at DOT in the early 1990s. Separately, the Department 
of Transportation is also taking advantage of internet and other 
technologies to simplify its business regulatory practices, such as by 
allowing re-registration of motor carriers with a credit card at a 
secure Departmental website across the internet. Making full use of 
these ``digital tools'' is a challenge that will test the Department's 
flexibility.
    At the agency program level, new problems arise regularly, and 
agency missions must adapt, as has just occurred in the case of tire 
failure statistics generated in foreign countries that did not come to 
the attention of the Department soon enough under existing statutory 
authority. The recent enactment of the ``TREAD'' statute is an example 
of how Congress and the executive branch must work together to keep the 
Department's safety mandate working well. Another important safety area 
in flux is ``code sharing'' by U.S. and international airlines and its 
safety consequences. Code-sharing refers to a common industry practice 
by which one airline offers service in its own name to a particular 
city, but some or all of the transportation is provided by another 
airline, which carries the first airline's designator code. While 
codesharing allows airlines to provide more convenient and often 
seamless service to travelers, the Department has recognized the need 
to assure that passengers holding U.S. airline tickets, but traveling 
on a foreign airline for all or a portion of their journey, are 
provided with service that meets international standards of safety.
    Last, I would note that the Department, like most other Federal 
agencies, faces a severe challenge in continuing to attract a highly 
qualified workforce to replace the significant percentage of 
professionals and others who are eligible now or soon to retire. 
Retention and recruitment of an able staff will be a major challenge 
for the Department's new leadership.
    8. In further reference to question No. 6, what are the likely 
outside forces which may prevent the agency from accomplishing its 
mission? What do you believe to be the top three challenges facing the 
department/agency and why?
    Based on my recent experience as the Secretary of Commerce and with 
my background in transportation issues at the local and Federal levels, 
I would continue to identify the same challenges as I have in the past 
for leading a cabinet-level agency. The top three challenges are: (1) 
maintaining focus and effectiveness in a world that is increasingly 
globalized and interconnected, (2) continuing to effect change within 
the Department, and (3) working with Congress to ensure the Department 
has adequate resources. To this list, I would add the particular 
challenge of air travel congestion, which must be a central focus of 
the next Secretary.
    As our world becomes more complex, a Department with the breadth of 
responsibilities assigned to the DOT will inevitably be pulled in many 
different directions. As I noted in my response to question 7, an 
agency cannot continue to do business in traditional fashion. This is 
an unending process, which I greet as an opportunity to do more for our 
stakeholders, not less. To meet these challenges will require evolution 
in how we do business and the tools we use. Change will raise concerns 
from some stakeholders within and outside the Department.
    Finally, to meet these challenges, the Department will need 
adequate funding. I look forward to working with you on all these 
fronts.
    9. In further reference to question No. 6, what factors in your 
opinion have kept the department/agency from achieving its missions 
over the past several years?
    The Department has strained against some key limitations, and has 
done remarkably well given those limitations. They include:
    <bullet> A heightened challenge in attracting and retaining the 
highly qualified workforce needed to do the job, particularly in those 
fields, such as management of large hi-tech innovation and 
implementation, which are in greatest demand in the private sector.
    <bullet> Capital funding necessary to keep infrastructure capacity 
capable of meeting demand. Recent enactment of TEA-21 and AIR-21 have 
relieved much of this limitation, but that assumes the funding levels 
in those statutes are maintained.
    <bullet> Operational budgets have often struggled to keep up with 
rising demand as well.
    <bullet> Resistance, internal and external, to making the kinds of 
changes, particularly with regard to large operational responsibilities 
such as ATC, to acquire more of the nimbleness, innovative thinking, 
and responsiveness necessary if we are going to be able to keep pace 
with rising demand for these services. This includes slow 
implementation of such basic management tools as an accurate cost-
accounting methodology and the filling of new positions designed to 
focus the management of these operations.
    10. Who are the stakeholders in the work of this agency?
    The immediate stakeholders in Department of Transportation programs 
are the users of transportation and allied systems and the many 
entities that combine together to provide transportation services. This 
means every motorist and every air traveler, of course, but it extends 
to motor carriers, airlines, marine operators, and all their employees. 
It means State and local agencies that construct and maintain our 
airports, highways, transit facilities and more. It means the 
international bodies and foreign government agencies with which this 
country interacts on formal and informal transportation policies and 
issues. It can mean other Federal agencies that conduct transportation-
related operations, such as the Weather Service at the Department of 
Commerce that operates aircraft subject to FAA regulation. But the 
ultimate stakeholders in this Department are every business and every 
citizen who relies on transportation to move people and goods 
efficiently and safely. Transportation is a key cost element for every 
business and for every citizen. The efficiency of the transportation 
systems on which we all depend ultimately determines our productivity 
and therefore, our standard of living. Therefore, ultimately every 
business and every citizen is a stakeholder of this agency.
    In drafting and updating its Strategic Plan and fulfilling the 
requirements of the Government Performance and Results Act, it has been 
the tradition at the Department of Transportation to ``cast a broad 
net'' in terms of seeking the viewpoints of its potential stakeholders, 
and I would continue that philosophy because I believe it reflects 
reality and it leads to the best results.
    11. What is the proper relationship between your position, if 
confirmed, and the stakeholders identified in question number eleven?
    Clear legislative mandates, executive orders and departmental 
guidance govern the proper relationship between the Secretary and 
stakeholders in all these areas. That relationship is defined by 
balancing the necessary access that any agency must provide to its 
stakeholders with the clear legal and ethical standard of not allowing 
special interests to dictate in any way the policy and operations of 
the Department. I can assure you that I will continue my practice at 
the Department of Commerce in adhering to both the letter and spirit of 
those documents and other available guidance.
    12. The Chief Financial Officer Act requires all government 
departments and agencies to develop sound financial management 
practices similar to those practiced in the private sector.
    (a) What do you believe are your responsibilities, if confirmed, to 
ensure that your agency has proper management and accounting controls?
    This requirement of the Chief Financial Officer Act is valuable. My 
time in the private sector has confirmed my view that Federal agencies 
will benefit from taking a much more business-like approach to handling 
their budgetary and capital resources. I know that this can be a 
wrenching experience for Federal managers, but it is worth it. I am 
aware that it is one of the top 10 ``management challenges'' identified 
by the DOT Inspector General for action. Also, the Department's current 
accounting system has a number of deficiencies and is not compliant 
with current Federal requirements (i.e., standard general ledger). An 
improved commercial product is being implemented to replace the current 
DAFIS system. My responsibility would be to work with the Chief 
Financial Officer and the Inspector General to put these reforms in 
place rapidly.
    (b) What experience do you have managing a large organization?
    As Chairman of the House Transportation and Infrastructure 
Committee (then the Public Works and Transportation Committee) I had 
ultimate management responsibility for the budget, personnel, and 
workings of a major House Committee. Subsequently I was the head of the 
Transportation Systems and Services unit of Lockheed Martin IMS, where 
I had responsibility for budget, personnel, business plan, and results. 
And most recently I have served as Secretary of Commerce.
    13. The Government Performance and Results Act requires all 
government departments and agencies to identify measurable performance 
goals and to report to Congress on their success in achieving these 
goals.
    (a) Please discuss what you believe to be the benefits of 
identifying performance goals and reporting on your progress in 
achieving those goals.
    I am accustomed to setting goals and measuring the performance of 
myself and others against those goals, particularly in my managerial 
experience in the private sector. This can be a useful process, first 
at focussing attention and resources on agreed to objectives, and 
second in measuring what works, what does not, what needs to be 
modified, where additional resources need to be applied, and so on.
    (b) What steps should Congress consider taking when an agency fails 
to achieve its performance goals? Should these steps include the 
elimination, privatization, downsizing or consolidation of.departments 
and/or programs?
    Congress should consider all those steps, and a number of others as 
well, including whether the goals set were realistic, whether the 
resources supplied were sufficient, whether uncontrollable external 
factors prevented success, and whether any better alternative exists to 
the approach taken.
    (c) What performance goals do you believe should be applicable to 
your personal performance, if confirmed?
    I believe the answer I gave to question 3 above would serve as both 
a list of major goals and as the yardstick by which I should be judged.
    14. Please describe your philosophy of supervisor/employee 
relationships. Generally, what supervisory model do you follow? Have 
any employee complaints been brought against you?
    I have always taken the approach that supervisor/employee 
relationships should be mutually respectful, cooperative, characterized 
by open, two-way communication, and professional. I am not aware of any 
employee complaints brought against me.
    15. Describe your working relationship, if any, with the Congress. 
Does your professional experience include working with Committees of 
Congress? If yes, please describe.
    Obviously my professional experience includes working with 
Committees of Congress. I was a Member of Congress for 21 years, 
chaired four different Subcommittees, and chaired a major Committee in 
the House. I clearly hold the view that Congress in general and the 
relevant committees of Congress in particular are a central part of our 
national decisionmaking.
    16. Please explain what you believe to be the proper relationship 
between yourself, if confirmed, and the Inspector General of your 
department/agency.
    While the Inspector General of an agency is, of course, an employee 
subject to the general supervision and direction of the Secretary and 
the Deputy Secretary, the position is a Presidential appointment that 
requires a stated basis for termination. This and the indefinite term 
of the office provides important ``insulation'' to the incumbent to 
provide accurate and vital findings and recommendations about the 
implementation of the Department's programs. In addition, the Inspector 
General is statutorily directed to report directly to Congress about 
activities semiannually. In my view, these provisions are needed and 
valuable to assure a Secretary that the Inspector General is able and 
willing to provide the best level of advice and recommendations. I 
always considered this a great benefit at the Department of Commerce 
and would expect the same to the case at the Department.
    17. In areas under the department/agency's jurisdiction, what 
legislative action(s) should Congress consider as priorities? Please 
State your personal views.
    By legislative action, I assume not only enactment of laws but also 
other forms of legislative action should be considered.
    Clearly one of the most pressing problems facing the Department and 
our Nation is putting the ATC system on a path that will enable it to 
grow and modernize at a pace sufficient to keep pace with demand. The 
traditional approach to ATC simply has not been able to do that, and we 
have, as a result of various agency initiatives, legislative actions, 
and the recommendations of the National Civil Aviation Review 
Commission, taken a variety of steps toward modifying the way FAA 
designs, builds, and operates the ATC system. This is an area that is 
very much a work in progress, and the stakes riding on this effort are 
very high. It is not yet clear exactly how far toward the solution the 
steps already implemented, and those just being launched, will take us, 
and how much more will need to be done to meet the goal. This is an 
area where Congress needs to provide the resources, but may need to do 
more as well--funding is a necessary, but not sufficient, part of the 
solution. This is something we will all need to judge as we go along.
    Reauthorization of TEA-21 and AIR-21, though not immediate 
requirements, will increasingly occupy both the Department and 
Congress. We need to judge what is working and what is not, and to 
begin to formulate our views for the upcoming reauthorizations. In 
addition, continuing to carry out the provisions of TEA-21 and AIR-21 
in the time remaining until reauthorization should be a priority for 
Congress.
    Amtrak is an important near-term priority for Congress. Amtrak is 
working toward the goal of covering its operational costs, but 
essential to that is that the Federal Government will invest in the 
capital requirements of the system. That is something that requires the 
immediate attention of Congress.
    And in general Congress needs to focus on the resources necessary 
for the operational requirements of the department. TEA-21 and AIR-21 
made real progress on the capital side of the budget, and for that 
Congress is entitled to a well-earned sense of accomplishment. But it 
takes continuing focus on the operational issues as well. These include 
the FAA operations account, Coast Guard operations, strengthening the 
department's ability to analyze economic regulatory issues including 
mergers, making real the promise inherent in creating the new Federal 
Motor Carrier Safety Administration, and making sure NHTSA has the 
resources necessary to carry out the expanded responsibilities put on 
it with the recent TREAD legislation. In addition, the Essential Air 
Service program, for reasons of changing costs and structure in the 
commuter airline industry, increasingly finds itself straining against 
the limits of its current funding mechanism. This is an issue both the 
department and the Congress will need to consider in the coming months.
    18. Within your area of control, will you pledge to develop and 
implement a system that allocates discretionary spending based on 
national priorities determined in an open fashion on a set of 
established criteria? If not, please State why. If yes, please State 
what steps you intend to take and a timeframe for implementation.
    The Department has responsibility for a relatively large amount of 
grant spending, the largest portion of which is the highway program. 
However, much of this spending, and a very high percentage of the 
highway program, is essentially pass-through funding, with allocations 
made directly to State or local governments, which in turn prioritize 
the actual projects, so long as they meet the basic requirements for 
eligibility. As a percent of its total grant spending, the Department 
therefore has a relatively small percentage of funds over which it has 
discretion. In addition, Congress increasingly earmarks even these 
funds for specific projects.
    I believe that because our transportation funds are inherently 
limited, and because our economy so depends on our making cost-
effective investments with those funds we can invest in transportation 
infrastructure, we have an obligation to spend those funds in the most 
cost-effective way possible. The Department generally has publicly 
stated criteria by which it makes these judgments, and we should 
continue to work on these criteria to make them as effective as they 
can possibly be. But if our transportation investments are to be truly 
cost-effective, serious effort by State and local governments and by 
Congress will also be required.

    The Chairman. Thank you, very much. And we will, if it is 
agreeable to the members, we will do 6-minute questionings. And 
we will have a second round if necessary. Mr. Mineta, let me 
just elaborate a second on your comments on aviation.
    Obviously, we have been wrestling with these issues on this 
Committee for many years, all of us on a bipartisan basis. I 
believe that you have to now start thinking outside the box.
    I do not know if it is auctioning of slots at prime times. 
I do not know if it is privatization of the air traffic control 
system. I do not know if it is regulations that will somehow 
allow or make it easier for new entrants to enter and compete. 
Clearly, there has been and we are facing consolidations and 
mergers that are unprecedented which have significant 
implications to competition. I do not know what these answers 
are.
    But I know that each one of these proposals is going to 
offend some constituency, some major powerful force here in the 
Congress and the United States. You are going to have to take 
some of them on. The one thing that none of us disagree on is 
that we are approaching and have reached in some cases--
certainly last summer's bad weather was a great example--of 
gridlock in the aviation system.
    Senator Stevens and I were just talking about why is it 
that they will not expand an airport in some parts of the 
country when it is clearly needed, when you must do that, and 
then complain about the lack of air service and the gridlock.
    So we are going to have to take on some pretty powerful 
forces if we are going to reverse this trend which your 
Commission deemed inexorable. Americans deserve better. And as 
you made reference, sooner or later, it is bound to have some 
effect on America's economy.
    So I think one of our highest priorities working with 
Senator Hutchison, Senator Rockefeller and others is that we 
address this aviation issue and soon. The American people 
deserve better than what they have been getting from their 
government. And frankly, not just their Federal Government, but 
their State and local governments as well.
    During the last 2 weeks of Secretary Slater's service, he 
awarded approximately $20 million in Federal funding to his 
home State of Arkansas for various transportation projects. 
Just last week he awarded $4.8 million in grants for Arkansas 
Transit Airports and rural transportation studies. The previous 
week, he awarded an additional $9 million in airport funding. 
Frankly, I believe this action by the Secretary given the 
timing raises questions about the justifications for such 
funding as well as the motives for the last minute awards. What 
assurance can you offer this Committee that under your 
leadership the awarding of discretionary funding will be based 
solely on merit rather than politics or other inappropriate 
criteria? And that under your watch there will not even be an 
appearance of personal or political favoritism in the awarding 
of discretionary funding?
    Mr. Mineta. Mr. Chairman, first of all, I think in my years 
of public service I have tried to approach issues based on what 
is right, whether that be based on good science, whether it be 
based on good public policy. And so to the extent that good 
science or good public policy would direct that all those funds 
go to California instead of Arkansas, that would be part of the 
picture.
    [Laughter.]
    Mr. Mineta. No, but seriously, Mr. Chairman, as I said , I 
think if you look at my record over the years, it has always 
been based on good policy, good science. And you will find that 
to be the case in the future.
    The Chairman. Thank you. But I do not think--well, I think 
I have said enough.
    Mr. Mineta. Mr. Chairman, it will go back to some of that 
other portion that you mentioned and that is it may offend some 
people.
    The Chairman. Thank you. The astronomical costs of 
transportation projects should be of top concern to the 
Department. The cost overruns associated with the Boston 
Central Artery Tunnel project, the so-called Big Dig, have 
risen to $14 billion, the largest public project in the history 
of this country. The original estimates were about $1.3 billion 
when it began. And these costs obviously will continue to arise 
before the project is completed. The Big Dig project must serve 
as an example for all of us on the critical importance of 
oversight of Federal transportation projects.
    What actions will you take to ensure greater Federal 
oversight on an all federally funded transportation projects 
from airports to shipyards to highway projects?
    Mr. Mineta. That probably would be very dependent on having 
a schedule with time lines, both check points as they relate to 
dollars as well as to the progress of a project. Many projects 
get behind on the calendar and then that translates into 
dollars. So to the extent that we can keep projects on 
schedule, then it seems to me that it would follow that we 
would be able to keep them on the dollar. So to that extent, I 
would look to each of the modal administrators to make sure 
that those schedules are kept--that projects are kept on 
schedule.
    The Chairman. Thank you. Amtrak and its many champions like 
to tout Amtrak's ridership and revenue successes. The fact is 
that Amtrak has been experiencing its largest operating losses 
in history. The losses for fiscal year 2000 were around $943 
million, up from $916 million in 1999 and $929 million in 1998. 
Inner city and rail passenger ridership has remained 
essentially unchanged. And ridership via other transportation 
modes have vastly grown.
    I believe we need to oversee Amtrak based on its actual 
financial results and service demand if we are to effectively 
carry out our responsibilities. What actions will you take to 
ensure that Congress and the American taxpayers receive the 
full story when it comes to Amtrak's finances?
    Mr. Mineta. First of all, I will be looking at the ARC, the 
Amtrak Reform Council. They will have to be determining the 
self-sufficiency of the Amtrak system itself. And I believe 
their time line is the year 2002. And so to that extent, I will 
be looking at that, both in terms of the report that they will 
be coming up with as well as the suggestions that are going to 
have to come from the members of this Committee as well as 
others who are involved in Amtrak.
    I think Amtrak is just going to have to be evaluated in 
terms of, ``is it a national rail passenger service?'' Or are 
there selected routes that we ought to really make sure are 
sufficiently operating in order to be a good service, but self-
sufficiency. Plus, the whole question of whether we have a 
national rail passenger service is something that all of us are 
going to think out collectively.
    The Chairman. Thank you, sir. Senator Hollings.
    Senator Hollings. There is hardly a public passenger 
transportation system in the world that makes money. And that 
is because the public demands it provide certain services that 
are non-economical. If you had a wonderful Amtrak high speed 
train between New York and Miami and it did not have to stop in 
Columbus, South Carolina, Richmond, Virginia and 50 other 
places, it would make money.
    But you see, we politicians say, no. We want it to stop. 
And that is not going to change and it should not change. We 
have got to get service to these other communities. But do not 
just look upon it like there is fraud or incompetence operating 
these things.
    Let us look very closely, Mr. Secretary. And you have got 
more experience this minute than most Secretaries of 
Transportation had after their 4 years of service.
    [Laughter.]
    Senator Hollings. I know you. I have served with you on the 
Washington Airport Commission and otherwise. So we are proud to 
have you. And high speed rail, study it closely and show us how 
we can economize. Yeah, if we want to leave out some of those 
cities and improve that road map, we need alternative 
solutions.
    Otherwise, I want to answer the Chairman's question why the 
communities do not build added runways or airport facilities 
because they are no longer in charge. You see, when I practiced 
law way back, the community of Charleston, for example, went 
out into the county, taxed themselves in the city, built the 
airport, got the tower up, went to Eddie Rickenbacker at 
Eastern Airlines and said can we get the service?
    And after negotiations, we came up to the CAB, the Civil 
Aeronautics Board, and we said here is the service. Here is the 
charges. And everybody worked together and we had pretty good 
service. In fact, when I first got here, we had four airlines, 
National, Eastern, Delta and Piedmont. And I had three direct 
flights from Charleston or National Airlines. It is $34 one 
way, $34 back, $68 round trip. Now all costs have gone up.
    But do not give me this stuff about the average fares going 
down. I had the Vice President of U.S. Air in my office on a 
Wednesday, just like today, and asked U.S. Air how much a round 
trip ticket for my wife to Charleston and Washington back on 
Friday morning. $917.
    So what you have had with money controlling the competition 
is 85 percent of the small and medium sized towns of America 
subsidizing those long hauls to California and down from New 
York to Miami and then overseas and otherwise.
    And more than anything else, if I have to go through 
Charlotte, U.S. Air controls 85 percent of the landings and 
takeoffs. There is no competition. U.S. Air controls the 
airport at Charlotte, not the city of Charlotte anymore.
    And we have got a bill in that we are looking at and we 
studied it in a judicious fashion to see if we can break up 
those hubs and get competition back again. There is no mystery. 
Obertar says for you to start fixing prices. Maybe you want to 
do that. But somehow, some way you have got to understand the 
reality of the effects of pricing on the consumer. I understood 
why you started choking a little while ago reading that stuff 
about average prices.
    [Laughter.]
    Senator Hollings. I mean, tell whoever is over at the 
Department not to write that out for you to read anymore. I can 
tell you that.
    Otherwise, let us go quickly. Because San Jose does not 
have a port. But we have tremendous seaports in maritime in our 
country. And we just found out here in the past couple of 
years, Senator Graham, myself and others, that there is no 
security. Now, you know about airport security because you have 
been in the business.
    But let us say less than 2 percent of the containers coming 
in--I have got the fourth largest container port in the United 
States. If you go to Long Beach, New York, these other big 
ports, less than 2 percent are even inspected.
    I just got out of the country of Colombia. Rather than 
sending the stuff up in flowers, they could easily just fill up 
containers and send 10 in and only one would be inspected. And 
the ports do not like it. They are in competition and they want 
to move everything fast. In fact, the Port of Charleston has to 
borrow the sniffing dogs from the county sheriff. They do not 
have any security.
    We know up in New Jersey that they have got a 25 mile place 
where they are supposed to inspect. And the trucks that go 
there to be inspected disappear. They never get to the 
inspection. And it is a matter of terrorism. You know now from 
the Cole blow up and explosion that they could well fill one of 
those containers and blow up the Port of New York.
    That is a serious problem and we have got to get your help 
to work on that. And it has got to be done in a deliberate 
measured fashion. Because the local communities are responsible 
and they do not want to spend money. They do not want to do 
that. They are competing to get the cargo in, move it in fast 
and getting it out and not having it delayed for inspection. 
But we are going to have to do it. Because I am convinced most 
of the drugs coming in the country are right in those 
containers.
    Otherwise, I think I will just yield my time because I have 
had the opportunity. I really am delighted to see you there. 
But let us break up those hubs and get some kind of competition 
back in the airlines and get the communities back.
    We can politically allocate. I am in politics and in 
office. And I know how to get my fair share up here. But 
actually, the communities own those slots, not the airlines. 
Now we have got the airlines to buy and sell the slots. They 
should not own those. The communities built them. They are the 
ones that built the facilities and everything else of that kind 
and got the service.
    And we ought to break that up. So the communities 
themselves can open up and get added service, add facilities 
there and everything else like that and bring back real 
competition like we had before this so-called deregulation. I 
would appreciate your comments.
    Mr. Mineta. Thank you very much, Mr. Chairman.
    The Chairman. You want to revise your remarks about the 
cost?
    Mr. Mineta. That is right, the average cost. As it relates 
to these other issues, like inspection at the ports, I would be 
more than happy to look into it and to work with you on those 
issues. I think most of those are either customs or DEA issues. 
And I am not sure what the working relationship might be 
between the Department of Transportation and Customs and DEA in 
those regards.
    Senator Hollings. You have got maritime and you have got 
the security.
    Mr. Mineta. Yes. I will take a look at that.
    Senator Hollings. Thank you, Mr. Chairman.
    The Chairman. Thank you. I would remind our members and for 
the benefit of our new members, the practice on the Committee 
is to go from one side to the other by order of appearances so-
called early bird rule. Under that rule, Senator Stevens is 
recognized.

                STATEMENT OF HON. TED STEVENS, 
                    U.S. SENATOR FROM ALASKA

    Senator Stevens. Thank you very much, Mr. Chairman. Mr. 
Mineta, we welcome you and welcome your nomination because we 
know you so well. If there is any one place in the 
Administration in this period of time that should be totally 
and obviously bipartisan, it is your Department.
    Without question, the problems that we have in 
transportation now are enormous. I too am working on a bill 
dealing with the aviation capacity as I indicated to you. It is 
my judgment that we should have some way to get a certificate 
of need--if we can devise the process to get it. If the need is 
there, we will have a constrained period of review and limited 
review as far as the courts are concerned.
    Sea-Tac in Washington State has been trying to get another 
runway for 20 years. But when Sea-Tac is jammed up, access to 
Alaska is diminished. When Salt Lake City is delayed access to 
Alaska is diminished. And Chicago the same way. We are a State 
that totally depends upon aviation. More than 70 percent of our 
people within the State who travel from point-to-point go by 
air. And yet, we find that we are just absolutely dropping 
behind.
    I told you when we met about one staggering statistic. One 
out of ten pilots who fly in our State will die in an aircraft 
accident, 1 out of 10. And when we look at it--we have the 
Commissions looking at it now, particularly NIOSH, National 
Institute of Occupation and Safety and Health. We find that of 
the 250 airports in Alaska, only 43 are paved. We have 70 
without runway lights. Over 100 have no local weather 
available. At Dutch Harbor, the No. 1 fish port in the United 
States, the runway is 3,300 feet long and the jets, the 737s 
land. I am told you cannot land in Dallas with a 737 unless you 
use the 8,000 foot runway.
    We are at a point now I think where unless our aviation 
problems are solved, we will go downhill as a state. The same 
thing occurs as far as many other things in our state, and 
Hawaii too. We're offshore states. We are dependent upon 
transportation.
    I really think that what we need to do is find someway to 
put that concept of eliminating the delays and finding some way 
to increase the capacity of aviation as the No. 1 task for you. 
I know you said safety. To me that is safety. The real problem 
about it right now is how do we do that? You also have the 
Coast Guard. You have the maritime considerations, the pipeline 
oversight.
    In the days when we were a territory, we used to call--no 
ethnic slur involved--but we used to the call the Secretary of 
the Interior the Great White Father. Because he had all of the 
power over our state, over our territory.
    I think now the power is over the growth of our State in 
your Department. And I urge you to take a look at the role that 
your department has played in the past as far as our State and 
Hawaii. Hawaii has the same problem in terms of new capacity 
for airlines.
    What I would really like for you to do is to see if you can 
get together a group of task forces that would work with our 
Aviation Subcommittee, with the Aviation Subcommittee of the 
House and see if we can come up with a proposal for this new 
century of matching the airport capacity with the demands of 
the future and not just try to catch up with what has been 
delayed in the past.
    We have a tremendous job to do. And I would welcome a 
chance to work with you. And I am sure our Subcommittee 
Chairman and Ranking Member of aviation would.
    My only real question to you is with regard to the role 
that you now play in terms of transportation, beyond aviation, 
what is the major task that you have in the Department.
    Mr. Mineta. As I mentioned, the overall one is really 
safety. The other area would be to make sure that we have 
sufficiency of financial resources to reflect the demands that 
are being placed on all of the agencies. For instance, in the 
area of Coast Guard, we are really adding more responsibilities 
to them. And yet, at the same time, they have an aging fleet 
and they have other new programs like the Deep Water Project, 
that are really squeezing them.
    And what I would want to do is to work with you and others 
to make sure that the resources of the Department are really 
adequate to meeting the kinds of responsibilities that we have. 
I think to a very great extent there has been sort of I guess 
you might say a mismatch in the sense of the load being put on, 
but not enough on the financial resources. And I just want to 
go through the departmental budget and see where those 
shortfalls are and to try to help bring some proper balance 
within the Department to those efforts.
    Senator Stevens. Thank you, very much. Thank you, Mr. 
Chairman.
    The Chairman. Thank you, Senator Stevens.
    Senator Inouye.
    Senator Inouye. Thank you, very much. Mr. Secretary, 
recently when the U.S./Japan bilateral air agreement was 
signed, it was hailed as a great step forward. However, because 
of capacity constraints, we find that although our air carriers 
have the authority to provide service, no slots are available 
at Narita. And so all we have is a paper agreement.
    Someone suggested that we should make it an international 
policy objective to call upon the Japanese to open up Haneta to 
our air carriers. So that the intent and the spirit of the 
bilateral agreement can be carried out. Otherwise, it is just a 
paper agreement which is not helping the balance of payment or 
balance of trade. Do you have any views on this?
    Mr. Mineta. Well, I think that that may be a solution, as 
well as the fact that they are building other airports. They 
have built the new one at Osaka. They have built the additional 
facilities at Nagoya. And it seems to me--and having just been 
there recently to discuss with them other bilateral issues 
between the United States and Japan, I did see the model at 
least of this new airport being constructed in Nagoya. Which, 
with the bullet trained combination, is about an hour and a 
half connection to Tokyo.
    I know that Narita is constrained. There is also a great 
deal of resistance to open up Haneta. Because that has usually 
been used for domestic flights. But as you have indicated, that 
used to be an international airport. And maybe they are going 
to have to open it up to international flights. That is 
something I would be more than happy to discuss with them. But 
I know that it may be that they will want to spread that 
traffic out to other airports in Japan as well. But I will 
pursue that with them.
    Senator Inouye. At least in the interim, if they would open 
up Haneta, it would accommodate all carriers according to the 
contract and agreement. Mr. Chairman, I have other questions 
[see Appendix]. I would request that they be submitted to the 
Secretary.
    The Chairman. Without objection.
    Senator Inouye. Thank you very much, sir.
    Mr. Mineta. Thank you.
    The Chairman. Thank you, Senator Inouye.
    Senator Hutchison.
    Senator Hutchison. Thank you, Mr. Chairman. I want to talk 
about the airport delay issue. It certainly has been discussed 
already. But I would like to ask you what actions DOT can and 
will take, not only to look at the over scheduling of airlines 
at peak times at airports which cause delays even in the best 
of weather conditions, but also the general over scheduling of 
airlines period.
    I understand that they are trying use the equipment as 
efficiently as they can, but the number of delays from having 
to fix parts on an airplane and the over scheduling at peak 
times I think must be addressed. And I would ask you what you 
would be able to do about that.
    Mr. Mineta. Next question.
    [Laughter.]
    Senator Hutchison. I think we have gotten a pro here, Mr. 
Chairman.
    Mr. Mineta. The issue of over scheduling is one that I 
guess it is like commuters. People go to work in the morning. 
They go home at night. Airlines do the same thing. They are 
reflecting the fact that people are going to want to be at New 
York City in the morning and at 5 o'clock they are wanting to 
return to Dallas.
    And the fact that everyone is leaving at 5:10 or arriving 
at 9:30 in the morning is one that we cannot tell people, ``I 
am sorry. But do not commute between the hours of 7:30 and 9 in 
the morning. Or at 5 to 6:30 in the evening.'' And it seems to 
me that we are facing that same thing as it relates to 
scheduling at airports.
    Then the question, as you have indicated, is ``how do we 
deal with the issue of trying to match capacity?'' Because you 
do not want to suppress demand. And as was earlier suggested, 
part of that I think is going to be in terms of the time it 
takes to build new airports or to build additional runways.
    Senator Stevens said at Sea-Tac it took 20 years to build 
an additional runway. I think that what we ought to be able to 
do is to try to shorten that period of time in order to have 
that additional capacity and not try to suppress on the demand 
side.
    Because to me as we try to deal with airport delays by 
acting on the demand side, I think that would really be the 
wrong way to go.
    Senator Hutchison. What would you do to streamline the 
process for capital improvements?
    Mr. Mineta. Part of it would be to make sure that, whether 
they be environmental impact reports or other kinds of 
requirements, that they run consecutively rather than 
sequentially. There are State environmental impact 
requirements, Federal, even regional impact. In the case of San 
Francisco, I know that they are looking at building an 
additional runway. Part of that is going to be requiring 
construction in San Francisco Bay. At NOAA in the Department of 
Commerce, we said to them about a month ago, we think we can 
help you do the environmental impact report. NOAA deals with 
coastal zone management. They are familiar with this approach. 
Why not use NOAA? And we just contracted with or had a 
memorandum of understanding between San Francisco and the 
Department of Commerce relating to that. Try to do things to 
shorten the time span so we do not go through multiple planning 
requirements.
    Senator Hutchison. I think you are certainly on the right 
track for trying to compact those and have them run at the same 
time. But I hope you will use the creativity and the knowledge 
that you have to continue to look for other ways to determine 
how much is really needed in that area, sort of a bottom up 
review of the regulatory morass that we have in that area.
    My last question in this round--and I will have a second 
round, Mr. Chairman. But I have to tell you I am concerned 
about the board that has been appointed to run the ATO. Not 
that they are not all very good people. And I respect those who 
I know, but I think some of the backgrounds of the people on 
that board are not the technical backgrounds with the aviation 
experience that I think we need if we are going to have that 
very high area of responsibility for our air traffic control 
system rest in that board.
    I ask you if you think that the board needs to be looked 
again. I realize they have terms. Do you think that board is 
going to be able to do this job? And will there be a system in 
which we can monitor, very carefully, the progress that is 
being made?
    Mr. Mineta. I will take a look at that. As I recall, when 
the original MAC was setup, the MAC has a number of people who 
are very knowledgeable from a technical perspective about 
aviation. I think when they looked at formulating the board for 
the ATO, that what they did there was to make sure that they 
had good businesspeople rather than people who were technically 
oriented.
    Otherwise, if you have people who are some air traffic 
control types, airline types, some local airport operator 
types, they will sit there with sharp elbows and try to deal 
with each other relative to the ATO. But I think the concept 
was to make sure that you had good business people on the board 
of directors on the air traffic organization.
    Let them hire a very competent chief operating officer and 
let that person and the staff then sort of weigh out the 
various issues. Because if you get technical people in those 
positions at the board of directors, all they are going to be 
doing is trying to elbow each other. And I think, again, just 
thinking out loud about this--I think the concept was to have 
good people or good businesspeople, people who had a good sense 
about business acumen rather than the technical.
    Senator Hutchison. I hope you will monitor that.
    Mr. Mineta. And as I said in my statement, the thing that I 
intend to do is to jump into this whole issue of who is going 
to be considered for COO of the ATO. That is something that I 
will personally be involved with as well as the Deputy 
Administrator of the FAA. We have not had one. We have had an 
acting deputy at FAA. And we have not had a fully chosen person 
there. To me, that is the No. 1 job, those two positions.
    The Chairman. Senator Kerry.

               STATEMENT OF HON. JOHN F. KERRY, 
                U.S. SENATOR FROM MASSACHUSETTS

    Senator Kerry. Thank you, Mr. Chairman. Mr. Secretary, let 
me second Senator Hollings' judgment about the amount of 
experience that you bring to this. I think we are all just 
thrilled that you have decided to take this on. And I do not 
think you owe anybody an explanation about why. We are lucky to 
get somebody with the amount of experience that you bring to 
this.
    And it was a delight to sit with you in my office and I 
thank you for the time to examine some of these issues. 
Obviously, you have just come into this with so much more 
background and understanding which will allow you to I think 
get off to a terrific start and we are all grateful for that.
    If I could just--because we had time to talk and you have 
answered a number of the key questions, I want to flag a few 
things for the record if I can quickly.
    I listened to Senator Hutchison talk about the needs, the 
infrastructure needs, and every comment thus far has 
underscored the degree to which we are behind the curve in 
terms of our capacity.
    Well, providing capacity costs money. And I think that we 
are headed for an enormous collision here in the Congress at 
the current rate, given the President's adherence to the 
campaign. I mean, I think it is time to end the campaign and 
start to govern. If you look at the numbers, CVO will come out 
in a couple of weeks with the 10 year estimates on surplus. But 
most people are talking about a $5.9 trillion figure, something 
in that vicinity. When you finish with the Medicare set aside, 
Social Security, inviolate interest payments, you are down to 
about a $2.2 billion available sum of money available for tax 
cut and everything else.
    When you finish with inflation and with population growth 
and with the amount of money that the military is going to come 
in and ask for which we all understand is very significant, you 
may be looking at this. A big fat zero for almost everything 
else we have just been talking about here. And there are going 
to be enormous pressures, not just within this Committee, but 
within all kinds of Committees here.
    The Coast Guard, for instance, we have been funding in a 
supplemental budget every year. Despite the fact that there 
were some 2,600 rescues, 10,000--I mean, an extraordinary 
amount of increase in their requirements for drug enforcement, 
fishing enforcement, not to mention the increases in 
recreational boating and other things we look to them for. And 
they simply cannot plan and function.
    And I have talked privately with the leadership of the 
Coast Guard. They hue the line when they come here because they 
have to. But this is not a good situation. And I think you know 
that.
    Moreover, I listened to the Chairman with respect to 
Amtrak. And I just want to say that in point of fact, only if 
you include depreciation and capital expenses can you come up 
with a notion that somehow they are not doing a better job. 
Actual operating expenses in fact the losses have decreased 
because there has been an increase in capital stock investment, 
increase in ridership, the Acela train now coming on and so 
forth.
    We, it seems to me, are sort of locked into an absence of 
common sense here with respect to some of these problems. The 
marketplace in the air industry is not working properly. I have 
prepared to join with Senator Wyden and others in reintroducing 
the passengers' bill of rights. I was one of those who delayed 
that last time and thought we ought to delay it.
    But it seems to me that it is only by creating sort of a 
shake up to the workings of the marketplace that were actually 
going to get people to recognize some realities. Namely, take 
LaGuardia. There are simply too many airplanes on the apron. 
Why are there delays? Because they cannot move the airplanes. 
They cannot fit. You can sit in one part of LaGuardia waiting 
for traffic to come out, to move. It simply is too many 
aircraft are being allowed in.
    Now, the Chairman has suggested a number of different ways 
we can approach that, but nobody has done anything. We have not 
approached it.
    Moreover, that is linked to how Amtrak does. Because we 
have allowed the airlines to increase volume and deliver a 
terrible service and create these pockets of monopoly which are 
not competitive, where they make up for the subsidy to attract 
more people than they really ought to be attracting in other 
markets, we deprive other entities of an intermodal 
transportation system from being competitive according to 
market forces.
    If prices in fact reflected the cost of tickets for moving 
those numbers of people in and out of those places at peak 
times, more people might say, oops. I better ride the train. Or 
I need to take the bus. Or I need to find an alternative 
method. And then the market might begin to adjust.
    So I think there are some just fundamentals here that we 
have to cope with. Amtrak cannot possibly be judged properly if 
it is not given the capital grants and capital expense 
investment capacity to be able to attract the ridership to take 
people from point A to point B on time and comfortably in a way 
that is competitive and decent.
    So I just think all of us are relying on you to bring a 
measure of common sense to this. You know, we can manage 5,000 
aircraft in the air at one time in congested air space over 
Iraq without a collision, but we are not able to provide 
emergency relief through all of our technology to our own air 
system. These are contradictions that I think most of our 
citizens are simply tired of putting up with. And I think all 
of us here are really anxious to work with you with a realistic 
approach to all of this.
    But unless we are prepared to invest, Mr. Secretary, in an 
intermodal system and give local communities the flexibility 
not to be locked into building a highway when they do not want 
to or to having to increase automobile traffic when that is not 
their first choice, but rather being able to keep the spirit of 
what we did both in ISTEA and TEA-21, I think we are going to 
have a very difficult time responding. And I simply wanted to 
lay that out to you that we are really in need of a measure of 
honesty, a lot of hard choices are<plus-minus> put on the table 
and all of us need to step back from some of the easy political 
choice here and recognize that the long-term investment needs 
of this country are being deferred and deferred and deferred. 
And ultimately, the cost of that is enormous.
    I finally might add the lost of productivity--the loss of 
productivity for the hours of our businesspeople spent, 
obviously, digitalization and Palms and the capacity to e-mail 
from your seat has alleviated some of that. But nevertheless, 
the loss of face time, the amount of--numbers of goods and 
products that do not move expeditiously is costing this country 
literally billions of dollars and countless percentage points 
in productivity. And we cannot afford that either. Thank you, 
Mr. Chairman.
    The Chairman. Thank you. Do you have any response?
    Mr. Mineta. What I would like to do, as I have mentioned, 
is to be able to utilize the kind of technology revolution that 
we have experienced and make it available and to utilize it in 
whatever modes we are addressing to improve the intermodal 
system. And I think that most of the systems we are using today 
are still very, very old. When I think about the fact that we 
have a new Washington Airport, the Ronald Reagan Airport, brand 
new, the equipment that went into the tower was something like 
26 years old. It makes no sense whatsoever. That is something 
that we really ought to be dealing with across the board.
    The Chairman. Senator Allen, welcome to the Committee.

                STATEMENT OF HON. GEORGE ALLEN, 
                   U.S. SENATOR FROM VIRGINIA

    Senator Allen. Thank you, Mr. Chairman. It is a pleasure to 
be with you. Secretary Mineta, we very much enjoyed listening 
to your remarks and your understanding of the importance of 
intermodalism and how all passengers and cargo work together.
    Also, I note that happily your recognition of the concept 
of sound science. In my experience as Governor, and I think all 
of us recognize here, that Federal transportation policy, 
especially insofar as roads are concerned, are as much 
environmental policy as they are transportation policy.
    There are many things that we can discuss here and many 
issues of concern. And I will go through some of them with you. 
Open end fare, competitive bidding, teleworking and so forth. 
Funding is important. Concepts such as the Public Private 
Transportation Act which we passed in Virginia and other states 
are emulating the matter.
    I am just reading here on the Coal Fields Expressway which 
will link West Virginia, Kentucky and Southwest Virginia 
together. On Federal environmental studies needed on this 
expressway's impact on the Indiana brown bat and a small world 
Pagonia, two endangered species, could take up to a year to 
complete State transportation officials stated.
    Now, this is consistent with Senator Hutchison's concern 
and what you are saying having these studies work concurrently. 
A private company, Brown & Root and Repoca, are the ones who 
will be using this private/public transportation method.
    But if you do not run these studies concurrently, that just 
delays this particular road project in Far South, West Virginia 
which has high unemployment.
    I look forward to working with you on the third crossing 
and Hampton Roads which will be important for our port which 
has nearly doubled its containerized cargo capacity. As well as 
for the dredging of that port, not only for cargo but also for 
our Navy.
    Rail to Dulles is a project that I look forward to working 
with you on. The Wilson Bridge, the tech way with the new 
crossing of the Potomac, high speed rail is generally being 
completed from Boston to D.C. And I do think high speed rail 
should be an alternative we work together on. And I do think, 
Senator Hollings, it ought to stop in Richmond as well as 
Raleigh, Charlotte, Greenville, on down to Atlanta. And if it 
does go on down to Florida, that is another matter. But I do 
think that is an option we need to look at.
    Now, a couple of questions I would like to bring up. And it 
gets to where Senator McCain was talking about cost overruns. 
Sometimes the way that the projects are contracted would end up 
with cost overruns. And I would like to ask you do you favor 
competitive bidding on Federal projects, open competitive 
bidding on Federal transportation projects?
    Mr. Mineta. Absolutely. That would be the way it is setup 
to be done right now and that is the way it would be done in 
the future.
    Senator Allen. Well, it will probably get on your desk 
fairly soon if you have not seen it yet. On the Woodrow Wilson 
Bridge, our State of Virginia and Governor Gilmore have been 
trying to make sure that we have full open bidding on that 
contract.
    The State of Maryland disagrees with the Commonwealth of 
Virginia on that in this compact. And they want to have what 
are called these PLAs which have a great deal of concern that 
inhibits the ability of non-union contractors to do that work. 
And I believe that your Administration has to approve that PLA. 
I would hope you would not approve it. So that we could have 
full and fair open competition for that project and thereby not 
subjecting the taxpayers Federal or either states from overruns 
or added costs from having lessened competition in that 
bidding.
    Mr. Mineta. I am sorry, the PLA is beyond Davis Bacon.
    Senator Allen. This is a project labor agreement which 
means that there is an agreement with the State of Maryland, 
but there is a compact for the Woodrow Wilson Bridge between 
Virginia, Maryland, and the District, the Federal Government 
promised well over $1.5 billion on this.
    Maryland wants a project labor agreement. That is contrary 
to the laws of the Commonwealth of Virginia. We in Virginia do 
not care to be hit with cost overruns because from studies 
usually if you only allow union contractors to work, that means 
that non-union folks cannot even compete for it or have to 
increase their wage scales.
    So as I understand it, at the last moment, the State of 
Maryland, Governor Glendenning, and the State of Maryland asked 
for Federal approval of that. As I understand it, in the last 
days there was not enough time for that. So that has yet to be 
approved by the Federal Government. And as I understand it, the 
Federal Highway Administration has to review that. And I hope 
you will review it in the concept of making sure we keep that 
project in line as far as costs are concerned.
    Mr. Mineta. This is my first exposure to that concept.
    Senator Allen. There were a few articles today in local 
newspapers on it. One other matter, Mr. Chairman, Secretary. 
You were introduced as a gentleman from the Silicon Valley. And 
I know you have lived around here and see Virginia as a Silicon 
dominion. And I think we need to use technology to think 
outside the box or outside the CPU as far as transportation 
matters are concerned.
    And President Clinton last spring had an opportunity to 
sign an Executive Order on Federal workforce transportation, 
but he stripped away a provision to expand opportunities for 
Federal workers to telecommute from home. I think telecommuting 
or teleworking is just a great idea to improve our quality of 
life, reduce commute times as well as improve air quality where 
people wherever possible and practical could work at home a few 
days out of the week using a computer.
    Now, the Federal workers in this area, as you well know, 
the Federal Government is the largest employer in the metro 
D.C. area. But unfortunately, not many actually telework. So I 
think that some of the studies, and Congressman Wolfe on the 
House side has worked on this extensively. Some studies 
estimate as many as 470,000 workers could telework in the 
Washington, D.C. area, including 270,000 Federal employees.
    Now, if all of them were to telecommute, that would 
eliminate 658,000 vehicle trips and more than 3.6 million 
vehicle miles. So I would ask you to urge President Bush to 
sign such an Executive Order to expand teleworking 
opportunities for Federal employees in the Washington area.
    And I would also ask you about maybe allowing at least 
within your agency within the Department of Transportation, an 
agency that has stated in its analysis of the original telework 
Executive Order proposal, ``properly deployed, telecommuting 
can be a valuable, simple, expedient and common sense addition 
to the remediation of growing traffic congestion.
    So I would ask you to look at what was stated by the 
previous administration's Secretary of Transportation, 
seemingly very favorable to it, at least doing it within your 
agency and hopefully encouraging President Bush to do it for 
all Federal employees. And I would like your comments or 
insight on that.
    Mr. Mineta. Well, let me, as you say, having represented 
Silicon Valley for 11 terms, let me take a look at that and see 
what we can come up with. Because telecommuting is a very 
important and essential part of reducing the impact on traffic, 
we should look into the question about other impacts on the 
work ethic or the work relationships. But I know it is an 
important approach and I'll take a look at it, not only as it 
relates to the Department of Transportation, but also as it 
relates to the total workforce.
    Senator Allen. Thank you, Mr. Secretary.
    Mr. Mineta. Thank you, Senator.
    The Chairman. Senator Boxer, welcome to the Committee.
    Senator Boxer. Mr. Mineta, I have a number of questions.
    I will not have time to ask them all. And I know that you 
are not, I do not think, at this time prepared to answer all of 
them because you need to obviously confer with the President 
and others in the Cabinet.
    So what I would like to do with the time that I have is run 
through these and perhaps at the end save a little time so that 
you can give maybe a general response. Some of these are 
controversial. I am sure you are not surprised.
    Let me say first that when Amtrak is brought up, many times 
the fight is made for Amtrak by the folks in the Eastern part 
of the country. And I want to say that it may be a little known 
fact, and maybe it is my fault for not focusing on it, but now 
that I am on this Committee, I will more focus on it, that we 
have almost seven million passengers, Mr. Chairman and Senator 
Hollings, in the year 2000 who rode on Amtrak.
    And if I just list the cities that are involved, you can 
see why it is so important to us: San Jose, I mentioned first, 
Oakland, Sacramento, Auburn, the Pacific surf liner that goes 
up the coast, San Luis Obispo, Santa Barbara, Los Angeles, San 
Diego. And then, of course, on the West Coast there are other 
cities involved. But these are just the California cities.
    Amtrak is very important to us. And I hope we do not have 
to have a terrible fight over Amtrak. We almost had it at the 
last session. I would think in this century looking ahead, Mr. 
Chairman, in this global economy, one of the most important 
things many of us believe is moving people and moving cargo and 
moving our mail and getting things done.
    And I think if we take a slap at Amtrak and we do not get 
behind it, I do not think we can live up to being a world 
economic leader. That is my own view. And so I want to ask you 
in writing if you could answer your general feelings about 
Amtrak.
    CAFE standards. It is another very controversial subject. 
But going through all the problems we are in our State with 
electricity which I will not go into, very, very complicated, 
deregulation, that no one seemed to be prepared for its 
ramifications and so on.
    The fact of the matter is we need to save energy. And when 
I look at CAFE standards, that is a fairly simple way to do it. 
I happen to be driving now a hybrid car. And I have never taken 
that step before. Senator Bennet actually told me about his 
hybrid car and I went out and got one. And it is 52 miles to 
the gallon. It is a wonderful car. And it is a transition car. 
And it runs just like a gas car. Just when you step on the 
peddle, it is giving charge to the battery. It goes back and 
forth.
    So there are ways that we can do this without making any 
sacrifice whatsoever. And I look at the SUVs and I see that 
they are treated like light trucks at 20.7 miles per gallon 
compared to 27.5 miles per gallon for cars.
    If we were just to make that one change, Mr. Mineta, we 
would save a million barrels of oil every single day. And we 
would not have to debate drilling and ANWR and other things 
because we could come in with all of that saved energy.
    So I hope you are going to take a hard look at that. And 
again, I am not going to put you on the spot today. But I would 
love to get your thoughts in writing.
    Traffic fatalities. We heard about the horrible statistics 
in air fatalities in Alaska. But every year, we have to look at 
the fact that 40,000 people are killed on our nation's 
highways. That is 110 lives lost a day. It is really like a 
large plan crash every other day. And so I think the whole 
issue of traffic safety is one I want to get your philosophy on 
and your thoughts. And one of the issues are rollovers. And I 
know that lots of members of this Committee, the Chairman, have 
taken great leadership on that. I want to work with you on 
this.
    We see that the SUVs, nearly two-thirds of deaths in SUVs 
are as a result of rollover accidents versus 22 percent in 
passenger cars. And there is a rollover standard, but it was 
based on static measurement, not a dynamic test. So I am 
interested in your view whether you would use the best science 
to develop an accurate rollover standard.
    Drunk driving. We are going to miss Frank Lautenberg, at 
least I have to say I will. He worked so hard to pass the law 
that encouraged the .08 blood alcohol content as the national 
drunk driving standard.
    If enacted in every state, 500 lives a year would be saved. 
And I know that President Bush as Governor signed the .08 law. 
Will he continue to support it? Will you continue to support 
the .08 standard?
    This last one I have to apologize to my colleagues because 
it is about adult male crash dummies and it sounds terrible 
that I am saying something about males. But the fact is when 
first the new air bags were tested, they were not using the 
children size replicas and the small people. I have a conflict 
of interest in this--and they were tested against adult male 
crash dummies who are generally larger than small women and 
little children.
    So I tried hard, although not on the Committee, I was able 
to win on the floor of the Senate to make sure we have these 
transportation tests with a variety of these dummies so that we 
know that the air bag isn't decapitating people and we can make 
it work for kids and for small people. I think it is really 
important. And it is controversial because, of course, there is 
always a group that opposes this. I wanted to know how you felt 
on it.
    I guess I had one more. I saw it today. Airlines and 
Federal regulators at odds about how many hours a pilot can 
fly. And there were issues about how many hours a truck driver 
can drive. And this driver fatigue, be it in the air, on the 
ground, is something I am very interested in. Again, Mr. 
Mineta, if you could give me a more general answer.
    So I have got the little orange light on. I will stop. And 
maybe you want to make some response, but I look forward to 
written answers on all these questions.
    Mr. Mineta. These are all issues that I would be more than 
pleased to work on with you and other Members of the Committee, 
to deal with and try to come up with a workable plan.
    Senator Boxer. Good. Well, we will submit these. And I 
thank you, Mr. Chairman.
    The Chairman. Thank you, Senator Boxer. And we are 
certainly not offended by your reference to male dummies.
    [Laughter.]
    Senator Boxer. I did not want to goof on my first day 
knowing our history, Mr. Chairman.
    The Chairman. And since your questions were so encompassing 
and so illuminating, I would move at this time in order that 
after the vote at 11:30, we could have the Senate move to 
confirm Norm Mineta as Secretary of the Department of 
Transportation, that I would ask for--I would move that we move 
his nomination at this time, continue with the questioning 
until every Member has been able to complete their question.
    Senator Hollings. I second the nomination and also move 
your be elected Chairman unanimously.
    The Chairman. All those in favor, say aye. [chorus of ayes] 
Those opposed? [no response] Then we will, as soon as we break, 
Mr. Mineta, we will inform the majority leader that we have 
voted. Now we will inform him so that when we go for a vote at 
11:30, the recorded vote as I understand the schedule. The 
Majority Leader I have been told will move your nomination at 
that time. I understand by voice vote. Thank you, Senator 
Boxer.
    Senator Boxer. Thank you, very much.
    The Chairman. Thank you, very much.
    Senator Ensign.
    Senator Ensign. Thank you, Mr. Chairman.
    The Chairman. And welcome to the Committee, Senator Ensign.

                STATEMENT OF HON. JOHN ENSIGN, 
                    U.S. SENATOR FROM NEVADA

    Senator Ensign. Thank you. It is a pleasure to serve here. 
I am still getting used to not only this Committee, but I think 
I found the men's room a couple of times around here. So we are 
fairly comfortable with that. That was I heard one of the more 
important things to do on this side.
    I have a couple of concerns. Obviously, being from a State 
like Nevada, we have a little bit of Federal land in our state. 
As a matter of fact, almost 90 percent of our State is owned by 
the Federal Government.
    And there is very important public lands highway funding 
that is controlled obviously by the Congress and by you. It is 
supposed to be, from what I understand, the funding is supposed 
to be relative to the amount of public lands that you have in 
your state.
    But despite this Congressional direction, we have an 
analysis that shows that Alaska, California, which should be a 
concern to you and to others from your state, Idaho and Nevada 
have been particularly disadvantaged to a total of about close 
to $80 million since TEA-21 became effective.
    As an example, for instance, Washington, D.C. received $4.4 
million in fiscal year 2001, compared with Nevada at $439,000. 
Kentucky with only one million acres of Federal land received 
$2.3 million in fiscal year 2001.
    Basically, this is the point I just wanted to raise--and I 
would like you to look into it. And I do not expect obviously 
an answer today, but just wanted to raise this as a concern. 
That if a fund is set up for a particular purpose, it would 
seem to me that it is only fair that it be used for that 
particular purpose.
    This is true especially in a lot of the western states 
where we have huge tracks of Federal land and we have a lot of 
roads, and increasingly, we cannot use that land because of 
regulations and various things. And we cannot gain revenue from 
those lands because property taxes are necessary to maintain 
those roads. It is becoming more and more of a burden on states 
like the States of Nevada and California.
    And so I would ask you to look into the funding formulas 
for that and maybe we can work together on possibly making some 
adjustments in the future.
    Mr. Mineta. I do not recall. Was that as part of the 
computation for the distribution under the highway formula? Or 
was this separate?
    Senator Ensign. From what I understand, it was TEA-21.
    Mr. Mineta. It is under TEA-21 as it relates to public 
lands.
    Senator Ensign. Yes.
    Mr. Mineta. As part of the formula for distribution of 
highway funds? Or just as a separate fund itself?
    Senator Ensign. It is a separate fund, yes.
    Mr. Mineta. All right. Let me take a look at that as well.
    Senator Ensign. Thank you, Mr. Chairman.
    The Chairman. Thank you, Senator Ensign. Senator 
Rockefeller.

           STATEMENT OF HON. JOHN D. ROCKEFELLER IV, 
                U.S. SENATOR FROM WEST VIRGINIA

    Senator Rockefeller. Thank you, Mr. Chairman. Mr. Mineta, 
we had a very good talk. You know my very, very strong 
feelings, positive feelings, about you. Your knowledge of 
aviation in and of itself I think is formidable. You probably 
know more than anybody on the Committee about it. I am certain 
you do. So I think it is a very fortuitous choice by President 
Bush.
    You mentioned in your opening statement--you used the word 
bottlenecks. That is historic. I do not think that has ever 
been done by somebody in the Department of Transportation in a 
confirmation hearing before. And I just wanted to ask a 
question.
    There are about four railroads that carry 95 percent of the 
products, bulk goods, et cetera in the nation. And from that, 
they make 94 percent of the profits of all goods that are moved 
by rail in this nation.
    Traditionally, Secretaries of Transportation have looked 
upon trucking firms, barges, airlines, railroads, et cetera, as 
the area of focus for the Department. And they have paid far 
less attention with respect to those who put on the railroads, 
the consumers, the grain folks, coal folks, steel folks, 
chemical folks. Everybody ships by rail and they have to.
    And they also generally do not look at the effect upon the 
consumer of what happens. You used the word bottleneck. We all 
know that the Staggers Act said that 80 percent of all rails 
would be deregulated, but 20 percent would not. And those 20 
percent would be those that had a single--had all the 
competition to themselves. There was no competition.
    And in theory, those were meant to be still determined what 
they could charge. But that is a long time ago and people have 
forgotten about that.
    The Service Transportation Board, the STB, is unknown by 
most members of our society and by many Members of Congress, 
what it stands for, much less what it does. But bottlenecks, 
there are a number of us on this Committee who are very 
concerned about that particular word. And the willingness of 
those very few, 50 when I came here 17 years ago, four today, 
of Class A railroads, that they will not share or allow each 
other to get into competition. Because they want to control all 
of the action.
    Now, railroads alone are not subject to the same antitrust 
laws as all the other forms of transportation. I am not 
suggesting that we undo that here because I am aware of the 
political realities. But I would like to know that you are 
going to symbolize by the use of the word bottlenecks that you 
are going to be thinking about end use consumers and people who 
live and die by the railroads, and particularly those railroads 
that have a single line into their place of business.
    Mr. Mineta. There is no question that when you think about 
the bottleneck that exists between the main line and let us say 
the short line or to a manufacturing concern and their siting, 
the main line railroads have something that no one else has and 
that is pricing differential in terms of being able to deal 
with that. And that is something I am going to have to take a 
look at.
    Frankly, my exposure to the rail side is probably minimal, 
but it is something that I am going to have to focus on and I 
intend to work with you as well as others who are involved in 
that whole issue of ``captive shippers''.
    Senator Rockefeller. And it is an interesting subject 
because it effects every single person in the United States of 
America, virtually every single one. And yet it is an issue I 
have been working on for 17 years and have very little to show 
for it. But it is an extraordinary problem, and somehow it has 
bypassed the Congress' focus and the American people. You get 
air congestion and it is on the front page of USA Today 
everyday during the summer when people are traveling. This 
problem is year round, constant and gets almost no attention, 
including from previous Secretaries of Transportation.
    Mr. Mineta. It is an area that the Surface Transportation 
Board really deals in. And it is an area that I will be in 
touch with Linda Morgan, the present Chair, about and get to 
know more about and to work with the STB on that issue.
    Senator Rockefeller. Thank you, sir. Let me make one little 
plug for something called the small community air service 
development program. It was part of AIR-21. It was authorized 
but not funded. It has everything to do with what Senator 
Hollings and I are talking about and that is the possibility, 
and hope, of small communities being able to develop innovative 
approaches to improve access into their airports. And I just 
ask you to note that and not respond to it now.
    Finally, and then I will submit a couple of questions. We 
have a lot of concerns about mergers and airlines and it is 
very controversial. I happen to be one that supports the U.S. 
Airway-United Merger, American just announced its involvement 
with that merger. I have not decided whether I support the 
American-United deal yet. But American is also buying into D.C. 
Air.
    D.C. Air has made a commitment to our part of the country 
which is an extraordinary one. And that is to put regional jets 
into markets within a period of 2 years after the merger is 
approved, instead of all the turbo props--which can really hurt 
large sections of rural communities--well, where U.S. Airway 
commuter cover, impacting economic development possibilities.
    And I do not look upon it so much as a merger as I do a 
bail out in fact. In other words, U.S. Air is not healthy and 
will not be healthy for long. TWA is not healthy and will not 
be healthy for long. And therefore, is it a merger? Is it a 
bail out? But that is very controversial. They wanted you to 
know that. The reason that I make the statement----
    The Chairman. The Senator's time has expired.
    Senator Rockefeller. May I finish my sentence? Thank you, 
Mr. Chairman. The reason I say that is that unless we can work 
these problems out so that there are regional jets as well as 
hubs and spokes, rural America will begin to disappear even 
more quickly than it is. And I believe that with all of my 
heart and soul. That aviation is now more important than 
highways in terms of business location decisions and will grow 
more so.
    So that I make that statement and ask for Secretary to be 
Mineta's consideration of that. And we can talk about that 
more. I do not ask for a response, sir.
    Mr. Mineta. I look forward to working with you, sir.
    The Chairman. Please, do you wish to respond?
    Mr. Mineta. Other than to work with Senator Rockefeller, 
sir, which I intend to do.
    The Chairman. Thank you, Senator Rockefeller.
    Senator Brownback.
    Senator Brownback. Thank you, Mr. Chairman and Mr. 
Secretary. Two question areas that I want to ask you about, 
aircraft manufacturing and trucking, two areas. One I want to 
invite you to Wichita, the center of general aircraft 
manufacturing. You have been there once before. We would love 
to have you there as Secretary of Transportation. We have got 
Cessna, Raytheon, Boeing, Emartia, all have manufacturing 
facilities there, aircraft. It is a wonderful industry.
    A key concern that they have in working with the Department 
of Transportation is the approval process, the certification 
process, for new products that they bring out. I think you 
would agree that the aviation safety is a major priority for 
the Department of Transportation. Fortunately, manufacturers 
have developed numerous new products that could lead to major 
safety improvements in both commercial and general aviation.
    However, they must go through an often byzantine FAA 
certification process for these new products. I want to draw 
your attention to that and then ask if you would make 
streamlining the FAA certification process a priority so that 
safer and more efficient products could be brought to market.
    Mr. Mineta. I have no problem with streamlining at all. 
That is something I think all of us would work toward. As long 
as we are not sacrificing safety or environmental guidelines, 
whatever. But there is no question that streamlining is going 
to be something I am going to be looking at all the way through 
the departmental functions. But I do not want it to be a 
euphemism for throwing out regulations.
    Senator Brownback. And I do not ask for it to be either. 
But if that process can be reviewed and looked at for 
streamlining, I think the same is going to be important as we 
look at expanding capacity at our airports, particularly in 
environmental streamlining. I think we do not change the 
requirements, but if you can streamline the process so it can 
be truncated, what we are looking at in the legislative 
approach. And hopefully, we can work with you and the 
Administration to get that done.
    A second area is trucking. We have had some discussion on 
that earlier and the hours of service issue was raised by 
Senator Boxer. In my state, we move many of our products to 
market trucking, railroads, aircraft, but also trucking. We 
have a number of independent truckers, some major line truckers 
too, Yellow Freight.
    There is a great deal of concern about this hours of 
service issue. I think there is a safety issue that should be 
reviewed and should be carefully considered. But also the 
impact, particularly in rural areas, of this hours of service 
requirement can have a very adverse economic impact and not a 
positive safety impact.
    And I have had a number of groups, companies, independent 
truckers, a number of people contact me. This rule is being 
reviewed now in the process for implementation. And it could 
have a significant impact, particularly in a rural area.
    I would hope you would look at that and its impact I think 
actually could be substantially different, urban versus rural 
or long distances of trucking. And I hope you would take a 
chance to review that before its implementation. I do not know 
if you care to respond to that.
    Mr. Mineta. Let me take a look at that. I was instrumental 
in helping set up the Motor Carrier Safety Administration in 
1999. So let me take a look at this portion of what they are 
doing--whether or not hours of service are going to be 
adversely impacting on let us say the local communities and 
what part that plays in terms of safety versus the economic 
impact.
    Senator Brownback. If you could. Because particularly if 
you are having to work out in a rural area and you are going 
say driving a drilling rig, driving something that then you 
work on, the way it is currently designed can have an adverse 
impact, particularly in rural areas. And that is what I would 
ask for you to look at if you would. Mr. Chairman, thank you 
very much. And I look forward to working with you, Mr. 
Secretary.
    Mr. Mineta: Thank you very much, Senator.
    The Chairman. Thank you, Senator Brownback.
    Senator Breaux.

               STATEMENT OF HON. JOHN B. BREAUX, 
                  U.S. SENATOR FROM LOUISIANA

    Senator Breaux. Thank you very much, Mr. Chairman. Thank 
you, Mr. Secretary, for being with us today. I remember our 
long relationship that we had in the House of Representatives 
and the 14 years that I spent over on the other side and your 
enthusiastic support for my candidacy for the Senate which I 
never quite fully understood until I realized that when I left, 
you became Chairman over there. But for whatever the reason, 
thank you very much.
    [Laughter.]
    Mr. Mineta. There was no other reason, sir.
    [Laughter.]
    Senator Breaux. Have we voted yet?
    [Laughter.]
    Senator Breaux. Norm, thank you very much for taking this 
job. I think that when you have had the experience and the 
background and the training that you have, as well as to serve 
in the Congress and to go out into the private sector and being 
willing to come back into government service is truly a really 
big sacrifice on your part. And I think all of us are going to 
be much better for your willingness to serve in that capacity.
    Let me deal with some questions along the lines I think 
that my friend Senator Rockefeller was talking about. It seems 
to me that in order to have competition which you spoke of, you 
have to have competitors in order to compete. And it seems that 
more and more, we have less and less. I mean, more and more we 
have fewer oil companies because of consolidation. More and 
more we have fewer railroads because of consolidation. More and 
more we have fewer telecommunication companies. We have fewer 
airlines. And I know a number of others are getting very 
concerned about the consolidation of all of the industries in 
this country that we are commanding to be competitive. And it 
is very clear that if you do not have competitors, you do not 
have competition.
    So my question, I guess, is to you on behalf of this 
Administration. What kind of concern is going to be expressed 
about this problem of overall consolidation? And how would that 
concern be expressed by you as Transportation Secretary? Is 
this something we are going to hear about? Or are we just going 
to talk about competition with no competitors out there to 
compete?
    Mr. Mineta. Senator Breaux, as you know, as it relates to 
airline mergers, this really falls in the responsibility area 
of the Department of Justice. And so to the extent that it is a 
function of the Department of Justice, I would be using you 
might call the bully pulpit in order to make sure that there is 
as much competition as possible in the marketplace.
    Senator Breaux. We all know that it is not your 
Department's responsibility to approve or disapprove of the 
mergers, but you have to run the Department that these people 
play in.
    Mr. Mineta. Absolutely.
    Senator Breaux. And if all of a sudden you turn around, 
you've got one railroad and one airline and we do not have any 
competitors, you are not going to be able to do your job.
    Mr. Mineta. Absolutely.
    Senator Breaux. And I think with your background and 
experience and knowledge in these areas, you have to be a voice 
if you will, within this Administration to talk about 
competition and how important it is. But you cannot run a 
Department of Transportation if you do not have any players. 
That is going to be one that is going to meet the needs of the 
American public, particularly in the area of transportation.
    I mean, it is happening in everything we do. Whether it is 
communication, transportation, aviation, railroads, oil and 
gas, energy production. And it is a very serious concern. And I 
think more people are becoming really concerned about doing 
something about. And I would hope that you would be able to 
speak up on those issues.
    Mr. Mineta. That is why I say I would be using the bully 
pulpit in that function.
    Senator Breaux. Let us talk a little bit about the natural 
gas pipelines. The Senate in the last Congress passed by 
unanimous vote--Senator McCain and a number of Senators on this 
Committee worked very hard to compromise and get a natural gas 
pipeline bill out. Senator Hutchison and I were working 
together in a bipartisan fashion.
    The Department has recently issued a final rule on pipeline 
safety for petroleum pipelines for liquid pipelines. And it is 
my understanding that the Office of Pipeline Safety is 
preparing to issue a proposed rulemaking on natural gas 
pipelines.
    And I want to just stress the importance of the difference 
between the two. I mean, what is good for oil pipelines does 
not necessarily fit the mode for natural gas pipelines. The 
whole concept of running a so-called pig through an oil 
pipeline to detect any leaks is easy. But you cannot do that 
with natural gas pipelines because they bend, they curve and it 
just does not work.
    So I guess my recommendation to you is that to make sure 
when these rules come up--I hope Congress does this ourselves 
and gives you some guidance. But make sure that the Department 
officials understand the major difference and that you have to 
have options available to get the job done. One size does not 
fit all in this particular area. And I would encourage you to 
be aware of that.
    The final point is Coast Guard. I mean, my State and many 
of the members around here are very dependent and at the same 
time very concerned about the supplemental requests that the 
Coast Guard seems to live on.
    Right now our Coast Guard is in the far off Islands of the 
Galapagos to try to help clean up a major environmental spill. 
They are called on a regular basis to do this off our coast 
lines in addition to drug interdiction and military law type 
enforcement activities.
    And we have submitted a $91 million supplemental. And I 
would hope that you would be supportive of that supplemental as 
it works its way trough the Congress including the integrated 
deep water system project where we are trying to modernize all 
these fleet of ships. I mean, some of them are really antiques 
out there that we have given the Coast Guard more and more 
responsibility and less and less equipment to do it. So this is 
a big item under the Department of Transportation and it should 
be given a great deal of support. I am hopeful that you are 
going to be in a position to do that.
    Mr. Mineta. I will, Senator. And I would hope also that I 
could enlist the assistance of the members of the Committee 
relating to '02 as it relates to the Coast Guard. Because as 
the military pay increases are given, it impacts on the Coast 
Guard. And yet, the Coast Guard transportation appropriations 
does not go along with that same defense appropriations bill in 
terms of what they get.
    Senator Breaux. Would you recommend that they be included 
in that type of proposition?
    Mr. Mineta. Absolutely.
    Senator Breaux. Thank you, Mr. Chairman.
    Mr. Mineta. I believe the impact in 2002 is something like 
$38 million. So, again, just as you are saying the $91 million 
in 2001 is important, so is that as we follow along with the 
2002 budget.
    Senator Breaux. Thank you.
    The Chairman. Thank you, Senator Breaux. And Senator 
Breaux, it is our intention, unless there is objection, to put 
the pipeline safety bill back on the first markup.
    And I want to thank you and Senator Hutchison and Senator 
Murray and former Senator Slade Gorton on this issue. This is a 
very important issue. And it is very unfortunate that we did 
not pass that bill through the Congress in the last session. 
And so we want to thank you for your hard work on it. And 
thanks for raising the issue.
    I think you would agree, Norm, that it is a very important 
situation. I think we are going to see an increased use of 
natural gas over time rather than a decrease.
    Senator Snowe, I had a request from Senator Fitzgerald if 
he could ask one question. He is a brand new member of the 
Committee. He is already usurping the members who have been on 
the Committee for a long time. He was also late arriving.
    [Laughter.]
    The Chairman. But we would be happy to let you ask the 
question ahead of Senator Snowe.
    Could I just say one other thing? We are going to continue 
the questioning. Members who have not asked questions, please 
go over and vote and come back. We are going to continue the 
hearing. We are not going to break for the vote.
    Senator Fitzgerald.

            STATEMENT OF HON. PETER G. FITZGERALD, 
                   U.S. SENATOR FROM ILLINOIS

    Senator Fitzgerald. Thank you, Mr. Chairman. I just had one 
question for you, Mr. Mineta. And I was delighted to have the 
opportunity to meet with you in my office. It did not take me 
more than 2 or 3 minutes to determine that you had encyclopedic 
knowledge about transportation in this country.
    After your appointment, it was widely reported in the 
Chicago area newspapers that the first question then President-
elect, now President Bush, asked you was what do you think 
about the need for a third airport in Chicago. And so I wanted 
to ask you did he indeed as you that? And if so, how did you 
answer President Bush on that issue? How do you feel about the 
need for a third airport in Chicago? Softball question.
    Mr. Mineta. First of all, yes, sir. He did ask me about the 
need. And my response is really it is a capacity issue. And the 
question is how best to deal with that capacity issue as soon 
as possible? And looking at it in terms of short range as well 
as long range.
    And so whether it is going to be an additional runway at 
O'Hare or whether it is a third airport in Chicago, that is 
something again all of us are still going to have to wrestle 
with. I do not think anyone has that answer yet. And yet, it is 
one I am going to get into very quickly. And it is one that you 
and others are going to be involved in. And I am just going to 
be working with all of you on that.
    Senator Fitzgerald. I look forward to working with you on 
that.
    Mr. Mineta. Absolutely, absolutely.
    Senator Fitzgerald. Thank you. And thank you, Mr. Chairman 
And thank you, Senator Snowe. I appreciate the accommodation.
    The Chairman. Senator Snowe.

              STATEMENT OF HON. OLYMPIA J. SNOWE, 
                    U.S. SENATOR FROM MAINE

    Senator Snowe. Thank you, Mr. Chairman. And I too want to 
reinforce what has been said here today about you, Mr. Mineta. 
As a former colleague from the House of Representatives I 
certainly can attest to not only your ability, but your 
knowledge on so many of the transportation issues because of 
your position in the House. I am just delighted that you are 
willing to accept this position within this Administration.
    I first want to address the issue of airline service, 
particularly to small- and medium-sized communities. My overall 
concern is the constraints on the system. And I think one of 
your most difficult challenges will be how to address under 
served communities in this country.
    It is one of the issues that we have been wrestling with on 
this Committee. And in particular, Senator Dorgan and I had 
asked for a report several years ago on the impact of 
deregulation on smaller communities and as one who represents 
Maine. I have seen that service diminish. And at the same time 
we have seen rising fares.
    In addition, recently we saw the lottery of slots at 
LaGuardia to reduce the congestion at that airport. That was 
understandable. But at the same time that we are trying to 
factor in and integrate into our aviation system regional jets. 
We are losing that type of service due to congestion.
    One carrier was intending to provide regional jet service 
from Portland, Maine, to LaGuardia, but those slots were lost, 
even though there was an agreement with the FAA to allow those 
slots to be available for regional jet service between our 
State and LaGuardia.
    So, if we are trying to encourage the incorporation of 
regional jets and improved air service to smaller communities 
across the country and yet we are having this enormous 
congestion at airports, small communities stand to lose first. 
It is a Catch 22. One carrier lost 70 slots at LaGuardia. So 
immediately, we lost service from our largest community in 
Maine to LaGuardia on a regional jet.
    We are not only losing service, but we are also seeing that 
even in terms of the type of equipment that will serve our 
State airlines do not have the slots to provide jet service. 
And this one carrier, for example, made a major investment in 
regional jets to serve small communities, such as is in Maine.
    So I think that you will have to examine many of the issues 
regarding airline service to rural communities in the state. 
Because we have seen diminishing service and that is not only 
my statement. GAO certainly reinforced that notion from the 
standpoint that many communities have benefited, but many 
communities and states have not benefited from deregulation. 
And certainly that has been true of my state.
    So I hope that you will give this issue your highest 
priority. Because I do think that we have to incorporate rural 
states as a priority in our aviation system. We will never be 
able to compete on an equal level with the more populated areas 
of this country. Certainly in terms not only of population, but 
in terms of the type of aircraft that those communities are 
served with.
    And so I hope that we find a way of incorporating smaller 
communities in our aviation system development and design. 
Because otherwise, we are going to see, I think, an erosion of 
the kind of economic development in our states, in our 
communities.
    I do not see air service as a luxury. I see it as a 
necessity and as an imperative. And therefore, I think we also 
have to make sure it is part of our overall policy. And I would 
urge you to give that your highest consideration as you are 
developing your vision of the future of the aviation system.
    In addition, I am very concerned by the Inspector General s 
report concerning customer service and the rising consumer 
complaints and with passenger dissatisfaction at an all time 
high. Have you had a chance to review that report? How would 
you respond to some of the issues that have already been 
raised? And what can we do in the future to be able to address 
many of these complaints that have been persistent and 
consistent?
    Mr. Mineta. I have that report. And, Senator, it is going 
to be sitting on my desk in full view. Because I think it does 
lay out very well the challenges facing the Department of 
Transportation. I intend to use that as a guideline, as a 
reference book in terms of what I am going to be doing.
    Senator Snowe. I appreciate that. I hope you will give it 
great consideration because it is one of the issues that 
obviously has concerned us here on the Committee.
    Mr. Mineta. Going back to your previous question, I am 
wondering whether or not essential air service program is not 
vital to making sure that there is service of small and medium 
size communities. And part of the problem there is, again, a 
funding problem. It has not been fully funded--what amounts 
have been allocated to it are now being used up, and so we are 
going to have to have replenishment or not replenishment, 
additional funding available in the EAS program to really 
benefit small- and medium-sized communities.
    Senator Snowe. I will look at that issue as a matter of 
fact as a way of incorporating maybe a policy with respect to 
serving those communities.
    One other question on the Federal Motor Carrier Safety 
Administration. As I understand it, there will be a 
consolidation of the State director between Maine and Vermont. 
I gather that is very unique and there is no other situation 
like it in the country. Our State director has retired. But 
apparently, there is an intent to consolidate that position 
with New Hampshire.
    I gather you can understand the problems associated with 
the geography alone, especially in a State like Maine. It 
represents more than Connecticut and Rhode Island combined in 
terms of land area.
    So this represents a significant safety issue. Would you 
look into that? Because I think that would be the wrong 
direction to take.
    Mr. Mineta. I just assume that because of the Maine 
director resigning that that has temporarily been given to 
Vermont to oversee. I would assume that all we are doing is in 
the process of looking for a Maine director. But I will take a 
look at that. But I think it is only a temporary situation, but 
I will take a look at that.
    Senator Snowe. Thank you. Thank you, Mr. Chairman.
    The Chairman. Senator Carnahan.

               STATEMENT OF HON. JEAN CARNAHAN, 
                   U.S. SENATOR FROM MISSOURI

    Senator Carnahan. Mr. Chairman, I would like permission to 
insert my lengthy opening remarks in the record.
    The Chairman. Without objection.
    [The prepared statement and press release of Senator 
Carnahan follow:]

               Prepared Statement of Hon. Jean Carnahan, 
                       U.S. Senator from Missouri

    Thank you, Mr. Chairman and thank you Senator Hollings. Let me just 
start by saying how truly honored I am to be a member of this 
Committee.
    I would also like to say welcome and congratulations to Mr. Mineta 
and his family. Mr. Mineta served the prior administration with 
distinction and I am confident that he will do so again in the new 
administration.
    I am eager to work with you in the days ahead to address issues 
such as our highway and mass transit systems--both of which are of 
great concern to the people of Missouri. There is one specific issues, 
however, that I would like to address this morning--the acquisition of 
Trans World Airlines by American Airlines.
    Mr. Chairman, I understand and share many of the concerns that my 
colleagues have expressed with regard to increased consolidation in the 
airline industry. Several of the recent high profile deals that have 
been proposed may alter the structure of the aviation industry and thus 
raise questions about possible reductions in competition.
    I also believe, however, that we must recognize a fundamental 
difference between the American/TWA transaction and the other airline 
mergers that are currently under consideration. While we may be 
initially inclined to view all of the current airline mergers in the 
same light, we must consider the American Airlines' acquisition of TWA 
independently of the other proposed mergers.
    The primary difference with the American/TWA deal is that TWA is a 
financially distresses firm and cannot be saved or revived without 
intervention like that proposed by American Airlines. Unlike prior 
financial difficulties at TWA, it is very clear that at this point, if 
left alone, they would be forced to shut down and liquidate.
    The current management team at TWA and TWA's employees have done an 
outstanding job in recent years at turning the carrier into an 
efficient, on-time airline. In fact, TWA's recent efforts to improve 
service resulted in recognition within the airline industry for on-time 
operations, fewest customer complaints and least lost luggage.
    Unfortunately, however, the company's mounting debt and poor 
credit, coupled with continued problems associated with a prior 
separation agreement with Carl Icahn, caused irreparable damaged to the 
airline. Ultimately, these problems became too burdensome to overcome, 
even for one of the industry's most dedicated workforces.
    Two weeks ago, however, American Airlines proposed to acquire 
substantially all of TWA's operating assets. TWA's board of directors 
approved.
    Considering TWA's financial circumstances, American Airlines' offer 
to purchase substantially all of TWA's assets represents the best 
possible scenario for TWA customers, employees, and for the state of 
Missouri. TWA employs approximately 20,000 people, over 12,000 of them 
in Missouri. Furthermore, St. Louis' Lambert International Airport, 
where TWA is headquartered, has an annual economic impact of $5 billion 
on the region. Officials at American have assured me that they plan to 
offer employment to substantially all of TWA's contract employees, to 
maintain St. Louis' status as a ``hub'', and to keep TWA's maintenance 
base in Kansas City--and I will be monitoring the situation closely to 
ensure that they stand by their commitments. Only an arrangement such 
as this one, in which TWA is sold virtually intact, will ensure 
continued employment opportunities for TWA employees, and will enable 
St. Louis to remain a hub.
    Therefore, Mr. Chairman, please let me reiterate that I too have 
serious reservations about the increased consolidation in the airline 
industry. Like all of you, I am concerned about fewer travel options, 
higher fares and lower levels of service. However, as a Senator from 
Missouri, I cannot overlook the damage--particularly the loss of jobs--
that TWA's closing would have on my state and on the nation as a whole.
    Mr. Chairman, I hope that you, Mr. Mineta and the other members of 
this committee will understand the different set of circumstances 
surrounding the TWA/American Airlines deal when assessing this 
acquisition.
    Mr. Mineta, thank you for appearing here today and for your 
willingness to continue your public service. I look forward to working 
with you in the days ahead.
    Thank you.
                                 ______
                                 
 Press Release--Carnahan Focuses on American Airlines' Acquisition of 
      TWA at Confirmation Hearing for Secretary of Transportation

 SAYS AMERICAN'S PROPOSED ACQUISITION IS ``BEST POSSIBLE SCENARIO'' TO 
                           SAVE MISSOURI JOBS

    Washington, DC.--Speaking today at the confirmation hearing of 
Secretary of Transportation-designate Norman Mineta before the Senate 
Committee on Commerce, Science and Transportation, United States 
Senator Jean Carnahan focused on American Airlines' proposed 
acquisition of St. Louis-based TWA, calling it the ``best possible 
scenario'' to save Missouri jobs.
    Said Carnahan: ``Considering TWA's financial circumstances, 
American Airlines' offer to purchase substantially all of TWA's assets 
represents the best possible scenario for TWA customers, employees, and 
for the State of Missouri. TWA employs approximately 20,000 people, 
over 12,000 of them in Missouri.
    ``Officials at American have assured me that they plan to offer 
employment to substantially all of TWA's contract employees, to 
maintain St. Louis' status as a 'hub,' and to keep TWA's maintenance 
base in Kansas City--and I will be monitoring the situation closely to 
ensure that they stand by their commitments. ``
    The following is the text of the opening statement by Carnahan at 
the confirmation hearing of Norman Mineta before the Commerce 
Committee:

          Thank you, Mr. Chairman and thank you Senator Hollings. Let 
        me just start by saying how truly honored I am to be a member 
        of this Committee.
          I would also like to say welcome and congratulations to Mr. 
        Mineta and his family. Mr. Mineta served the prior 
        administration with distinction and I am confident that he will 
        do so again in the new administration.
          I am eager to work with you in the days ahead to address 
        issues such as our highway and mass transit systems--both of 
        which are of great concern to the people of Missouri. There is 
        one specific issue, however, that I would like to address this 
        morning--the acquisition ,of Trans World Airlines by American 
        Airlines.
          Mr. Chairman, I understand and share many of the concerns 
        that my colleagues have expressed with regard to increased 
        consolidation in the airline industry. Several of the recent 
        high profile deals that have been proposed may alter the 
        structure of the aviation industry and thus raise questions 
        about possible reductions in competition.
          I also believe, however, that we must recognize a fundamental 
        difference between the American/TWA transaction and the other 
        airline mergers that are currently under consideration. While 
        we may be initially inclined to view all of the current airline 
        mergers in the same light, we must consider the American 
        Airlines' acquisition of TWA independently of the other 
        proposed mergers.
          he primary difference with the American/TWA deal is that TWA 
        is a financially distressed firm and cannot be saved or revived 
        without intervention like that proposed by American Airlines. 
        Unlike prior financial difficulties at TWA, it is very clear 
        that at this point, if left alone, they would be forced to shut 
        down and liquidate.
          The current management team at TWA and TWA's employees has 
        done an outstanding job in recent years at turning the carrier 
        into an efficient, on-tune airline. In fact, TWA's recent 
        efforts to improve service resulted in recognition within the 
        airline industry for on-time operations, fewest customer 
        complaints and least lost luggage.
          Unfortunately, however, the company's mounting debt and poor 
        credit, coupled with continued problems associated with a prior 
        separation agreement with Carl Icahn, caused irreparable 
        damaged to the airline. Ultimately, these problems became too 
        burdensome to overcome, even for one of the industry's most 
        dedicated workforces.
          Two weeks ago, however, American Airlines proposed to acquire 
        substantially all of TWA's operating assets. TWA's board of 
        directors approved.
          Considering TWA's financial circumstances, American Airlines' 
        offer to purchase substantially all of TWA's assets represents 
        the best possible scenario for TWA customers, employees, and 
        for the State of Missouri. TWA employs approximately 20,000 
        people, over 12,000 of them in Missouri.
          Furthermore, St. Louis' Lambert International Airport, where 
        TWA is headquartered, has an annual economic impact of $5 
        billion on the region. Officials at American have assured me 
        that they plan to offer employment to substantially all of 
        TWA's contract employees, to maintain St. Louis status as a 
        ``hub,'' and to keep TWA's maintenance base in Kansas City--and 
        I will be monitoring the situation closely to ensure that they 
        stand by their commitments.
          Only an arrangement such as this one, in which TWA is sold 
        virtually intact, will ensure continued employment 
        opportunities for TWA employees, and will enable St. Louis to 
        remain a hub.
          Therefore, Mr. Chairman, please let me reiterate that I too 
        have serious reservations about the increased consolidation in 
        the airline industry. Like all of you, I am concerned about 
        fewer travel options, higher fares and lower levels of service. 
        However, as a Senator from Missouri, I cannot overlook the 
        damage--particularly the loss of jobs--that TWA's closing would 
        have on my State and on the Nation as a whole.
          Mr. Chairman, I hope that you, Mr. Mineta and the other 
        members of this committee will understand the different set of 
        circumstances surrounding the TWA/American Airlines deal when 
        assessing this acquisition.
          Mr. Mineta, thank you for appearing here today and for your 
        willingness to continue your public service. I look forward to 
        working with you in the days ahead.
          Thank you.

    Senator Carnahan. You have certainly served this 
Administration with distinction. And I am sure that you will 
also do that in this new Administration. I am eager to work 
with you in the days ahead in addressing some issues involving 
our highways and mass transit.
    But today I would like to draw our attention to two issues 
that are of paramount importance to my home state. One of those 
is the acquisition of TransWorld Airlines by American Airlines. 
Preserving the more than 12,000 jobs and maintaining the hub in 
St. Louis as well as the maintenance of space in Kansas City is 
also of paramount importance to us. American Airlines in its 
proposed acquisition of TWA's assets has pledged to keep 
virtually all the jobs, the hub and the maintenance space. 
Without intervention by American, TWA will be forced to close 
its doors and liquidate.
    Now, while I understand and I certainly share the concerns 
of my colleagues that have already been expressed concerning 
the consolidation in the airline industry, I believe that we 
must recognize that there is a fundamental difference between 
the American TWA transaction and the other airline mergers that 
are currently being considered.
    The primary difference with the American TWA Airlines deal 
is that TWA is a financially distressed firm that cannot be 
saved and cannot be revived without intervention like that 
proposed by American Airlines.
    Could you please share your views on whether this 
transaction is distinct from other airline mergers that are 
currently being considered?
    Mr. Mineta. I think you are absolutely correct in the sense 
that TWA's survival is going to require either American 
Airlines or someone else to acquire them. And to see a turn 
around of TWA in its present form would probably be very 
difficult.
    So to the extent that that acquisition in terms of the 
marketplace I think would still have to be examined in the same 
way by the Department of Justice. I personally have not really 
looked at it yet in terms of the impact, in terms of the 
competitive marketplace.
    From a survival perspective, it is obvious that American 
Airlines is a good response. But there are other factors that 
will have to be looked at. And I have not gotten into it to 
that extent.
    Senator Carnahan. Well, certainly in Missouri, we do not 
see it as a merger. We see it more like a rescue mission.
    Mr. Mineta. I understand.
    Senator Carnahan. My other question. I am sure you know 
that Boeing Corporation employs more than 16,000 people in 
Missouri. And as such, I am extremely interested in Boeing's 
ability to compete on a level playing field. So it comes as no 
surprise that I am very concerned about the $4 billion in 
European government loans that are helping to fund a competing 
project, the Airbus A380.
    The 1992 U.S./EU Civil Aircraft Treaty provides that 
government loans made on commercial terms are allowable only if 
the project is proven to be commercially viable. If Airbus does 
not submit proof as Boeing has requested that the A380 project 
is commercially viable, what course of action would you pursue 
in your new role as Secretary of Transportation?
    Mr. Mineta. We touched on it when I was over at Commerce in 
a small way. But the basic work on this issue will either be by 
State Department or USTR. We will be involved from the 
Department of Transportation's perspective. But again, that 
subsidy is a very real issue. And I will just have to be alert 
to that portion of it. I will take a look at it and work with 
the USTR and the State Department in terms of the work with the 
EU on that Airbus issue.
    I dealt with part of that, not as it relates to Airbus, but 
as it relates to subsidies when I was at Commerce. In the steel 
industry when the steel companies that were owned by the 
governments, whether it was UK or German or French, when those 
companies were privatized, the question came up how much of 
that new corporation is there as a result of the historical 
subsidies from the governments of let us say Great Britain or 
France or Germany? And to that extent, how much of that subsidy 
would be counted in terms of determining the import duties and 
capacity of the steel companies to be able to sell in the 
United States?
    And so to that extent, we got into the subsidy question. 
And so just as you have indicated in this one, we would also be 
looking at how much of a subsidy there is to Airbus from the 
consortium of France, U.K., Spain and Germany that make up the 
Airbus corporation. So we would be taking a look at that 
portion of it.
    Senator Carnahan. Thank you.
    The Chairman. Senator Smith.

                STATEMENT OF HON. GORDAN SMITH, 
                    U.S. SENATOR FROM OREGON

    Senator Smith. Thank you, Senator Hollings. And Mr. 
Secretary welcome to this hearing in your behalf. I think it is 
a wonderful thing that President Bush has selected you to head 
this Department for more than the obvious reason that you are 
so eminently qualified for it.
    I have noted in my political career that Republicans and 
Democrats approached pouring cement and cutting ribbons with 
equal bipartisan enthusiasm. And so I think it is a wonderful 
thing that he has picked such a fine man, a Democrat, to head 
this agency, this Department, so important to all of us now 
matter how we register politically.
    Mr. Secretary, in the past, the Department and the 
Administration have submitted budget requests for individual 
projects which reflect the funding schedule in the full funding 
grant agreement. Do you anticipate any change in that in your 
Administration?
    Mr. Mineta. I do not believe so. Again, I am not familiar 
with all of the full funding agreements.
    Senator Smith. It has to do with the planning that 
different metros need to do.
    Mr. Mineta. On that, I would say no difference at all.
    Senator Smith. In both the ISTEA and the TEA-21, Congress 
and the Administration have recognized the benefits of linking 
land use planning and transportation capital investments. They 
produced benefits like leveraging private investment, providing 
predictability again, responding to local needs and reducing 
energy consumption and air pollution.
    As you think forward to the reauthorization of TEA-21, do 
you anticipate that there will be opportunities to continue to 
move in this policy direction and further reward communities 
for making a commitment to better land use planning and 
transportation coordination. I assume that the Bush 
Administration and you will continue these policies.
    Mr. Mineta. Given those kind of policy discussions that 
would still have to ensue, that would be my personal direction 
in terms of a recommendation and would continue that same 
policy.
    Senator Smith. I think you are very familiar with my State 
as a neighbor to yours and how committed we have been for many 
years now, for decades now, for land use planning, preserving 
prime farm and forest land, managing our growth in a way that 
reflects a higher quality of life. And that is really what I am 
saying. Is there a benefit to communities, an incentive to 
communities, to continuing that? And I think you are saying 
yes.
    Mr. Mineta. Absolutely. And I found that to be the case 
when I was in local government and used that as a process and a 
principle.
    Senator Smith. As your neighbor to the north, we share a 
very important highway corridor and that is, of course, 
Interstate 5. There are places, choke points, on that important 
interstate that I think warrant your attention and some 
priority. One of them is at a point on I-5 that separates the 
city of Vancouver, Washington, from Portland, Oregon. There are 
two lift span bridges there that create enormous amounts of 
congestion with the traffic on the Columbia River and the 
traffic between these two cities where many Washingtonians 
live, but then work in Oregon. And it is a constant bottleneck. 
I think frankly it warrants a change, an improvement, if we are 
to eliminate some of these choke points. I am hoping that there 
will be an opportunity to address these kinds of specific needs 
with you in the National Corridor Program. Can you give us that 
assurance?
    Mr. Mineta. I will take a look at it absolutely.
    Senator Smith. And finally, Mr. Secretary, I would be 
interested in your views on the appropriate balance between 
passenger and freight mobility, whether you believe that the 
Department of Transportation should allocate more planning and 
resources to freight programs as well as passengers. What kind 
of priority, in other words, will freight have? Like the Port 
of Portland. Can they expect some attention from your 
Department?
    Mr. Mineta. Well, just as I think in the past, the 
Department has been integrally involved in the Alameda Corridor 
as a port clearance project. I think wherever there are those 
kinds of bottlenecks, it seems to me we have got to take a look 
at them. And port clearance is a very important but seldom 
understood or even looked at priority. And yet, from an 
economic perspective, it is very important. So port clearance 
again is something I would be taking a look at and would be 
involved in.
    Senator Smith. I think Senator Wyden and I would both 
welcome you back to Oregon as soon as you can come back and 
look at our transportation needs. It is a real pleasure to meet 
you the other day in my office. And I truly look forward to 
working with you.
    Mr. Mineta. I look forward to working with you.
    Senator Smith. Thank you, sir. Thank you, Mr. Chairman.
    The Chairman. Senator Dorgan.

              STATEMENT OF HON. BYRON L. DORGAN, 
                 U.S. SENATOR FROM NORTH DAKOTA

    Senator Dorgan. Mr. Chairman, thank you very much. And, Mr. 
Secretary, thank you for your public service. And I must say 
that I am pleased and proud to cast a vote for your nomination. 
I think you will do an excellent job.
    I do want to talk to you about three areas just very 
briefly. First, to ask you do you ever ride in a taxi? Probably 
not anymore.
    Mr. Mineta. I have. I remember that one experience.
    Senator Dorgan. Thank you. How would you feel as a 
passenger if you got in a taxi and said, you know, I have got 
two destinations in mind. I want to check the price on each 
one. I want to go three miles down the road. And they say, 
well, that will cost you $5.00. And then you say I also want to 
go 10 miles down the road. And he says, well, that will only 
cost you $2.50. You would probably think the cab driver was 
mad, would you not? I mean, stark raving mad. You charge half 
price or almost half the price for going three times as far.
    Well, Mr. Secretary, you come from California. I was 
getting prices this morning just for fun. If you or I were to 
get on a plane this morning, no advance purchase, and to fly to 
North Dakota, Bismarck, it would be about $1,600. But if we 
decided to go to your home in California, no advance purchase, 
we could do that for about $600, twice as far, less than half 
as much. Or if you and I planned our trip and we did a 3-week 
advance or so, we could get a super saver, $560 to go to 
Bismarck, North Dakota. To go to Los Angeles, $278. Less than 
half the price. Or perhaps you wanted to go to Paris round trip 
and plan 3 weeks in advance, $398. Again, Washington, D.C. to 
Bismarck, $560, Paris, $398, Los Angeles, $278.
    I describe these to you--these are this morning's prices--
just to say the system is broken, just flat out broken. And 
those of us in rural areas of the country are paying prices 
that are unjustifiable. And we are subsidizing the routes on 
the heavily traveled routes between big cities pairs.
    Everybody knows it. If you went into a taxicab and they 
priced that way, you would think the person was just daft. But 
it is the way it is priced everyday in this country for people 
who travel in Fritz Hollings' part of the country or my part of 
the country.
    Senator Hollings. Amen.
    Senator Dorgan. Now what we have is retrenched airlines 
that have come back into regional monopolies of sorts that are 
unregulated. So we went from regulated monopolies to regional 
monopolies that are now unregulated.
    And now we have proposals that suggest we should have 
additional mergers. And we have not had many Administrations 
that have seen mergers they do not like.
    I mean, most mergers have gone through here very quickly. 
We have U.S. Air/United proposed. We now have American/TWA, the 
purchase of those assets. We will quickly in my judgment see 
Northwest, Delta and Continental involved in the mix. We will 
have three major airline carriers exacerbating the problem I 
have just described to you.
    And so in my judgment, all of this clogs the arteries of 
the free market system. It just does not work this way. It 
cannot work this way. That is one issue.
    The second is the issue of the railroads. In my state, our 
public service commission estimates that we are over charged 
$100 million by the railroads. When I say railroads, I mean we 
have one principle railroad. We have another service as well, 
but one principle railroad. Overcharged $100 million. I am sure 
you are aware that the railroad is the only industry in America 
that I am aware of that is not subject to the antitrust laws. 
You are familiar with that. I have introduced legislation 
suggesting that any future merger proposals be subject to 
Justice review and antitrust laws.
    But we have also introduced in this Committee the Rail 
Shipper Protection Act which no one has ever accused of 
speeding through this Committee. In fact, it has had a minor 
form of incarceration I suppose in the sense that we introduce 
it and nothing happens. But a number of us on this Committee 
feel very strongly that we ought to do something about this. 
The rail industry is very much like the airline industry.
    Pricing opportunities, if I can just give you one 
additional example, allow the railroads to say that a bushel of 
grain that is picked up in Iowa and goes from Iowa through 
North Dakota to the West Coast is actually charged less, pays a 
lower rate, than a bushel of grain that goes from North Dakota 
to the West Coast.
    So why is a bushel of grain that travels farther, through 
our state, paying less? Because that is the way the system 
works. The railroads tell us what they are going to charge. And 
if we do not like it, tough luck.
    Put a carload of wheat on the track in Bismarck and move it 
to Minneapolis, you pay $2,300. The same carload of wheat from 
Minneapolis to Chicago about the same distance, $1,000. Why do 
we pay more than twice as much for hauling a carload of wheat 
about the same distance? Because the company can make it stay. 
We have no alternatives. No competition means monopoly pricing.
    So I mention these three areas to you just to suggest that 
we have a lot of work to do. The current system is broken. We 
do not have free markets. We have increasing chokeholds on the 
American consumer that relies--especially in states like North 
Dakota--relies heavily on transportation needs. And we are 
paying an outrageous amount of money for it and subsidizing 
those in other parts of the country every day, in every way. 
And we ought to fix it.
    So I have not asked you a question. It has been good 
therapy for me to be here, however.
    [Laughter.]
    Senator Dorgan. [continuing]. And be able to go through 
this once again.
    Mr. Mineta. And a learning experience for me.
    Senator Dorgan. Well, would you just give me some comments, 
your thoughts about this? My hope is that you will say we do 
not need any more mergers. We do not need to go to three 
airlines in the country. And my hope is that you will say I am 
going to be a tiger on this issue of concentration in airlines 
and rails and others.
    Mr. Mineta. Well, in terms of how I approach the job, it 
will be as an activist. And I will be actively involved in all 
facets of our Department. Some of these, of course, are going 
to have much more priority attention. And the other part of it 
is from a personal perspective, there is a lot for me to learn 
about some of these areas that I have not really worked on 
directly. And rail is one area. Coast Guard is another.
    But there are these areas that I will be spending a lot of 
time on to learn more about and to be actively involved in. 
This would be part of that whole program to be working with you 
and others to educate me about those factors.
    Senator Dorgan. Would you just give me just a small hint 
philosophically? Are you restless? Do you not sleep well 
because we see fewer and fewer companies and more and more 
concentration? Can you just give me a hint of the philosophy 
here?
    Mr. Mineta. Sure. I mean, there is no question that as we 
try to deal with letting the marketplace be the determinant, 
the question is to the extent that there is less competition, 
that there is concentration, then that becomes a very 
disturbing factor. And the question is how to then deal with 
it.
    Since the Department of Transportation is not in the 
position to approve or disapprove, what we really have is, as I 
said earlier, the bully pulpit. And that I will be using 
regardless of what the subject matter might be, whether it is 
Coast Guard, airline mergers, rail, shipping, motor carrier 
safety. These issues that have been brought up here today will 
arise--sometimes where I have direct control, other times I 
will have really not a handle on being able to do something, 
but we will have the bully pulpit to also work with other 
colleagues of mine on the Cabinet in working on these issues.
    Senator Dorgan. Mr. Chairman, my time is up. If my 
colleague would just bear with me one moment to ask would you 
be open to the suggestion of imposing the restrictions of a 
Justice review on future rail mergers? We have legislation of 
that type we intend to reintroduce.
    Mr. Mineta. I would take a look at that, Senator Dorgan. 
Again, I am not prepared to make a judgment on that right now. 
But it is something I would definitely take a look at and work 
with you on.
    Senator Dorgan. Mr. Mineta, thank you and good luck.
    Mr. Mineta. Thank you.
    The Chairman. Senator Wyden.

                 STATEMENT OF HON. RON WYDEN, 
                    U.S. SENATOR FROM OREGON

    Senator Wyden. Thank you, very much, Senator Hollings.
    Norm Mineta knows that he is one of the people that I 
admire most in public life. I am so pleased that you are at the 
table, Mr. Secretary. You will be Mr. Secretary in a few 
minutes. Because we are voting now on your confirmation. I will 
make some quick questions so I can get over there and cast a 
vote for you.
    Mr. Secretary, to be--a newly published report that the 
Department paid for deals with predatory pricing--predatory 
practices in the U.S. airline industry. And I heard you respond 
to Senator Dorgan who has done so much good work on this issue. 
But this is on the Web site now, the Department of 
Transportation. It outlines predatory practices in the airline 
industry. I am of the view that there are few laws on the books 
right now to deal with predatory pricing. And the ones that are 
there are being honored more in the breech than the observance.
    So I heard you say to Senator Dorgan you will use the bully 
pulpit. This is top priority business. I mean, we are headed to 
three airlines, fewer choices, higher prices. The many small 
communities in Oregon cannot afford that strategy. And I hope 
that you will make this a top priority.
    The other area that I feel very strongly about is getting 
an enforceable, legally binding, passenger bill of rights with 
respect to airlines in place. I had my head handed to me in the 
last Congress where I was the only vote in this Committee to 
put one in place. And the airlines have just been in denial on 
this.
    First, they said there was not a problem. It was just 
anecdotal. When we showed that there was a problem, they said 
let us handle it voluntarily. When that was not working, they 
blamed the FAA and various people in government. Is the 
Administration open to working with us on a bipartisan, 
enforceable passenger bill of rights?
    Mr. Mineta. There has not been any specific discussion 
about that, but I would assume that to the extent that the 
industry's 12-point program becomes either a stumbling block or 
fails the consumer test in terms of responsiveness, it seems to 
me then the question comes up whether legislation is going to 
be necessary.
    Senator Wyden. How do you appraise the industry's voluntary 
program?
    Mr. Mineta. From what I have seen of it, again, there are 
some aspects of it, I think where they have done well. Other 
areas, woefully short in terms of what they ought to be doing. 
Informing a consumer as to why a delay, for example. And I 
think on that part of it, they seem to be doing relatively 
well.
    On things like lost luggage and getting it to you at your 
hotel or to your residence after they find it, again, they may 
be not doing as well. But I think when you look at the various 
points of it, there are some places on a scale of 10 that are 
probably doing eight. Others they are doing maybe a two.
    Senator Wyden. Mr. Mineta, let me just say--and I think it 
will be in that report that is right next to you--there are 
just no plausible excuses for the airline industry's 
performance on passenger service.
    For example, the Inspector General recently noted that the 
airlines know in a number of instances 3 or 4 hours ahead of 
time that there is going to be a significant delay and they 
will not go out and change the departure board. There is just 
no explanation for not giving people timely, accurate 
information about their travel options.
    And I want you to know, both because of our friendship and 
the importance of this issue to me, I am not calling for a 
constitutional right to fluffy pillows on airline flights. But 
I think we have got to give people accurate, timely 
information. Because we have got businesspeople, for example, 
wasting significant sums of money and time because they cannot 
get information, for example, even about bumping. I am prepared 
to say that airlines ought to be able to sell a ticket if 
somebody knows that a flight is over booked. But to keep people 
in the dark about their travel options the way this industry 
has done is unacceptable.
    So I hope that in addition to this question of anti-
competitive prices, I hope you will look at passenger service 
issues as well. You are going to be a great Secretary dealing 
with these transportation issues. And I so look forward to 
seeing you at DOT and looking forward to your outstanding 
service.
    Mr. Mineta. I absolutely look forward to working with you, 
sir.
    Senator Wyden. Thank you.
    The Chairman. You can see Senator Wyden does not feel very 
strongly about that issue, Mr. Secretary. I believe that there 
is supposed to be a report, Senator Wyden, on what the airlines 
have done that is supposed to be coming out, is it January?
    Senator Wyden. The report is going to come out at the end 
of next week. And I have got our bipartisan bill ready to 
review with you.
    The Chairman. So I believe that a lot of our actions will 
be engaged by the results of that evaluation.
    Senator Wyden. And the favorable comments from Senator 
Kerry this morning were very welcomed. So I see a juggernaut 
building in Committee. And I thank you.
    The Chairman. Thank you.
    Senator Cleland.

                STATEMENT OF HON. MAX CLELAND, 
                   U.S. SENATOR FROM GEORGIA

    Senator Cleland. Thank you very much, Mr. Chairman. And, 
Mr. Secretary, welcome. May I say since I represent the world's 
busiest airport, Hartsfield, and the country's most delayed 
impacted airport, and since I just voted for your confirmation, 
we need that money for the fifth runway tomorrow afternoon.
    [Laughter.]
    Last year, Hartsfield handled some 78 million passengers 
and this number is expected to jump to an incredible 100 
million passengers just at Hartsfield in 4 years.
    As you may know, Dallas Fort Worth, Chicago O'Hare and 
Denver International Airports, they all have five runways. And 
Hartsfield, the busiest airport in the world, has only four.
    In 2005, with 100 million passengers expected and with just 
four runways, it is projected that each flight at Hartsfield 
will average 14 minutes of delay. And since I only have 15 
minutes to get to vote, that leaves me 1 minute from Atlanta. 
That 14 minutes of delay is double the current 7 minutes of 
delay. With five runways though, it is estimated that 
Hartsfield will be down to 5 minutes of delay per flight. This 
is a dramatic savings.
    This decrease in delay is significant and it will benefit 
passengers not just in Georgia and in Hartsfield, but around 
the country it will have a ripple effect. Because what seems to 
happen in Hartsfield has a ripple effect all over the nation's 
airway system.
    We would love to be able to count on you and your 
department to help expedite Hartsfield's critically needed 
fifth runway and the money for it and would appreciate your 
checking that out at your earliest opportunity.
    Mr. Mineta. I will.
    Senator Cleland. Thank you, very much. You are on record as 
a supporter for advance technology applications in the 
transportation industry. As you may know, former Secretary 
Slater in the last 48 hours of his tenure chose to select only 
two projects out of the eligible seven to advance the magnetic 
levitation train, the Maglev deployment program competition.
    Atlanta was a close third. The Atlanta to Chatanooga route 
actually, not just Atlanta, but from Hartsfield to Chatanooga. 
Because even with the fifth runway, it may be that we max out 
so to speak Hartsfield maybe as early as 2010. And so we are 
looking for continue growth in the southeast. And with Delta, 
there is that great hub airline doing more and more globally.
    We are looking for ultimately a secondary airport, a 
reliever airport. If you could commute in effect from 
Hartsfield to the Chatanooga Airport, by magnetic levitation 
train at 220 miles an hour, I think that would dramatically 
improve not only ground transportation in a massive growth 
corridor in the southeast, but it would tremendously facilitate 
relief at Hartsfield.
    I just like to throw that plug in because it did seem to me 
that--and I was told that Atlanta ran a close third. And as a 
booster of that program, I would like for you to continue to 
take a look at that corridor because it seems to make sense in 
so many ways.
    Mr. Mineta. What is the distance of that corridor?
    Senator Cleland. About a hundred miles I think. It is about 
an hour and a half by land by Interstate 75. May I just say 
that I held a Senate roundtable I call it on rail and on a lot 
of transportation issues in my state.
    And Secretary Slater in looking at the many transportation 
problems in Atlanta, Hartsfield, the interstate system, the 
question of commuter rail, the question of rapid rail coming 
down through the Carolinas via Amtrak and the magnetic 
levitation train, all of these issues converging in effect on 
metropolitan Atlanta having the longest commute of any metro 
area in America and the most traffic gridlock of any area in 
the Southeast.
    Secretary Slater agreed to establish a DOT task force of 
officials from the various transportation modes in DOT to work 
with our newly created Georgia Regional Transportation 
Authority. We now have locally a way to get a handle on all of 
these forms of transportation to plan them better, to integrate 
them better and to really move for the first time in our 
history to a balanced transportation system.
    I thought it was a good idea for the Secretary to like in 
effect establish a task force to deal with this problem 
regionally. So that we wouldn't be playing off one form of 
transportation against the other and trying to run through six 
or seven different offices in DOT just to try to get together 
and even have a meeting.
    So I would like for you just to take a look at that 
concept. It might make sense for a huge growing metropolitan 
area such as Atlanta. And if it works there, you never can tell 
whether it might be a good idea for other major areas.
    Mr. Mineta. Has the task force been formed?
    Senator Cleland. I do not think so. I am told by staff they 
have had one meeting.
    Mr. Mineta. Let me take a look at that.
    Senator Cleland. I think that is a wonderful way for us to 
hook up with your great agency. May I say that I deeply 
appreciate your willingness to serve in this difficult 
capacity? You bring so much to the office that you are going to 
hold. And it is going to be my pleasure and privilege to work 
with you and I just cannot think of a better person to be in 
your position. And we look forward to working with you on all 
these issues that come before this Committee in terms of 
transportation. And thank you for your service.
    Mr. Mineta. Thank you very much, sir.
    Senator Cleland. Mr. Chairman, no further questions.
    Thank you.
    [The prepared statement of Senator Cleland follow:]

                Prepared Statement of Hon. Max Cleland, 
                       U.S. Senator from Georgia

    Mr. Secretary-designate, this is your third nomination hearing 
before the Commerce Committee in less than a year. The last two times 
you were approved with flying colors, and I have no doubt that you will 
get equally high marks this third time around. You certainly have my 
strong support and admiration.
    As Secretary of Transportation, you will preside over a department 
which will face monumental challenges on the ground, air and sea. In 
the National Civil Aviation Review Commission's landmark report, you 
said and I quote: ``Given the delay and congestion problems that 
already exist, anticipated growth, without needed expansion of capacity 
in the air and on the ground, will simply reach a point at which it 
cannot be accommodated.'' That was in 1997, and many will contend we 
have already reached the choke point. With 600,000 passengers a year, 
with only 5 new runways in the last 9 years, our aviation system is 
fast approaching gridlock.
    In my state of Georgia, Hartsfield is pushing the envelope as the 
busiest airport in the world. With 78 million passengers a year, it is 
also the nation's most delay-impacted airport. In 2005, with 100 
million passengers projected, and with only the current four runways, 
each flight at Hartsfield is projected to average 14 minutes of delay. 
This delay can be cut dramatically--to just five minutes--if Hartsfield 
gets a desperately needed fifth runway. This is a dramatic savings in 
time and dollars which will benefit passengers not just in Georgia and 
the southeast, but passengers throughout the country.
    Our gridlock in the skies is mirrored in countless highways across 
this nation. The Department of Transportation recently projected that 
traffic congestion in America will increase 400 percent on our urban 
freeways and more than 200 percent on other U.S. roads in just the next 
two decades. Metro Atlanta has become a poster child for urban sprawl 
and congestion. It is the most traffic congested city in the South, and 
its motorists drive more miles per day than drivers from any other 
metropolitan area in the country. Fortunately, Georgia is beginning to 
chart a new course. The State stands ready to flex hundreds of millions 
of dollars from highway projects to transit projects. Georgia's 
transportation planners are considering the potential of intercity 
bullet trains, of light rail, and commuter rail lines serving downtown 
Atlanta from corridors extending to Athens, Griffin and other key 
points in the State.
    Given the fact that two railroad tracks will carry 20 lanes of 
highway in rush hour, we may be looking at a potential rebirth of rail, 
not just in Georgia, but nationwide. How much we can tap this 
transportation option will depend on the policies and resources 
emanating from the Department of Transportation.
    We all know that there are more questions than answers to our 
nation's transportation challenges, and the solutions will not be easy 
and they will not come quick. But I am looking forward to hearing how 
you plan to address America's 21st Century transportation needs, and in 
what direction you will lead.

    The Chairman. Senator Hutchison.
    Senator Hutchison. Thank you, Mr. Chairman. Mr. Secretary 
the Department of Transportation has sought reauthorization of 
the Hazardous Materials Transportation Act for the last several 
years without success. This is very important in the safety 
arena. In Houston, Texas, we had a terrible hazardous materials 
transporting truck accident that really endangered many lives.
    It is my understanding that the stumbling blocks have come 
primarily from dealing with exemptions for farmers and some of 
the disagreements about authorization in the Department of 
Transportation or Department of Labor and who handles what.
    Will reauthorization of this act be a priority for the 
Department of Transportation under your leadership?
    Mr. Mineta. Let me take a look at that. Both that and 
pipeline safety are I think going to be priority items that we 
will be taking a look at. But hazardous materials and pipeline 
safety, I believe are----
    Senator Hutchison. And trucking. Everything hazardous----
    Mr. Mineta. And the motor carriers, yes.
    Senator Hutchison. But, of course, aviation, we had the 
terrible accident in Florida which we all remember as well. But 
just in general, this is a very important issue that will 
become bigger and bigger. So it is my hope that you will try to 
get that through. And we will certainly help you.
    Mr. Mineta. I look forward to working with you on that.
    Senator Hutchison. Thank you. Five years ago, Congress 
changed the definition of commercial motor vehicle to include 
commercial passenger vans carrying nine or more passengers. 
Last month, the Department finally issued the notice of 
proposed rulemaking to apply most of the Federal Motor Carrier 
safety regulations to these vans when they are carrying 
passengers for more than 75 miles.
    This is an important safety issue in a border State because 
these vans sometimes called Camionetas operate across great 
distances without proper safety regulations. Will you make the 
timely adoption of the commercial van safety rules of priority?
    Mr. Mineta. Let me also take a look at that with our 
departmental folks and see where they are on it. Did you say 
that the Department has----
    Senator Hutchison. Yes, they issued the notice of proposed 
rulemaking.
    Mr. Mineta. OK. All right.
    Senator Hutchison. So it is in the process. It just needs 
to be finished.
    Third, I have said this to the last two Secretaries of 
Transportation and I am going to say it again. I live in a 
State that has 3 of the 10 largest cities in America. And none 
of my cities have direct access to Heathrow Airport. We also do 
not have good access to China on non-stop flights. I would ask 
that you look at all of our bilaterals and I would hope that we 
would have a priority of fair and open skies when you are 
dealing with the other countries in establishing more routes 
and more potential destinations from Heathrow, China, Japan and 
other places where we would like to have more access.
    Mr. Mineta. All right. Fine. Thank you.
    Senator Hutchison. And last, Mr. Chairman, I would just 
like to say in the earlier questioning, there has been a lot of 
talk about Amtrak. And I just want to say that I believe all 
modes of transportation have subsidies from taxpayers, capital 
subsidies, not operational. And I think we should all strive to 
make Amtrak self-sufficient operationally, but we should not 
starve them and the capital needs that they may have.
    When we see the overcrowded airports, the overcrowded 
highways, there is just no question that we need to keep the 
rail passenger capability to have an overall transportation 
system in our country. I would just like to ask you if you are 
also of the view that that is part of our overall intermodal 
transportation system for our country and will it be a priority 
for you to work with Amtrak. Will you try to make them as 
efficient as they can be and go for operational subsidies 
presumably to be lessened and eventually eliminated, but not 
walk away from the capital needs?
    Mr. Mineta. I think that is something that again looking 
toward the work of the ARC, since they have got the charge on 
operational sufficiency, I think I have got to wait on that 
report as well and see the progress.
    But part of it is really going to be this whole issue of 
where do we take the kinds of limited financial resources that 
are available and make them work? And I think that the issue of 
operational subsidies is what is being looked at in terms of 
the Amtrak Reform Council in terms of operational sufficiency.
    The other piece of it that you are asking about in terms of 
capital I think is one that has to be looked at. Because if you 
view Amtrak from a capital perspective, then you conclude, 
operationally, it is not going to be successful. So it seems to 
me the two have to go hand in hand. And I have with the limited 
knowledge that I have right now I am just going to have to 
explore what it is that we are going to have to be doing to 
make Amtrak work and become self-sufficient.
    Senator Hutchison. Well, I thank you for that and I agree 
with you that we cannot starve them with capital needs and then 
expect them to be operationally sufficient. That is a downhill 
slide. But I also would say that unlike the other modes of 
transportation, if we lose the rail system, I do not think we 
will ever be able to regain it. Because if we lose the railroad 
tracks or they deteriorate or they no longer are going to be 
able to be long enough to make sense, we will not be able to 
buy the right of way to ever bring back rail.
    So as we are looking at the long-term and the growth in our 
country and the growth in the economy of our country, I just 
would urge you to make rail a priority as a part of that 
intermodal system rail will take some of the burden away from 
highways and away from our airports. And if we fail to save 
Amtrak and the railroads for freight, we are not ever going to 
be able to recapture it. So I do not think it is quite the same 
as the other transportation modes from that standpoint. And I 
hope you will make it a priority. Thank you very much. And I 
think you are very close to being the Secretary of 
Transportation. Thank you.
    The Chairman. Mr. Mineta, let me mention to you some facts 
about the Amtrak situation. I strongly recommend that you look 
at the Department of Transportation Inspector General's report 
on Amtrak. I strongly recommend you look at the GAO study on 
Amtrak. You will find that the problem is not just lack of 
capital. It is its continuing operating losses, something that 
we were assured of would not happen by the year 2002 when we 
bailed them out for the last time.
    I strongly suggest you read the history of Amtrak. In 1971, 
when Amtrak was formed in 3 years they would not need any 
further infusion for operating costs of Federal dollars. Since 
then, I have forgotten how many billions and how many 
restructurings and how many times we have come to Congress.
    There have been numerous efforts to back door this 
Committee's authorization by sticking into appropriations bills 
and tax bills. Well, they put in $15 million for them on the 
agriculture appropriations bill so that they could use GSA 
automobiles.
    So I strongly recommend, Mr. Mineta, that you look at the 
history of Amtrak, you look where we are going and you look at 
that overall passenger ship has not increased in the last 10 
years. Although it has increased in the northeast corridor. And 
I think you will feel that any objective observer of Amtrak 
will tell you what we are going to end up with. We are going to 
end up with the northeast corridor and we are going to end up 
with a far west of it. And that there is nobody that believes 
that anywhere in between that you are going to have 
economically viable train systems running for passengers.
    So what I have continued to say is that we need a great 
national debate on this issue. We need to debate in the 
Congress and tell the American people that as other countries, 
the Europeans and others, we need to continuously subsidize 
Amtrak forever.
    So that we will be providing this service to the American 
people. Or we need to say, look. This is how much it--ask them 
again, again and again how much do you need and give them. I 
think we gave $3 billion the last time, three or four billion 
dollars the last time that they were going to become 
independent by some years in the future.
    So what we need to do on this issue is not continuously 
back door appropriations as they just attempted to do. The 
Senator from Texas colleague, Senator Gramm, just blocked a $10 
billion infusion to them that again was done without a hearing, 
without any authorization, but was going to be stuck into the 
omnibus appropriations bill, something that is incredibly 
offensive to me as the Chairman of the authorizing Committee.
    So I hope, Mr. Mineta, that you will look at the history of 
Amtrak. There is no one who is more respected before this 
Committee than the Inspector General of the Department of 
Transportation, Mr. Ken Mead. I think he will paint a very 
different picture about the prospects of Amtrak ever being 
independent even from operating costs, particularly with the 
labor cost and obligations that they have in the future.
    So I think it is an important issue. I think it is 
important that the tax paying citizens from my State not be 
asked to pay their tax dollars over an over again for a transit 
system which has basically disappeared from our state. And I 
think that perhaps in the spirit of patriotism, they should 
subsidize a northeast transit system and one in the far west.
    But at least they deserve the full and certain knowledge of 
what is going to be expected of them. Since 1971, the promises 
made about Amtrak consistently have not come to fruition and 
that is a matter of record which by the way I will provide for 
the record. Because some day you will be looking at these 
proceedings. And at least the American people deserve honest 
and forthright evaluation of how much it is going to cost them 
in the future.
    And again, I would ask you to talk to people who do not 
have a vested interest in Amtrak, people who are observers and 
experts on national transit systems. I think you will find that 
their answer is pretty consistent. That we are going to have to 
subsidize not just their capital expenses, but their operating 
expenses for the foreseeable future.
    Senator Edwards, have you had a chance to question? I 
apologize, Senator Edwards. I did not know. My deep apologies. 
I did not know that you had not questioned yet.
    Senator Edwards.

                STATEMENT OF HON. JOHN EDWARDS, 
                U.S. SENATOR FROM NORTH CAROLINA

    Senator Edwards. Thank you very much, Mr. Chairman. Mr. 
Chairman let me also tell you how excited I am about the 
opportunity to serve on this very important Committee with you 
as Chairman. I look forward to working with you.
    Mr. Mineta, good morning or I guess it is afternoon now. 
Let me join all the others who have gone before me in thanking 
you for all of your service to our country, both in the House 
of Representatives and as Secretary of Commerce, you played a 
very important role in shaping this country and hopefully will 
continue to play an important role. I think the President made 
a terrific choice when he chose you.
    I am going to be brief because it looks like I am the last 
one. There are two or three issues that I am concerned about 
which we can talk about another time. I will not take up time 
today. Child passenger safety is something I have a great deal 
of concern about, particularly as a parent of a 2\1/2\-year-old 
daughter and an 8-month-old son. Drunk driving laws, truck 
safety standards, those are all things that I would love to 
talk with you about at length at some point.
    I know you have had--and I apologize for not being here--I 
know you have had some discussion already about airline 
mergers. But I have a couple of fairly specific questions 
having to do with the U.S. Air/United merger, proposed U.S. 
Air/United merger, and how it effects my State of North 
Carolina.
    One of the things that we have figured out as a result of 
this proposed merger is that Charlotte Airport has either the 
highest or very close to the highest fares of any airport in 
the country. They are a U.S. Air hub. There is very little 
competition for U.S. Air in that market. And what I have 
learned over time is that that is a fairly typical situation 
with respect to hubs. It is difficult to attract quality 
competition for any of these hubs.
    But I guess first I would like to hear your thoughts if you 
have any about the proposed U.S. Air/United merger. And second, 
whether you have any notion about the impact, if any, that may 
have on the situation that we have in Charlotte where the fares 
are so high.
    Mr. Mineta. First of all, as I indicated earlier, the 
judgment on what is the outcome on these mergers is really in 
the hands of the Department of Justice. To the extent we have 
an input in it, I will use the bully pulpit from a competition 
perspective.
    As far as Charlotte, again, I am not familiar with the 
Charlotte market. As I recall, was it not a hub for U.S. Air? 
Is it still?
    Senator Edwards. It still is a hub for U.S. Air, yes.
    Mr. Mineta. But you say that it does have very high fares.
    Senator Edwards. I think perhaps the highest in the country 
actually.
    Mr. Mineta. OK. That I am just not familiar with them. I 
would have to take a look at it as part of this whole 
examination, looking at Charlotte in terms of its hub function.
    Senator Edwards. Any ideas about what if anything we can do 
to try to increase competition?
    Mr. Mineta. Well, I have always felt that today the 
airlines are really not competing head-to-head. Hubs are. And 
to the extent that you can generate traffic through your own 
hub, people are going to fly let us say from Dulles to let us 
say Los Angeles. And they are either going to go Dulles to 
Atlanta to Los Angeles or Dulles to Denver to Los Angeles, 
Dulles DFW to Los Angeles. I mean, they will look at various 
combinations.
    In terms of Charlotte, I am not sure where those 
combinations might be. But again, it's whether or not Charlotte 
offers alternatives--because you look at two groupings, in 
terms of those who are destination passengers versus through 
passengers. And does Charlotte become a destination airport 
more than it is a through airport? And I do not know what those 
figures might be.
    Senator Edwards. I can tell you it is a much higher 
percentage of through passengers.
    Mr. Mineta. Through?
    Senator Edwards. Yes, yes.
    Mr. Mineta. Well, I would think then that through AIR-21 
and other areas, we would have to take a look at what 
opportunities there would be, not so much for how you get to 
other airlines to come in, because that is a marketplace 
function. And we really do not play a role in that.
    Senator Edwards. I think even if we did play a role, it is 
a very difficult thing to do with the hub. I think it would be 
almost impossible to do no matter what. Although, I think we 
should make an effort. What you are suggesting is that we find 
other ways to create competition.
    Mr. Mineta. I think under the present circumstances that is 
the only way. Now, the competition really comes in different 
ways. If there are ways that Charlotte can be attractive in 
terms of a cost center to an airline, are there ways that 
Charlotte can invite, be inviting, more inviting, to either 
U.S. Air or to another carrier through gates that might be 
available?
    As I recall, in TWA's case, St. Louis Airport bought all of 
the gates from TWA to make it more attractive financially for 
them to survive. It seems to me there may be those kinds of 
approaches that Charlotte as an airport might take. It might 
apply for more Airport Improvement funding for whatever their 
capital needs might be. I just would have to take a look at 
Charlotte as an entity and see what are the alternatives that 
might be available.
    Senator Edwards. Well, we have a situation now, for 
example, where U.S. Air flies out of Baltimore through 
Charlotte to New Orleans and the fare is about $200, two 
hundred and some odd dollars. If you get on that same airplane 
in Charlotte and fly to New Orleans--in other words, you make 
half the trip--it is $800 or $900. And I think that is the 
direct result of U.S. Air having to compete with Southwest 
Airlines in Baltimore. But there is no competition in 
Charlotte.
    I guess all I am asking is I hope you will help work with 
me to find some creative ways to enhance competition if we 
possibly can. Because it is the consumers that both of us are 
concerned about.
    Mr. Mineta. That is something again that I am interested in 
looking at--I want the marketplace to function. But, on the 
other hand, how do we enhance competition? And it seems to me 
we can use AIR-21 as a vehicle. There are other ways in terms 
of marketing efforts that can be done. And again, even there, 
it is not going to be one-size-fits-all. Because again each 
airport based on its configuration, based on its traffic, the 
kinds of airlines that exist there, it will vary. Chicago is 
probably one hub where you have two major airlines.
    Senator Edwards. I think it is the only one, yes.
    Mr. Mineta. And everywhere else where you have hubs, you 
have a dominant carrier and that is it in terms of a major 
airline.
    Senator Edwards. Well, I hope you and I can work together 
on this problem.
    Mr. Mineta. Absolutely.
    Senator Edwards. And I look forward to it. And welcome. I 
think the President made a terrific choice.
    Mr. Mineta. Well, thank you very much.
    Senator Edwards. And I look forward to working with you.
    Mr. Mineta. Absolutely.
    Senator Edwards. Thank you, Mr. Chairman.
    The Chairman. Thank you, Senator Edwards and welcome to the 
Committee. I am happy to tell you that the vote on the floor is 
completed and by a very narrow margin, 100 to nothing, you were 
confirmed.
    [Laughter.]
    Mr. Mineta. Well, thank you very much, Senator. Mr.
    Chairman I just want to thank you for all the help and 
support you have been to me personally, but to my getting 
through this process. Thank you, very, very much.
    The Chairman. Well, it has been a pleasure for me to do it 
with you twice in 6 months.
    [Laughter.]
    The Chairman. And I mean that, your family and your friends 
and America is honored by your willingness to serve. And we are 
extremely proud of you. Thank you. This hearing is adjourned.
    [Whereupon, at 12:45 p.m. the hearing was adjourned.]

                            A P P E N D I X

               Prepared Statement of Hon. Conrad Burns, 
                       U.S. Senator from Montana

     Thank you Mr. Chairman, I would like to express my support of the 
nominee we have before us today. I have had the honor of Secretary-
Designate Mineta's friendship for several years. Earlier this week, I 
shared several of my concerns with him.
    Our nation's Federal Government is responsible to all the people 
and that includes rural America. The nineties were a decade of 
prosperity for Wall Street and the dot.coms., However, if you ask the 
cattle rancher, grain farmer or small agricultural businessman, I 
expect they would not agree they have benefited from this flourishing 
economy.
    Rural America has been all but forgotten by the Federal Government. 
We pay taxes out in Montana and expect our return on investment.
    That is why it is important this administration start fresh with an 
increased emphasis on rebuilding rural America and the foundation 
economies that sustained our Nation long before Bill Gates was born.
    We are geographically challenged in Montana. Although we are the 
fourth largest state, we remain one of the least populated states in 
the nation. Transportation issues are very important to us.
    The Essential Air Service (EAS) program is important to seven 
communities in our state. Implemented upon enactment of the Airline 
Deregulation Act in 1978, this program was developed to ensure small 
communities wouldn't lose air service once airlines structured their 
route schedules based on competitive decisions, rather than a federally 
mandated charter.
    There are 78 qualifying communities in the contiguous U.S. and 
Hawaii and 26 in Alaska. It is important that we ensure the integrity 
of this program.
    Additionally, the funding formulas in TEA-21 and AIR-21 should not 
be altered. I feel strongly about the work we did in the 105th and 
106th Congress to ensure our nation's highways and airports have access 
to badly needed construction funds. These two bills essentially doubled 
infrastructure funding for highways and airports.
    I encourage the Secretary-Designate to consider streamlining the 
Department's environmental processes. Environmental regulations have 
created a funding shortfall and slowed down the construction process. 
More and more projects have become subject to judicial challenge by 
environmental groups.
    For example, the Beartooth Pass highway in Southern Montana is one 
of the nation's most beautiful treasures. Providing access to 
Yellowstone National Park's northeast entrance, this road climbs over 
the Beartooth-Absaroke Wilderness peaking at 12,000 feet before 
dropping down into the land of geysers and bison.
    Facing a $40-$50 million reconstruction, this project has been 
underway for over 3 years and nearly $10 million yet no construction 
has taken place. Environmental assessment has delayed the project and 
cost the taxpayers well over 20 percent of the total expected cost so 
far.
    It is my hope this Administration will approach this issue from a 
perspective that will not only keep our environment clean and healthy 
but also from a perspective that will reduce waste and delay on 
projects important to safety on our highways.
    The Transportation Secretary will also be asked to engage on other 
transportation issues aside from highways and aviation. Rail 
transportation is supposed to be the most efficient form of 
transportation for bulk products like grain and coal, both of which I 
have plenty of in my State of Montana. Deregulation in 1980 led to 
lower rail rates across the Nation except for those pockets where 
competition eventually disappeared due to consolidation.
    The nation's railroads have followed the path of consolidation to a 
point that they are actually able to monopolize entire regions. That is 
the case in much of Montana and North Dakota which is subject to 
extremely high rates charged by the BNSF railroad. Our farmers and coal 
producers pay some of the highest rates in the nation. I urge my friend 
to consider the transportation costs on these producers--they have no 
other alternative.
    Finally, I would like to urge the Secretary-Designate to consider 
the status of slot-controlled airports across the nation. As my 
colleagues are aware, last year, this body negotiated a bill to 
reauthorize the FAA. That bill also contained a provision that gave the 
DOT the authority to allocate additional slots at Reagan National 
Airport, also known as DCA. I share the Chairman's opinion that we 
should allow additional slots at DCA to serve the Western part of or 
nation.
    But I think we were all quite surprised when the allocations were 
made last year. I think we all took it for granted that the outside-
theperimeter allocations would be made in a fair manner serving the 
entire West. With the demise of TWA, I encourage the DOT to reassess 
the decisions made by the last Administration when considering the 
reallocation of those slots at DCA.
    Congress mandated that the allocation of slots outside of the DCA 
perimeter rule be based on which application offered the best 
``domestic network benefits'' (ie, served the most communities). This 
was intended to provide better service for small- and mid-size 
communities. A very brief overview of the applications would certainly 
convince any of my colleagues or the Secretary-Designate that this 
requirement was not adhered to.
    I encourage Mr. Mineta and his staff to review this statute when 
addressing the reallocation of these or any other of these slots that 
may be open to reconsideration.
    Thank you, Mr. Chairman.

                               __________
             Prepared Statement of Hon. Dianne Feinstein, 
                      U.S. Senator from California

    Mr. Chairman, it is my pleasure today to introduce to you my friend 
of nearly 30 years and a native Californian--Norman Mineta--who has 
been nominated by President Bush to serve as Secretary of 
Transportation. I can think of no person more qualified to serve as the 
head of this important department than Norman Mineta. He has been a 
member of the Cabinet, a Congressman, a big-city Mayor, and a military 
veteran. In truth, Norman Mineta, embodies the American dream.

                               BACKGROUND

    A native Californian of Japanese descent, Norman Mineta and his 
family were interned in the Manzanar Internment Camp during World War 
II for 3 years. During this time, the Mineta family lost their home and 
his father's insurance business.
    After the war, Norman joined the U.S. Army in 1953 and served as an 
intelligence officer in Japan and Korea before returning to San Jose to 
enter politics.
    In the early 1970s, Norman became the first AsianAmerican to be 
lead a major U.S. city when he served as Mayor of San Jose, California.
    He then served 20 years in the House of Representatives after being 
elected in 1975. There he became the first Asian American to chair a 
House Committee when he served as Chairman of the Committee on Public 
Works and Transportation from 1993-1995.
    In Congress, he was the key author of the 1991 Surface 
Transportation Efficiency Act, which effectively shifted decisions on 
highway and transit planning to local and State governments. The bill 
also set aside funds from the Highway Trust Fund for spending on mass 
transit and environmentally friendly projects such as bike paths.
    Secretary Mineta also pushed in Congress for additional aviation 
spending and was a longtime critic of Federal Aviation Administration 
policies.
    After leaving the House, he served as Vice President of Lockeed 
Martin where he worked on ``intelligent highway systems'' aimed at 
improving traffic flow without building new roads by using tactics such 
as electronic toll booths.
    And this past June, Norman Mineta was the first Asian American 
named to a Cabinet post when President Clinton him as Secretary of 
Commerce.
    At the Department of Commerce, Secretary Mineta worked on bridging 
the digital divide and traveled to dozens of U.S. cities to in an 
effort to improve access to computers for all Americans.
    His efforts focused on removing the barriers that have historically 
kept minorities and the less fortunate from being able to utilize the 
latest technologies in their effort toward self improvement.
    This program included an effort to have companies donate computers 
to thousands of schools and Native American reservations.
    Secretary Mineta's second major project was to preserve our Oceans 
and he urged the President to place sanctions on Japan for violating 
international whaling agreements.
    Mr. Chairman, our Nation owes much to the service of Norman Mineta. 
Transportation is not a partisan issue. It is my sincerest hope the new 
Administration will draw upon Norman's background and will grant him 
the resources to apply that experience as an independent voice he deems 
appropriate.
    He is a true leader who will bring a bipartisan consensus to 
American transportation. I have no doubt he will make us proud in his 
new role as Secretary of Transportation.

                               __________
    Responses to Written Questions Submitted by Hon. John McCain to 
                            Norman Y. Mineta

    Question 1. In your view, what programs within DOT should be 
eliminated, downsized or consolidated?
    What specific steps will you take to effect those changes, and to 
reduce waste and promote efficiency at the Department of 
transportation?
    Answer. Although I am new to the position of Secretary of 
Transportation, I am familiar with most of its programs because of my 
years in Congress, in particular serving on the former Committee on 
Public Works and Transportation of the House of Representatives. I am 
applying that experience to the process of developing the President's 
first Budget Request. In this context, I am taking the opportunity to 
evaluate which programs or activities of the Department might be 
candidates for elimination, downsizing, or consolidation. At the same 
time, I believe the Department is generally well served by its current 
staff and organization, and it would be unfortunate to proceed on the 
premise that waste and inefficiency are widespread. Instead, I intend 
to combine the annual budgeting process with the analysis of the 
Department's Inspector General of program deficiencies (in particular, 
the identified management challenges) as my means for accomplishing 
gains in this area.
    Question 2. I know that you clearly understand the difference 
between statutory and report language.
    What steps will you take at the Department to ensure that the modal 
administrations treat report language as it is intended, an expression 
of Congressional interest, rather than having it be treated as a 
Congressional mandate?
    Answer. Let me assure you that I do understand the difference 
between statutory and report language, particularly when it comes to 
the naming of specific projects in report language. In such instances, 
only statutory language is law; report language is not law but simply 
an expression of Congressional interest. I will be sure that all of my 
modal administrators understand this as well.
    Question 3. On Monday, the Department of Transportation Inspector 
General released a report on the top 10 issues facing the Department. I 
urge you to pay close attention to these priorities identified by the 
inspector General. The Committee would also appreciate your keeping us 
advised of your progress on these items.
    Answer. I take the management challenges identified by the DOT 
Inspector General very seriously and will make continued progress on 
them one of my top priorities. As has been past practice, I will 
continue to report the Department's progress on these challenges, as 
well as those identified by the General Accounting Office, in the 
Department's annual Performance Report required by the Government 
Performance and Results Act.
    Question 4. What can the Department do to help our Nation continue 
to be a world leader in developing transportation technology, including 
intelligent transportation systems and improved safety technology?
    Answer. I support a Department role in providing leadership 
required for the transportation industry to become ``smart.'' The 
technologies available today can help surface, air, and water systems 
squeeze greater efficiency, productivity, and, most importantly, 
greater safety out of existing and any future systems.
    We have several approaches available: (1) strategic investments in 
research, in partnership with universities and the private sector; (2) 
technology application demonstrations in partnership with the public 
and private sectors; (3) standards setting; (4) technical assistance to 
help agencies through the initial learning curves of adopting new 
technology; (5) training; (6) financial or other incentives for 
adopting technology; and (7) regulation, when market forces are 
ineffective and the benefit to the public is overwhelming. Each 
approach is best exercised in partnership with both the producers of 
technology and the ultimate users of the technology. All of them 
require partnership with Congress in authorizing the funds and the 
discretion necessary to exert the leverage.
    ITS infrastructure is a case in point. Over the last decade 
Congress has provided substantial resources, focused on a single set of 
technologies. That authorization has allowed the Department, in 
partnership with the industry, to carry ITS from a research concept to 
the initial stages of national deployment, using virtually all the 
approaches outlined. Having proven the safety and efficiency benefits 
of these technologies in a number of State and local governments across 
the country, I believe the next step will be a dialog with Congress on 
establishing an institutional and programmatic structure that will 
ensure that basic elements of ITS technologies, where appropriate, are 
as much a part of the functional specifications of our road and transit 
systems as proper pavement depth and shoulder width are today.

                                AVIATION

    Question 5. Many of the predictions made in 1997 by the National 
Civil Aviation Review Commission (NCARC) are coming true, particularly 
those regarding gridlock in the aviation system. In addition, many of 
the key Commission recommendations have been implemented, in whole or 
in part, through law or executive order. Notably, the FAA will have 
relatively stable funding for the next few years.
    Given all the tools and resources that have been provided to the 
FAA in recent years, including personnel and procurement reforms, what 
will you do, if confirmed, to keep the pressure on the FAA to improve 
its overall performance?
    Answer. The mission of the FAA is to ensure safe, secure, and 
efficient air transportation. Our first objective must be to preserve 
and improve the strong aviation safety record. We must also increase 
the capacity of the aviation system infrastructure. Because we have an 
ATC system that is not always adequate to demand, and because we must 
operate that system in a way that puts safety first, we have penalized 
passengers and the industry with increases in delays. The economic 
impact of these delays will begin to be felt throughout our Nation if 
infrastructure and technological improvements are not implemented.
    I will work with the FAA to ensure that appropriated Federal 
resources are effectively used to improve and expand airway and airport 
capacity.
    The FAA is incorporating authorities provided by AIR-21 and prior 
legislation to establish a performance based air traffic services 
organization. AIR-21 established the position of Chief Operating 
Officer (COO) for Air Traffic Services. The COO will sign an annual 
performance agreement with the FAA Administrator which will provide a 
mechanism to more readily encourage and evaluate effective performance 
of air traffic services. In addition, the Management Advisory Council 
will assist in assessing the FAA's performance. As Secretary, I will 
support these reform mechanisms to the maximum extent possible.

               AIR TRAFFIC CONTROL DELAYS AND CONGESTION

    Question 6. The Department of Transportation Inspector General 
released a report on Monday that, among other things, addresses the 
high number of air travel delays. Ideas that have been considered to 
ease congestion include lotteries of takeoff and landing rights, peak-
hour pricing, and technological changes. I am concerned that the first 
two of these options focus on constraining existing capacity to reduce 
delays, rather than expanding capacity.
    What are your specific recommendations for the short term to reduce 
delays, principally in bad weather?
    Answer. As I indicated in my testimony, options for short-term 
remedies are limited. Nevertheless, we should actively pursue those 
options that we have, while also working on longer-term improvements. 
During the Spring/Summer 2000 initiative, the FAA undertook several 
operational tests to search for ways of expanding the accessibility of 
the National Airspace System in the effort to reduce delays during 
weather events. The tests, which saw limited success, will be expanded 
or deployed this year.
    The Tactical Altitude Assignment Program (TARP) addresses 
congestion in the enroute, high altitude environment, and allows Air 
Traffic Control (ATC) the flexibility to address constraints on a real-
time basis. When weather impacts the enroute environment, air traffic 
is often displaced onto already congested routes. TAAP offers, to the 
aviation community and ATC, a way to avoid delays by assigning aircraft 
lower altitudes between city pairs. Reduction of enroute, high altitude 
traffic, especially during weather events, is key in helping reduce 
departure delays.
    Low Altitude Arrival and Departure Routes (LAADR) deal with the 
arrival and departure portion of the route of flight. Unlike TARP, 
which deals with the entire route of flight between city pairs, LAADR 
addresses issues of constraint near departure or arrival points. By 
developing these low altitude escape routes, aircraft that would be 
competing for higher altitudes are freed to avoid delays.
    Waypoint tests were implemented off the East Coast of the United 
States to help address airspace constriction as weather systems 
encroached upon the eastern seaboard. The waypoints were designed to 
utilize airspace through military areas. The tests, which were 
successful, should enhance options during weather events.
    The Bruin test, currently in operation, looks to expand route 
availability through Canadian airspace. During the testing phase, the 
FAA and Canadians will look at the impact on the airspace caused by 
additional aircraft. The benefits, if testing results are positive, 
should allow aircraft departing and arriving the New York Metro and 
Boston airports additional routing options. Toronto Center has 
established additional operational positions to help address the impact 
of increased traffic.
    The implementation of these procedures and others should enhance 
the ability of the FAA to address constraints caused during the severe 
weather season.
    I understand the FAA's recent lottery for service to small 
communities and by new entrants at LaGuardia Airport was intended to 
reduce the extreme delays and congestion there that had a national 
effect. The lottery was an interim measure, and we are examining 
various administrative and marketbased options to reduce delays at 
LaGuardia and at other airports, where needed.
    How will you motivate the controller workforce to develop and adopt 
new procedures that will allow for new technologies that enable more 
frequent landings in bad weather?
    Answer. Collaboration with bargaining unit representatives is the 
most effective way to ensure that the workforce is involved with new 
procedures from the development phase to implementation.

                       MERGERS AND CONSOLIDATION

    Question 7a. When United and US Airways announced their merger, I 
and many others said it could lead to further consolidation in the 
airline industry. We seem to have been proven right. As you know, 
American Airlines is attempting to purchase TWA and a part of US 
Airways. If the Justice Department approves these transactions, the 
structure of the domestic airline industry would be fundamentally 
altered.
    My view is that the Department of Transportation's main role in the 
merger approval process is to ensure the competitive nature of the 
resulting aviation marketplace. I would like your response and reaction 
to a few specific ideas that have been floated to accomplish this 
objective.
    Would you be willing to appoint a senior DOT official, whose sole 
mission is to ensure that all carriers have access on comparable market 
terms to gates and facilities at all airports, since airports are 
publicly funded facilities?
    Answer. Airport access has been a priority for the Department of 
Transportation. In late 1999 the Department released a joint FAA/OST 
task force study ``Airport Business Practices and Their Impact on 
Airline Competition''. One of the recommendations of that report, that 
the Secretary should designate the Assistant Secretary for Aviation and 
International Affairs as the Department's ``competition advocate'' for 
promoting competitive access to airports, was adopted by Secretary 
Slater. I will continue that designation. As I stated in my testimony 
at my confirmation hearings, one of my highest priorities is to do all 
I can to promote the expansion of the transportation infrastructure 
which is fully able to meet the demands, of our growing economy and 
which can contribute to that growth by providing greater efficiency in 
the movement of people and goods. I intend to put us well on the path 
to accomplishing that.
    Question 7b. In international route proceedings, would you be 
willing to consider the applicant carrier's record on domestic 
predatory behavior as part of the public interest test that is part of 
the route proceeding?
    Answer. I am committed to domestic airline competition. However, as 
a general matter, I believe that domestic competition issues should be 
dealt with on their own merits and not linked to international route 
proceedings.
    Question 7c. Would you consider a very limited slot lottery at 
Reagan National to reallocate no more than 5 percent of the merging 
carriers' slots at Reagan National, a slot lottery that would ensure 
that small community service is preserved under the reallocation?
    Answer. The High Density Rule authorizes air carriers to buy, sell, 
lease or trade slots, subject to FAA approval. In adopting the ``buy-
sell rule'' in 1986, the Department determined that market forces would 
lead to the most efficient allocation of slots. Additionally, certain 
slots were designated as commuter slots for use by commuter aircraft 
only, in part, to ensure the preservation of small community service. 
Also, the FAA notes that approximately 30 air carrier slots are being 
used with commuter aircraft, many of which provide service to small 
communities.
    Under the High Density Rule (HDR), the FAA retains the right to 
withdraw slots to ``fulfill the Department's operational needs, such as 
providing slots for international or essential service operations or 
eliminating slots.'' The HDR sets forth the process that applies in 
withdrawing slots for operational need. All slots are assigned, by 
random lottery with a withdrawal priority number for recall purposes at 
each airport. This process does not provide for slots to be withdrawn 
for operational reasons from a specific carrier. Finally, the HDR 
dictates that the FAA shall withdraw slots from a carrier for failure 
to meet the minimum slot usage requirement.
    Question 8. United's service in the Northeast and on the East Coast 
is minimal, and United would like to increase its service in this part 
of the country. Are we at a stage in the airline industry where it is 
necessary for an airline to merge with a competitor rather than invest 
the resources needed to establish a presence in a new region of the 
country?
    Answer. I do not believe that is the case, although the 
infrastructure problem does limit the ability of carriers to expand at 
certain airports. United, for example, has a major expansion underway 
at Washington Dulles Airport that will enable it to establish a 
presence in many cities in this part of the country.
    Question 9. If we indeed see further consolidation among the larger 
carriers, do you think this trend could lead toward acquisition of new 
entrant and low-cost carriers, as well?
    Answer. That could happen. American Airlines recently acquired Reno 
Air, a low-fare new-entrant airline that had successfully developed a 
significant presence in the West. One of the reasons behind American's 
acquisition of that carrier was to grow quickly in California, where 
its presence lagged far behind that of Southwest and United.
    Question 10a. What is your position on changing the limitation on 
foreign investment in U.S. airlines, from 25 percent to possibly 49 
percent?
    Answer. This is a very fundamental issue for our foreign, defense, 
and transportation policy. I am familiar with the divergence of views 
in this area. Globalization of the airline industry and the growing 
number of carrier alliances has begun to strain the decades-old 
limitations on foreign investment in U.S. airlines. Nevertheless, there 
are competing factors, such as our defense posture and the availability 
of reciprocal opportunities, that must be considered in any change in 
the current limit on foreign ownership of more than 25 percent of a 
U.S. air carrier.
    Question 10b. Do you think that changing the limit on foreign 
ownership could benefit financially strapped U.S. carriers through 
increased foreign capital, which in turn could increase competition?
    Answer. Changing foreign ownership limits would certainly result in 
new sources of capital for U.S. airlines, not only strengthening their 
domestic competitiveness, but contributing to a more open international 
aviation regime on a global basis. This potential benefit would have to 
be balanced against countervailing considerations, such as those noted 
above.

                          AIRLINE COMPETITION

    Question 11a. In its recent report on competition, the Department 
of Transportation stated that consumers and communities significantly 
benefit from low-fare competition. The report then states that there 
are few low-fare competitors in the market and many markets have little 
competition.
    Do you agree with those conclusions?
    Answer. I have not yet had the opportunity to read the Department's 
report carefully, but I am aware that there is fairly widespread 
agreement that fares in some markets, particularly some of those that 
involve network hub cities, are, often relatively high. This does 
concern me, and I intend to examine this issue. I do, however, think 
that it is important to keep this in perspective. There is also 
widespread agreement that airline deregulation has proven to be a 
remarkable success and that the development of hub-and-spoke network 
systems of service has been an important factor in that success. While 
I want to do everything I can to bring the benefits of deregulation to 
as many consumers as possible, we must take great care that our efforts 
to do this do not interfere with the benefits that deregulation has 
brought to the vast majority of travelers.
    Question 11b. What are some actions that the Department might take 
under your guidance to inject competition into the marketplace? Would 
you be prepared to report back to this committee on your plans?
    Answer. We have an affirmative responsibility to make sure that 
competition continues to be sufficient to protect the interests of 
consumers. Very broadly, we must do two things to enhance competition. 
The first is to make sure that we have a transportation infrastructure 
adequate to meet demand. Nothing so surely restricts competition as 
inadequate infrastructure capacity. The second is to increase our 
ability to analyze the complex airline industry in order to use our 
authorities for the benefit of consumers. This dynamic industry is 
constantly undergoing change and we must be better able to detect 
important issues as they evolve, and, where possible, develop remedies 
that will, in the real world, benefit consumers. We need to be able to 
identify ineffective competition, to understand why it is ineffective, 
and to determine whether the government can take effective measures to 
effect change that is for the good. We must be careful not to dabble 
where we are not sure our actions are benefiting consumers.
    Question 12. Under the last administration, the Department did not 
act or was slow to act on complaints alleging anti-competitive 
behavior. Under your leadership, will the Department be more aggressive 
in responding to these complaints?
    Answer. I intend to be very active in fulfilling our responsibility 
to assure that airline markets are at least as competitive as they need 
to be to protect the interests of consumers.
    Question 13. In its recent report on competition, the Department of 
Transportation discussed taking aggressive action to open up airport 
facilities to make possible new and increased airline services and 
thereby promote competition.
    What actions to open airport facilities do you believe the 
Department could take in order to promote competition?
    Answer. In my nomination testimony before your Committee, I 
outlined five broad areas to focus on in order to increase system 
capacity and competitiveness. First, we have to recognize that 
airlines, airports, and air traffic control are all struggling to keep 
up with demand, all are having problems, and all have significant work 
to do to catch up. Each must get serious about addressing its own part 
of the problem. For our part, the Federal Government has sole 
responsibility for air traffic control, and we must make it the highest 
priority in order to find better ways to meet this challenge. Second, 
we must take whatever steps we need to, no matter how large or small, 
even if the payoff is not immediate. Delay and/or inaction are not 
responsible options. Third, we must take advantage of an extraordinary 
leap in technology that has come about during the past decade. Computer 
power that was unimaginable a decade ago not only exists today, it is 
cheap and common. This new technology has been used to solve complex 
problems throughout our economy and must now be used to modernize air 
traffic control. Fourth, we have to recognize that the pace of growth 
in demand and the pace of change in technology require a degree of 
nimbleness that the traditional Federal agency, for all its strengths, 
simply cannot keep up with. We have adopted the concept that we will 
keep the modernization and operation of the ATC system in the FAA, but 
we will give the FAA many of the attributes of a private entity. Fifth, 
I have emphasized the management changes needed to make ATC 
modernization work, but we should also understand that it will take 
both improved management and adequate resources.
    The AIR-21 legislation also provided a new tool to use in opening 
airport facilities to competition by new entrants. Airports of a 
significant size that are dominated by one or two air carriers are 
required to demonstrate to the Department, through a competition plan, 
how they are making facilities available to requesting airlines. Only 
after a thorough review of these plans may the FAA release grant funds 
or approve applications for passenger facility fees at these airports. 
We will review the implementation of these plans and encourage the 
airports to maximize opportunities for access.
    Question 14a. Can Reagan National Airport safely accommodate more 
flights per day than are allowed by the current slot restrictions?
    Answer. The air carrier and commuter hourly slot quotas in the 
high-density rule were established in the 1980s (when the FAA was also 
the airport operator), and the number of slots is not based entirely on 
airport capacity. Included in the determination of the hourly quotas 
were other policies such as airport development plans and environmental 
concerns of the local community.
    Question 14b. In other words, are the slot restrictions at Reagan 
National needed as a safety measure?
    Answer. Slot restrictions at Reagan National are not needed as a 
safety measure. Safety would not be affected by changes to the number 
of authorized slots. The FAA will continue to separate aircraft and 
apply air traffic control procedures to ensure safety is maintained 
regardless of the number of flights that are scheduled.
    Question 15. In your view, is the perimeter rule at Reagan National 
Airport an anti-competitive barrier to competition?
    Answer. I view the perimeter rule at Reagan National Airport as 
being distinct from other limits on competition, because it was imposed 
statutorily in 1986 as part of the legislation transferring control of 
National and Dulles Airports from FAA to regional control. As a 
principal author of that legislation, I know that many balancing 
factors went into the various limits imposed on the airport, in view of 
community concerns and concerns expressed by surrounding jurisdictions. 
Overall, I would not view that particular statutory limit as a barrier 
to competition in the same sense that it might appear to be elsewhere.
    Question 16. Some airlines have disputed findings by the Department 
of Transportation and the General Accounting Office that carriers 
charge so-called ``hub premiums.'' Do you believe that airlines that 
operate fortress hubs charge relatively higher fares to customers who 
travel to and from those hubs?
    Answer. I believe that the evidence that some fares are relatively 
high in many hub markets is convincing. But I also believe that in 
dealing with that issue we must be aware that the development of hub-
and-spoke networks has resulted in enormous benefits for most 
passengers and communities. In our efforts to deal with negative 
attributes of the deregulated environment, we must be careful that our 
actions do not harm competition in other areas.
    Question 17. Is DOT adequately equipped to review airline 
competition issues and, if not, what additional resources do you 
believe are required?
    Answer. As I indicated in my testimony before your Committee, the 
analytical resources of the office that perform this function have been 
greatly reduced, and we have to reverse that trend if we are to be 
effective in looking out for competition and consumers. I have made 
this a personal priority and will complete my assessment of our 
resource needs in this area at an early date.

                   AIR TRAFFIC CONTROL MODERNIZATION

    Question 18. It is no secret that the FAA has struggled with 
modernizing the National Airspace System. There's been an alarming 
history of cost increases and schedule slips and major shortfalls in 
performance.
    Given that the FAA sold the modernization program on the promise 
that it would help to expand capacity to meet growing demands for air 
service, when can we expect to see improved air traffic control 
operation--that is, fewer delays, as a result of modernized equipment?
    Answer. The FAA's modernization program has shown substantial 
results. The FAA has completely replaced all of the outdated equipment 
in the enroute centers. The Voice Switching Communication System 
(VSCS), Peripheral Adaptation Module Replacement Item (PAMRI), Host 
Computer Replacement, and Display System Replacement (DSR) have 
successfully replaced their earlier generation counterparts, which 
enhances overall National Airspace System performance. The tangible and 
immediate result is that these centers now have fewer outages and 
equipment related problems. This has had a direct impact on the number 
of delays.
    Additionally, several innovative programs in our Free Flight 
Initiative are yielding substantial results in reducing delays. 
Collaborative Decision Making (CDM), Center TRACON Automation System 
(CTAS), and Traffic Management Advisor (TMA) applications have produced 
measurable benefits. CDM has improved operational communication flow 
between the FAA and the user community. CTAS, which is in initial 
deployment, has shown marked improvement for Dallas-Ft. Worth, with 
projected throughput increases above 10 percent. TMA provides traffic 
management units with improved flight status, enhancing system 
utilization.
    While the cause of delays can be traced to several issues, as the 
FAA continues to modernize its systems and capabilities, the delays 
that were caused by aging equipment are starting to decrease. 
Nevertheless, we continue to have these gains from modernization offset 
by continued strong growth in demand. Keeping up with that demand will 
continue to be a major challenge.
    Question 19. In spite of the special acquisition authority Congress 
provided to the FAA in 1996, the agency has not achieved its goals of 
executing more timely and cost effective across-the-board acquisitions.
    What steps would you envision to expedite the achievement of the 
goals of the legislation and the promises made to Congress by the 
agency in pursuit of the enabling legislation?
    Answer. Since the beginning of procurement reform and the 
implementation of the FAA's Acquisition Management System (``AMS'') 
some 4 years ago, the FAA has achieved improvements in the time it 
takes to complete an acquisition and at the same time has reduced the 
costs of these acquisitions. Also, in the 4 years since implementation, 
the number of competitively awarded contracts has increased, exerting 
downward pressure on systems acquisition costs.
    The FAA has reduced the time it takes to award contracts by 55 
percent-from the time of the contracting officer's first action, to the 
contract award. This number was determined based on an FAA program 
evaluation conducted in 1999. It was subsequently confirmed in a GAO 
Audit. As a result, there has been a more rapid and efficient fielding 
of new systems necessary to modernize the National Airspace System.
    This program has been carefully and continually monitored through 
several different audits, including audits conducted by the GAO and an 
outside auditing firm that reported directly to Congress. Each of these 
reports found that acquisition reform at the FAA, and AMS in 
particular, had met its goal, reducing the cost and time required for 
acquisitions.
    Question 20. The FAA is currently evaluating numerous issues 
surrounding satellite-based aeronautical navigation (i.e., the Global 
Positioning System and the Wide Area Augmentation System).
    If the FAA cannot take advantage of the cost savings associated 
with decommissioning ground-based navigational aids, will the agency 
have the funds necessary to take care of its other important 
responsibilities?
    Answer. Yes. The FAA expects to have the funds necessary for 
essential operations. The costs of developing WAAS will not crowd out 
other investments or operating costs. The rate and extent to which 
current groundbased navigation aids will be decommissioned are also 
dependent on user equipage and acceptance.
    Question 21. The FAA is investing millions of dollars annually in 
efforts to harness satellite navigation for commercial aviation. In the 
past year, the $2.9 billion Wide Area Augmentation System (WAAS) 
suffered significant technical problems and its future remains 
uncertain.
    Is it time to abandon the Wide Area Augmentation System and move 
forward with other satellite-based systems?
    If not, what needs to be done to get the effort back on track?
    Answer. In December 2000, the WAAS Integrity/Performance Panel 
(WIPP), a consortium of approximately 20 leading satellite navigation 
and GPS technical experts, completed its feasibility assessment for 
achieving Category I precision approach. This panel confirmed that WAAS 
can achieve its original precision approach requirements, provided 
planned enhancements are implemented.
    In June 2000, the FAA also established an Independent Review Board 
(IRB), with the institute for Defense Analyses acting as the ``agent'' 
to provide the FAA Administrator with an independent assessment of the 
WIPP's technical findings. Preliminary results from the IRB indicate a 
recommendation for the FAA to continue developing WAAS and the WIPP 
activities. The FAA Administrator and I will review the IRB's 
recommendations.

                        FAA STRUCTURE AND REFORM

    Question 22. The FAA has efforts underway to reform its 
organizational culture, to establish a culture with shared values, 
goals, and to provide incentives that encourage employees to act in 
ways that are more conducive to achieving the agency's mission and 
goals. Even though major change efforts of this kind generally take 
three to 5 years, it is questionable whether the FAA has made much 
progress to date.
    What additional steps must the agency take to change its 
organizational culture?
    Answer. FAA has made significant improvements under personnel 
reform through streamlining of its human resource programs, increased 
managerial flexibility, and improved focus throughout the agency on 
corporate goals and objectives. However, reforms to FAA's personnel 
system will take additional time to yield their full benefit potential. 
In the interim, there are additional steps that the agency can make, 
and is making, to further enhance its organizational culture.
    Agency management is presently digesting the results of the FAA 
2000 Employee Attitude Survey (EAS), which was distributed to all full-
time, permanent FAA employees (48,740) in September 2000 (of those, 
24,466 usable surveys were returned). Shortly, FAA-wide initiatives and 
action planning will begin.
    In a related development, the FAA Administrator recently announced 
the launching of a ``cultural assessment,'' starting in the FAA's 
Southern Region. While EAS survey data are very valuable, they reveal 
only how employees feel about particular issues rather than the 
underlying reasons. A cultural assessment is designed to peel back the 
onion some more to tell management why people feel the way they do, why 
certain things work, and why others don't. Many organizations in the 
public and private sectors are doing these assessments. Getting to the 
``why'' of a situation will allow FAA management to do a better job 
enhancing overall employee job satisfaction, which in turn encourages 
employees to act in ways that are more conducive to achieving the 
agency's mission and goals.
    Question 23. Many countries across the globe, including Canada and 
Australia, have embraced privatization to control costs and speed air 
traffic control modernization.
    What are your thoughts on this trend?
    Would the privatization of oceanic air traffic control be a good 
first step?
    Answer. The international trend toward privatization has been 
limited and gradual. For those countries that have moved away from 
government owned and operated air traffic services (ATS), the 
transition has been in stages rather than direct jumps to private 
participation or privatization.
    Privatization is not the only means for improving the efficiency of 
the country's air traffic control system. For example, as suggested by 
the National Civil Aviation Review Commission, which I chaired in 1997, 
the establishment of a performance-based organization (PBO) can 
effectively and efficiently encourage air traffic control 
modernization. I was pleased to see that a PBO for air traffic services 
was recently established. This, plus the recent establishment of an Air 
Traffic Services Subcommittee of the Management Advisory Committee, 
should enhance the ability of the FAA to control costs and speed air 
traffic control modernization. I would like to see how the air traffic 
services performance-based organization addresses modernization of 
oceanic air traffic control before giving consideration to 
``privatization'' of that activity.
    Question 24. In the last several years, there have been many 
proposals for the FAA to operate more like a business. Some have called 
for privatization, others including the Commission you chaired, for a 
performance-based organization.
    What are the elements of a performance-based organization and how 
would we judge its success?
    What do we need to do first?
    Answer. In its most basic sense, the elements of a performance-
based organization (PBO) are a discrete unit, providing a service, with 
measurable results. A PBO for FAA Air Traffic Services is certainly a 
discrete unit that provides a service with measurable results.
    We will judge the Air Traffic Organization (ATO) now being 
established by the FAA on its ability to improve safety, security and 
efficiency of air traffic operations. Performance measures and cost 
accounting should be used to evaluate the organization's success.
    The first order of business is to select a COO and finalize a 
performance agreement. I anticipate this being accomplished within the 
next few months. We will work with the ATS Subcommittee of the 
Management Advisory Council to finalize this action.

                               USER FEES

    Question 25. There have been proposals to transition to user fees 
for financing the U.S. air transportation system. Some countries have 
taken this approach and rely on a combination of distance flown and 
aircraft weight to establish user fees. User fees would be very 
controversial in the United States, but it might be the right thing to 
do in the long term.
    Should the U.S. begin to transition to user fees?
    If so, how quickly could this be done?
    Answer. The question of possibly moving to more broadly based 
aviation user fees is one of the more important aviation issues I 
expect to address in the months ahead. By statute, the FAA may 
establish user fees only where specifically authorized by the Congress. 
In the area of air traffic control (ATC), where more than two-thirds of 
FAA spending occurs, the only user fees currently authorized by 
Congress are for ``overflights,'' which are flights that use FAA air 
traffic control services but neither take off from, nor land in, the 
United States. These fees have been in place only since August 1, 2000. 
They were derived from actual cost information provided by FAA's new 
Cost Accounting System, and are expected to generate revenues of about 
$40 million annually, which is only about one-half of 1 percent of 
total FAA spending for ATC. I strongly support the FAA's efforts to 
develop the cost accounting system, which is not only an additional 
management tool but can also be used in supporting user fees.
    As the FAA Cost Accounting System is developed and implemented 
throughout the agency, it can potentially be used to derive other user 
fees. One of the key features of a user fee is that it allows users to 
pay for only those services they actually receive. By better matching 
the cost of service with system use, as cost accounting allows, the FAA 
should be able to more efficiently provide ATC services to those who 
request it. I also recognize that any user fee system must also be 
flexible enough to ensure equity among users and encourage air traffic 
modernization, thereby improving aviation safety. Additionally, any 
user fees would have to be consistent with our international 
obligations.
    We are now moving to establish an Air Traffic Organization as a 
Performance Based Organization under Executive Order 13180 of December 
7, 2000, and are beginning to operate under a new and recently 
appointed Oversight Committee.
    Question 26. The FAA's budget has risen from $8.2 billion in 1995 
to more than $12.5 billion in fiscal year 2001, largely due to the 
airport improvement program and sharply rising costs of the FAA's 
operations account. The operations account, which is salary driven, 
represented nearly 60 percent of the FAA's fiscal year 2000 budget.
    What measures are needed to control the FAA's operating costs and 
what role will the Department play in that?
    Answer. Choices will have to continue to be made between funds 
needed for ongoing operations and those needed to make investments. It 
is likely that the primary functions funded in the Operations account, 
namely air traffic control, safety inspection, and security, will 
continue to be manpower intensive activities that will require staffing 
to keep up the growth and increased complexity of the aviation 
industry. From fiscal year 1995 through fiscal year 2000, the safety-
related part of FAA's Operations-funded workforce increased by 
approximately 1,000 while the remainder of the Operations workforce 
declined by almost 400.
    FAA has clearly been increasing its ``front line'' workforce and 
reducing its administrative workforce. The safety workforce is highly 
trained and, therefore, more costly than a typical government 
workforce. I will encourage this trend of focusing on the ``front line 
employees.'' I am also strongly supporting FAA's development of a cost 
accounting system. FAA has recently begun producing monthly cost 
accounting information for portions of air traffic service costs. This 
information is now being released to the air traffic managers. We 
expect to see what typically happens when cost data is published and 
shared corporately--a level of awareness and competition between 
regions or centers or towers based on the cost to provide air traffic 
services. This internal discussion and competition will help us better 
understand FAA's business and identify best practices. According to 
experts from the private sector, this does not occur overnight, but I 
expect to see benefits soon.
    With a stronger focus on front line employees and a cost accounting 
system, I expect to continue to place pressure on FAA to control its 
operation costs. I want to make sure that the resources we receive are 
spent in ways that are most beneficial to the users of the system and 
the flying public.
    Question 27a. In 1998, the FAA and the National Air Traffic 
Controllers Association (NATCA) agreed to a new collective bargaining 
agreement, which significantly increased controllers' salaries. In 
addition, the agreement, which the FAA negotiated under authority 
granted by personnel reform, called for productivity enhancements that 
would offset the cost of higher salaries. It is uncertain, however, if 
the FAA will realize any of these offsetting productivity enhancements.
    Do you believe the FAA will realize the savings associated with 
greater productivity, and what evidence do you have of that?
    Answer. FAA continues to work with the National Air Traffic 
Controllers Association to evaluate the agreement and expects to 
realize partial cost offsets over the life of the contract through 
initiatives such as the increased use of controllers-in-charge (CIC) 
and the corresponding reduction in supervisors.
    The expanded controller-in-charge effort is intended to provide 
watch supervision for the continuous operation of a facility or area 
where a supervisor is not available. Assignments of employees to CIC 
duties are necessary to supplement the supervisory staff. This 
initiative was implemented January 1, 2001, for all airport traffic 
control towers and en route facilities.
    Concurrent with the implementation of revised CIC duties, the 
terminal and en route facilities have begun to move toward a 10:1 
employee-to-supervisor ratio. The reduction of supervisory positions 
will be accomplished through attrition.
    In transitioning to the expanded CIC role while moving toward the 
10:1 employee-to-supervisor ratio, it is of the utmost importance that 
the Air Traffic organization maintain its current high standards for 
safe and effective watch supervision. Therefore, the terminal and en 
route facility managers are carefully monitoring this transition 
throughout its evolution and will provide quality assurance direction 
as needed.
    Question 27b. What effect do you feel the NATCA agreement will have 
on future collective bargaining agreements within the agency?
    Answer. The NATCA agreement for air traffic controllers has been 
cited by unions in other labor negotiations as a proposed baseline for 
all FAA employees. The FAA has not accepted this premise. FAA will 
negotiate each individual contract based on the workforce and their 
needs.

                         AIRPORT INFRASTRUCTURE

    Question 28. According to the Department of Transportation 
Inspector General, in the last 5 years, only three new runways were put 
into service at our 28 largest airports. Unfortunately, some of the 
very passengers that are complaining about delays exhibit a ``not in my 
backyard'' mentality and do everything possible to prevent new or 
expanded airports to be built.
    As Secretary of Transportation, what would you do to expand airport 
capacity to help reduce delays and congestion, and how will you deal 
with the local politicians and interest groups that are opposed to this 
needed expansion?
    Answer. I will expect to use the full array of measures to increase 
capacity. This means using technological and procedural measures that 
are directly under Federal responsibility and control, as well as 
raising the visibility of the need for new runways and assuring that 
the Department of Transportation takes appropriate steps to assist 
local governments in planning and building runways.
    Airport development is ultimately a local responsibility. The 
Federal Government should--
    <bullet> Identify national system needs;
    <bullet> Provide financial assistance for excellent short and long 
range airport planning;
    <bullet> Perform effective and efficient Federal reviews, including 
safety, airspace, environmental reviews;
    <bullet> Provide financial assistance for runway construction; and
    <bullet> Provide timely air navigation procedures and equipment to 
make new runways operational.
    I think it is important for DOT/FAA to take steps to raise the 
visibility of identified system needs to stimulate local governments to 
address airport capacity shortfalls and for DOT/FAA to assure that 
responsibilities and reviews within its purview do not provide a drag 
on the process of achieving solutions.
    There will continue to be legitimate differences of opinion on 
airport expansion and the legitimate expression of other interests that 
do not favor expansion. There are processes in place to evaluate 
environmental impacts, to address community concerns, and to consider 
options. These are valid and important processes that should not be 
bypassed. We are examining the extent to which we may be 
nonproductively extending the timeline on such processes.
    Question 29. Some have suggested that certain airports are critical 
to the national transportation system and the nation's economy and that 
the Federal Government should be prepared to step in when reasonable 
efforts to reach agreements regarding airport expansion with 
surrounding communities have failed.
    Would you be in favor of establishing a system of ``critical 
airports?''
    Could you foresee the Federal Government stepping in to move a 
project forward that would improve the capacity of the overall airport 
system?
    Answer. I would be in favor of identifying critical airports that 
should receive the highest priority attention for DOT/FAA support and 
services that are necessary to plan, evaluate, construct, and operate 
new runways. FAA already keeps a list of airports generating the 
greatest number of hours of aircraft delay. If we can ``step in'' and 
make a difference within the clear areas of Federal responsibility, we 
should. However, we should not attempt to substitute the Federal role 
for the local role. I would not favor ``Federalizing'' airports or 
airport projects.
    Question 30. Hub airports cannot be expanded infinitely, even under 
the best of circumstances. At some point, doesn't there have to be a 
natural shift of service to so-called secondary airports, many of which 
may now be underutilized?
    Answer. There has to be a market advantage for an air carrier to 
shift to another airport from an existing base. Yet, while there are 
strong economic advantages of centralization at a hub (including 
maximizing connecting opportunities for passengers and making viable 
air service to smaller communities), despite congestion, airlines have 
been developing service at airports located near the major hub 
airports.
    Question 31. Airport development is key to expanding capacity. The 
construction of new runways and maintenance of existing runways are 
options for improving the capacity at existing airports. However, 
airports face a challenge in building new runways. They must address 
the potential environmental impact of aircraft noise and air pollutant 
emissions that the new runway is likely to generate. Shortcomings in 
the environmental process--including overlapping Federal and State 
requirements and duplicative requirements under Federal law-add to the 
challenge and can result in delays without necessarily providing 
commensurate environmental benefits.
    How does the Federal Government strike a balance between the need 
to protect the environment and the need to expand the capacity of the 
national airport system?
    Answer. We need to keep environmental protections in place, but 
streamline the way we go about them. This is the current subject of 
intensive FAA review and discussion with the industry and with other 
agencies that have environmental responsibilities. DOT/FAA will submit 
an environmental streamlining report to Congress in April 2001, in 
addition to undertaking administrative initiatives to make the 
environmental process more timely and less burdensome. As your question 
notes, communities are often concerned about the noise and air quality 
impacts of expanding airports, which can be addressed through the 
environmental process and noise abatement planning activities.
                   international aviation agreements
    Question 32. What is your position with regard to the U.S./U.K. 
bilateral, and what will you do to ensure that the United States is not 
put at a disadvantage with respect to slots at Heathrow?
    Answer. Replacing the restrictive U.S.-U.K. aviation agreement with 
an ``Open-Skies'' agreement is a U.S. aviation priority. No 
negotiations are currently scheduled because of U.K. unwillingness to 
move forward until British Airways has finalized its commercial 
strategy. We will look for opportunities to make progress with the 
U.K., but will also concentrate our efforts on partners that are ready 
for liberalization.
    I recognize the importance to U.S. carriers of access to Heathrow. 
I also recognize that Heathrow is a highly congested airport and that 
it is critical for the slot allocation system to continue to be 
transparent and nondiscriminatory. In an open skies environment, the 
ability of U.S. carriers to establish a competitively effective 
presence at Heathrow will be a key consideration if British Airways 
seeks antitrust immunity.
    Question 33. What are your views on cabotage, and do you believe 
U.S. air carriers would be at an advantage or disadvantage if the 
Congress changed the cabotage laws?
    Answer. This is an important issue for both our domestic and 
foreign aviation policy, as well as for the transportation parties 
concerned. I am familiar with the divergence of views in this area. 
Globalization of the airline industry, the growing number of carrier 
alliances, and consolidation concerns, for different reasons, have all 
spurred calls to reevaluate constraints that limit the markets that 
airlines can enter. However, there are also important competing 
factors, such as our defense posture, that argue against any change in 
the cabotage prohibition.
    I believe that U.S. airlines have shown both domestically and 
internationally that they are effective, adaptable competitors. The 
specifics of any ``advantage or disadvantage'' would depend on how 
Congress changed the cabotage laws and the international response to 
the change.
    Question 34. If confirmed as Secretary of Transportation, would you 
encourage the Congress to amend the Fly America Act, or do you support 
the current law?
    Answer. Code sharing and the growing number of alliances between 
U.S. and foreign airlines have lessened the economic importance of this 
issue. However, ``Fly America'' requirements continue to be a sensitive 
issue in some of our international aviation negotiations, as well as 
for the transportation parties concerned and the Department of Defense.
    There is some scope under the Fly America Act for the United States 
to offer access to Fly America traffic to our international aviation 
partners in exchange for benefits for U.S. aviation interests. However, 
there have also been competing considerations, such as our defense 
posture, that have caused us to limit our use of the current 
negotiating flexibility. There continue to be divergent views on this 
issue that I want to consider further.

                     ADDITIONAL AVIATION QUESTIONS

    Question 35a. As you know, under U.S. law, an ``air carrier'' must 
be owned and controlled by U.S. citizens, but certain other 
aviationrelated businesses, such as ``air freight forwarders,'' may be 
owned and controlled by non-U.S. citizens. Some in the aviation 
industry are concerned that foreign governmental entities, which may be 
able to subsidize improperly the operations of their subsidiaries, are 
obtaining authority to operate companies in the U.S. that compete with 
private enterprises. The main fear is that such foreign-owned companies 
will have an unfair advantage over U.S. competitors.
    Apart from air carrier-related matters, does the Department of 
Transportation review the ownership status of a company seeking a 
license that will allow it to compete with private businesses?
    Answer. Yes. For example, the Department requires that applicants 
for foreign air freight forwarder licenses specify the ownership of the 
company.
    Question 35b. If a company seeking a license from DOT is owned or 
controlled by a foreign government, does DOT consider whether that 
company will have its operations in the U.S. subsidized by the foreign 
government?
    Answer. An application for a foreign air freight forwarder license 
would indicate the percentage of any government ownership. If issues 
were raised regarding whether licensing the applicant would result in 
unfair competition, such issues would be included in our overall review 
of the public interest.
    Question 35c. What sort of public interest considerations are a 
part of nonairline license reviews at DOT?
    Answer. The statute (49 U.S.C. 40101) specifies the matters that 
are to be considered in determining the public interest.
    Question 36. In recent weeks, many consumer groups and low-fare 
carriers have advocated a moratorium on airline mergers and asset 
transfers in order to give DOT more time to review these transactions 
What is your position on a moratorium?
    Answer. I believe that airline consolidation is and will continue 
to be one of the most important and most challenging issues for the 
government to deal with. I want to take a little more time to examine 
this phenomenon and consult with the Department of Justice before 
reaching any conclusions about how we should proceed.
    Question 37. As a Member of Congress, you were outspoken on the use 
of computer reservations systems as competitive weapons against new 
entrants. The Department has been attempting to complete its CRS 
rulemaking for 3 years. Are you prepared to make this rulemaking a high 
priority?
    Answer. I fully recognize the importance of completing the CRS 
rulemaking and the need to prevent efforts to use the systems in ways 
that would prejudice airline competition and the ability of consumers 
to obtain accurate information on airline services. Due to the 
complexities of the issues and the major changes in airline 
distribution that have occurred since the Department's last review of 
the rules, however, making a decision on what rules should be adopted 
will require some time. In the meantime, the existing CRS rules 
continue to govern.
    Question 38. Recently a significant number of airlines formed to 
create a Internet site called Orbitz that would offer fares that would 
only be available from Orbitz or the individual airline. The fares 
would not be available from traditional CRS sources or other Internet 
sites, such as Expedia or Travelocity. Many consumers have raised 
concerns about the potential for collaboration among the airlines in 
this venture. Do you have concerns about this issue?
    Answer. The Department's staff has been informally studying these 
issues to see whether the structure of Orbitz' operations may lead to 
anticompetitive conduct. The Justice Department is also investigating 
Orbitz' planned operations, and DOT will be discussing the issues with 
the Justice Department. I will carefully review the results of these 
investigations and then determine whether DOT intervention is 
necessary.
    Question 39. Do you believe CRS rules should be extended to cover 
Internet sites like Orbitz?
    Answer. The Department asked the parties in the pending CRS 
rulemaking to comment on whether the rules should cover the use of the 
Internet for the distribution of airline tickets. A number of parties 
submitted comments arguing that new rules are necessary to prevent 
Orbitz from engaging in conduct that would be anticompetitive or limit 
the ability of consumers to obtain information on airline services and 
fares. We will carefully consider their arguments along with the 
counter-arguments made by Orbitz and other parties. We recognize the 
importance of these issues and the issue of whether the rules should be 
changed to cover Internet sales of airline transportation.
    Question 40. Presently, there are 199 airports participating in the 
FAA Contract Tower Program, which continues to enjoy bipartisan support 
from Congress as a cost-effective way to improve air traffic safety at 
smaller airports. The program also receives high marks from the 
Department of Transportation Inspector General, National Transportation 
Safety Board, airports, and aviation users as an important contributor 
to aviation safety. Please provide the Committee your recommendations 
for new steps the Department will support to assure that DOT and the 
FAA enhance the current contract tower program, including the cost-
sharing program?
    Answer. Two steps are currently under way to ensure the Contract 
Tower Program will continue to be successful:
    <bullet> The recently awarded 5-year contract contains language 
specifying a new monthly reporting system the contractors are required 
to adhere to. This monthly report will allow the Program Office to 
better track staffing levels in the individual towers, thus providing 
enhanced oversight of program efficiency as well as system safety.
    <bullet> At the annual Federal Contract Tower conference, a more 
comprehensive equipment list for towers entering the program was 
developed and coordination with airport managers is in progress.
    Questions 41-42. Last year, Congress passed the National Parks Air 
Tour Management Act as part of AIR-21. This law governs many aspects of 
the operations of air tours over national parks. Part of the law 
requires the FAA and the National Park Service (NPS) to work 
cooperatively on several matters, including the development of air tour 
management plans (ATMPs) at each national park where there are 
commercial air tours. ATMPs are to be developed over a 2-year period.
    Apparently, neither FAA nor NPS has been able to allocate the funds 
necessary to develop all the ATMPs within the timeframe set by 
Congress. Are there any plans to address the resource needs associated 
with development of ATMPs?
    Answer. I hope that sufficient resources will be made available to 
support this important initiative in a timely manner. To begin 
cooperative efforts with the NPS this fiscal year, the FAA has set 
aside $367,000 in fiscal year 2001 to cover startup costs for training, 
travel meetings, development of draft ATMP procedures, and the purchase 
of specialized mapping software/equipment to track air tour routes.
    Question 43. In addition to providing adequate resources, what can 
be done to ensure that the FAA does its part to act expeditiously when 
developing ATMPs?
    Answer. The FAA has assigned the Western Pacific Regional 
Administrator to lead the agency's implementation of the ATMPs. Western 
Pacific has the majority of the affected parks, and has the experience 
of working on Grand Canyon air tour issues. The Regional Administrator 
has developed a strong working relationship with the NPS' Soundscape 
Office in Fort Collins, CO, their lead office. The agencies are putting 
together an implementation plan and training for the local park and FAA 
officials who will be responsible for the individual ATMPs. Focus will 
be on the local effort, but a national team of experts from both 
agencies will be available to facilitate local efforts, and develop 
lessons learned as the process matures.
    Question 44. As Secretary, what direction will you give to the FAA 
to fulfill its duties with respect to managing commercial air tours 
over national parks and working cooperatively with NPS?
    Answer. I can think of no better example of direction than the 
effort both agencies gave in their support of the National Parks 
Overflight Working Group (NPOWG). NPOWG was a group of aviation, 
environmental and Native American representatives chartered to find a 
solution to the park air tour overflight issues. Recognizing that 
agency interests may differ at times, the goal was for divergent 
interests to find the common results that make both sides a winner in 
the final analysis--a win-win. FAA and NPS worked with the NPOWG 
representatives to define a process that will allow constituents of all 
sides of the air tour issue to realize some measure of satisfaction. 
Their process was the basis for the enacted legislation.
    Question 45. What is your perception of the division of 
responsibilities between the FAA and NPS with regard to determining how 
commercial air tours impact the ground-based assets and resources of 
national parks?
    Answer. The development of ATMPs is a cooperative interagency 
process. ATMPs are to be established by the FAA ``in cooperation with'' 
the NPS. The Act also establishes that the FAA is the ``lead agency'' 
and the NPS is a ``cooperating agency'' for purposes of compliance with 
the National Environmental Policy Act and its implementing regulations. 
Under environmental law and other guidance, the lead agency supervises 
the preparation and has the ultimate responsibility for the content of 
environmental impact statements. The lead agency must use the 
environmental analysis and proposals of cooperating agencies with 
jurisdiction by law or special expertise, to the maximum extent 
possible consistent with its responsibility as lead agency. So I 
believe it's clear that although the FAA has the ultimate 
responsibility for impact determination, any input from the NPS must 
carry considerable weight and be recognized as such. Moreover, the Act 
requires that both agencies sign the Record of Decision for an ATMP.

                         SURFACE TRANSPORTATION

Amtrak
    Question 46. When Amtrak was created in 1971, it was expected the 
corporation would become self-sustaining within 2 years. Yet 30 years 
later, Amtrak has received $23 billion in taxpayer assistance--and it 
is currently seeking billions of additional dollars, despite the fact 
that just over 3 years ago, we enacted reform legislation intended to 
reduce Amtrak's dependence on the American taxpayers. Given the fact 
Amtrak was never expected to be funded like our highways or transit 
systems, I find it disingenuous when I read about Amtrak crying 
``poor'' and arguing its case by comparing its subsidies to other 
transportation modes. Again, it was never the intent of Congress to 
fund Amtrak infinitum. It was to be free of all Federal assistance 
after 2 years.
    What are your views on Amtrak? If appropriate, please differentiate 
between your views about passenger rail service and that of Amtrak.
    Do you believe that Amtrak should be the only provider of intercity 
passenger service and high speed rail service?
    Do you believe Amtrak will meet the statutory requirement that it 
operate free of Federal assistance by 2003?
    Answer. With the exception of my final few months of service in the 
House of Representatives, railroads in general and Amtrak in 
particular, did not fall under the jurisdiction of the committee on 
which I served and was honored to chair, the Committee on Public Works 
and Transportation (now the Committee on Transportation and 
Infrastructure). Therefore, I want to qualify my response by saying 
that I am less familiar today with Amtrak than with other modes of 
transportation. I will be able to address Amtrak-related issues in more 
detail in the future after I have had an opportunity to participate in 
detailed policy discussions within the Department and with my 
colleagues on the Amtrak Board of Directors and on the Amtrak Reform 
Council.
    I do believe that there is a role for intercity rail passenger 
service in our national transportation system. I have been a longtime 
supporter of a balanced transportation system that includes public 
transportation where it can enhance overall mobility and address other 
important public policy needs. I was one of the first supporters of 
making transit, including commuter rail service, a partner in surface 
transportation funding. While this is largely taken for granted today, 
it was a radical concept in 1983 when we first included it as part of 
what had traditionally been highway legislation.
    The issue is whether and how the potential of passenger rail 
service can be effectively realized. For example, states have made a 
strong statement that there are specific intercity rail passenger 
routes and services that are important to them and have provided 
funding for these routes and services.
    State financial support of Amtrak will total $162 million this year 
which is about one-third the level of Federal support provided in 
fiscal year 2001. In addition, states are independently funding 
investments to facilitate improved intercity or high-speed rail 
service.
    The Amtrak Reform and Accountability Act (ARAA) of 1997 was the 
first real attempt by Congress to try to change Amtrak's focus to 
behaving more like a private business, but such cultural 
transformations take time. I look forward to working with Amtrak's 
Board of Directors, the Amtrak Reform Council, the Department's 
Inspector General and others to determine the progress that has been 
made in transforming Amtrak into a business-like organization, and what 
additional steps the Department can take in aiding this transformation. 
Whether Amtrak should be the only provider of intercity or high-speed 
rail passenger service is a complex issue that I would like to learn 
more about.
    Question 47. Amtrak and some of its supporters in Congress have 
crafted a plan to provide Amtrak with $10 billion in bonding authority 
that would be supported through a Federal income tax credit for the 
holders of the Amtrak-issued bonds. The generated funding is expected 
to fund ``high speed rail'' across the country, even though we have no 
actual cost estimates for funding high speed rail nationally.
    Have you had an opportunity to review Amtrak's proposal and, if so, 
what are your views on the proposed bonding plan?
    In lieu of the bonding proposal, what alternative funding 
approaches could you suggest to provide long-term capital funding for 
intercity passenger rail service?
    In terms of developing a national, high speed rail system, has the 
DOT determined the actual level of capital funding that would be 
needed, and if not, when should we expect such information?
    Answer. I have not yet had an opportunity to study in detail the 
legislation recently introduced by 51 members of the Senate, including 
the majority and minority leaders, that would create a program of 
funding high-speed corridor investments through Amtrak-issued bonds, 
with Federal tax credits in lieu of interest on the bonds. I will be 
working within the Bush Administration to quickly develop our position 
on this pending legislation.
    A challenge facing intercity rail passenger service is the lack of 
a reliable and dedicated source of capital investment. Intercity rail 
passenger service, including high-speed rail, competes for Federal 
funds with other important transportation investment needs, such as 
replacement of the Coast Guard's deepwater assets or expanding RSPA's 
pipeline safety program. The amount of uncommitted Federal funds 
available for transportation today makes for some very tough tradeoffs 
among worthwhile programs and projects. The so-called high-speed rail 
bond bill would provide for high-speed capital investments a reliable 
source of $1 billion annually that would not be in competition with 
other transportation funding priorities.
    The Department has no definitive estimate of the cost for 
developing a national high-speed rail system. The Inspector General has 
estimated that $1.39 billion will be needed in overall capital 
expenditures (which would include a portion for high-speed rail) for 
the fiscal year 2000-02 period.
    Question 48. Do you believe the American taxpayer should continue 
to subsidize Amtrak?
    If so, to what extent and why?
    If not, what should be done to eliminate the subsidy?
    Answer. The intercity rail passenger service provided by Amtrak has 
the potential to play an important role in a balanced national 
passenger transportation system. As with all other components of that 
national system, to achieve its potential intercity rail passenger 
service will require continuing capital investment (as opposed to 
operating subsidies) by the Federal Government, the states and other 
stakeholders.
    The challenge facing this Administration is that in an environment 
of limited funds available for all modes of transportation, Amtrak must 
compete with other critical transportation investment needs. In the 
end, it will be about choices among competing worthwhile investment 
priorities. Amtrak's current authorization runs through fiscal year 
2002. That means that by October 1 of next year, the Congress and the 
Administration need to act on the future of Amtrak. It is not too early 
to begin the debate on the issues that have generated so much attention 
and so many differing views for three decades. I look forward to 
working with the Committee to try to develop a shared vision for the 
future of Amtrak.

                                TRUCKING

    Question 49a. Last January, after much debate, the Federal Motor 
Carrier Safety Administration (FMCSA) was finally established. One of 
the main reasons we worked to create a separate truck and bus safety 
agency was because we found a lack of necessary leadership and priority 
for truck safety when it was a mere component of the Federal Highway 
Administration. Unfortunately, the Clinton Administration never 
nominated an Administrator to head up this new agency and it only 
filled its associate administrator positions in the last month.
    What action will you take to ensure the Federal Motor Carrier 
Safety Administration has the leadership it needs to help meet its 
statutory mandates to improve bus and truck safety?
    Answer. I believe getting leadership in place at the FMCSA is 
critical. Recently we have made progress. Julie Anna Cirillo has 
recently been appointed Assistant Administrator and Chief Safety 
officer of the FMCSA, and we now have all Associate Administrator 
positions filled. The next step will be to fill the top political 
positions in the agency--the Administrator and Deputy Administrator.
    Question 49b. In addition to the critical area of leadership, what 
actions will you take to advance the previous Administration's goal to 
reduce truck-related fatalities by 50 percent?
    Answer. This year the FMCSA intends to issue a long-term strategic 
plan to reduce truck and bus related fatalities and injuries. The plan 
will establish targets for reducing fatalities and injuries and 
identify specific approaches to improving motor carrier safety. Work is 
well underway on this plan. Over the last 8 months, FMCSA has worked 
with the National Highway Traffic Safety Administration, Federal 
Highway Administration, and the Joint Program Office to develop a long-
term strategy.
    As directed by the Motor Carrier Safety Improvement Act of 1999 
(MCSIA), the strategy addresses the following goals:
    <bullet> Reduce the number and rates of crashes, injuries, and 
fatalities involving commercial motor vehicles;
    <bullet> Improve the consistency and effectiveness of commercial 
motor vehicle, operator, and carrier enforcement and compliance 
programs;
    <bullet> Identify and target enforcement efforts at high-risk 
commercial motor vehicle, operators, and carriers; and
    <bullet> Improve research efforts to enhance and promote commercial 
motor vehicle, operator, and carrier safety and performance.
    Question 50. As you know, the most contentious issue for the 
Federal Motor Carrier Safety Administration last year was its proposal 
to revise the more than 60-year-old Federal hours of service 
regulations governing the driving and on-duty time for commercial motor 
carrier operators. The proposal was resoundingly rejected by both 
industry and highway safety advocates.
    How do you plan to advance the Department's efforts to revise the 
hours of service regulations?
    Answer. A thorough and complete evaluation of the 50,000 comments 
is the next appropriate step, and this is underway. The regulatory 
process can accommodate significant revisions to the original proposal 
and provide additional opportunities for public involvement. We also 
may need additional studies to address some of the comments received.
    Question 51a. As you know, in December 1995, the Clinton 
Administration delayed at the 11th hour implementation of the cross-
border trucking provisions provided for under the North American Free 
Trade Agreement (NAFTA). Under NAFTA, the U.S./Mexico border states 
were to be open to commercial motor carrier traffic. Yet for more than 
5 years now, the Clinton Administration has remained relatively silent 
on implementing NAFTA's commercial vehicle access provisions.
    What can we expect from the new Administration in regard to 
fulfilling our duties under NAFTA and addressing our crossborder 
trucking dispute with Mexico?
    Answer. The United States will continue to fulfill its 
international obligations, without allowing a compromise in highway 
safety, and will consult with Congress, State governments, and other 
interested parties, as well as talking to the Mexican government, as we 
proceed.
    Question 51b. With regard to the cross-border trucking issue, 
please provide to the Committee a list of specific safety conditions 
and concerns that exist today that have not been addressed.
    Answer. Over the past 5 years the Department has been working with 
our Mexican counterparts to define critical safety areas in Mexico's 
safety system that need improvement. While this work is not yet 
completed, all elements of the department are in agreement that 
substantial progress has been made and that this progress is continuing 
in the following areas: (1) training Mexican inspectors and instructors 
on U.S. safety inspection techniques; (2) developing electronic data 
bases to exchange safety information on companies, drivers, and 
vehicles; and (3) signing a memorandum of understanding on drug and 
alcohol testing procedures. The Department has provided both technical 
and financial assistance to Mexico to assist them in achieving these 
improvements.
    Question 51c. What role will you play in addressing US/Mexico 
border crossing problems?
    Answer. I believe that the United States has an obligation to meet 
its NAFTA land transportation commitments, and that the Department's 
role is to ensure that these commitment can be met with adequate 
safeguards to prevent any compromise to our highway safety standards.

                            PIPELINE SAFETY

    Question 52. This Committee worked long and hard during the last 
Congress to develop comprehensive pipeline safety improvement 
legislation. As a result of our bipartisan efforts, we unanimously 
approved pipeline safety legislation last September. Unfortunately, the 
House failed to approve a pipeline safety measure, so needed 
improvements have not been implemented.
    I am hopeful that this new Congress will act quickly to take the 
overdue action necessary to improve pipeline safety before additional 
lives are lost. While we have reintroduced last year's Senate-passed 
bill, we will be eager to receive recommendations from the new 
Administration to further promote pipeline safety.
    When can we expect to receive input from the Department on 
proposals to strengthen our pipeline safety policies?
    Answer. I am aware of the Senate's interest in expeditious action 
on this important safety issue. I consider pipeline safety one of my 
top priorities and will work to develop an Administration proposal at 
the earliest possible time. I look forward to working with you to enact 
pipeline safety legislation during this session.

                              FREIGHT RAIL

    Question 53. What are your views regarding the role of the Surface 
Transportation Board, and what type of relationship do you hope to 
establish between the Department and the Board?
    Answer. The Surface Transportation Board (STB) performs a number of 
essential functions that most likely can only be carried out by an 
independent regulatory agency. It ensures, to the best of its ability, 
that rates and services for captive shippers are reasonable, and that 
carrier mergers, abandonments, and trackage rights agreements consider 
the needs of shippers, communities, and the financial health of the 
railroads. While organizationally and for administrative purposes the 
STB is part of the Department of Transportation, the Board's decisions 
are completely independent. The Department offers its views on policy 
matters in STB proceedings, the same as other government agencies and 
private parties.
    I intend to develop a cooperative relationship with the Board to 
exchange ideas and discuss matters of mutual interest (excluding ex 
parte communications on matters in adjudication). It is our mutual goal 
to see to it that the Nation has a competitive, efficient, and viable 
rail transportation system.
    Question 54. What are your views on the Surface Transportation 
Board's proposal to revise its railroad merger rules?
    Answer. I believe the Board's initiative to reassess the rules that 
guide its merger decisions is timely. The railroad industry has 
undergone significant changes in the last 20 years, and the Class I 
rail sector has become more and more concentrated as a consequence. I 
share the Board's concern with the implications of a merger ``end 
game'' that could lead to two major transcontinental carriers serving 
the nation. The potential risks and uncertainties of this industry 
structure require that any new merger proposals undergo much more 
intensive scrutiny.
    The evidentiary phase of the proceeding on new merger rules ended 
in early January, and we await the Board's decision in June. The 
Department submitted comments that supported the judicious application 
of competition enhancements and suggested ways to resolve the 
operational problems that have characterized recent mergers. I expect 
to review the Department's position on these issues in the next few 
months.
    Question 55. What is your general philosophy concerning the proper 
role for the Department to address concerns raised by captive rail 
shippers?
    Answer. The proper role of the Department would be to consider the 
concerns of captive shippers in the context of the overall DOT policy 
for transportation in the nation. DOT will provide a forum for all 
interested parties--shippers, railroads, communities, local governments 
and private citizens--to express their concerns and suggestions for 
rectifying problems.

                                MARITIME

    Question 56. What can and should be done to address the relatively 
high operational costs of American-flagged maritime carriers?
    Do you support subsidies to offset the high costs of these 
operations?
    Why or why not?
    Answer. The cost of U.S.-flag operations reflects America's high 
standard of living and its business operating environment. This 
includes the Nation's tax laws, employment standards, labor laws, 
environmental protection laws, as well as ship construction and 
operating laws and regulations. The U.S.-flag fleet competes with 
shipowners operating in low-cost countries, including ``open registry'' 
or ``flag of convenience'' countries such as Panama, Liberia, or Malta, 
which are essentially tax-havens and have minimal standards for vessel 
operations. The merchant fleets of all traditional maritime countries 
with high living standards, regulatory standards, and tax rates (such 
as those in the European Union and Japan) have been in serious decline 
as a result of the same cost and regulatory disadvantages suffered by 
the U.S.-flag fleet compared with flags of convenience. There is no way 
to compete with flagof-convenience countries without a blend of 
government support and regulatory enhancements. The alternative path to 
competitiveness would involve the adoption of U.S. standards that would 
compromise our protection of the natural environment, safety, and our 
national security readiness, and that would be unacceptable.
    Programs such as the Maritime Security Program/Voluntary Intermodal 
Sealift Agreement, cargo preference, and the Jones Act are the 
principal means currently available to sustain U.S.-flag carriers. 
Moreover, these programs and policies provide important benefits to our 
economic and national security by ensuring the availability of a U.S.-
flag privately owned merchant fleet to carry U.S. domestic and 
international waterborne commerce and to enhance sealift capability to 
meet the unique responsibility of the United States as the world's only 
military superpower.
    Question 57. Following Operations DESERT SHIELD and DESERT STORM, 
changes were made to the operation of the Ready Reserve Fleet (RRF). In 
addition, the Voluntary Intermodal Sealift Agreement (VISA) Program and 
the Military Security Program(MSP) were created to ensure we could 
better meet the demands of such a large scale military operation in the 
future. Please explain how you view these programmatic changes.
    Answer. The programmatic changes to the RRF and the creation of the 
MSP/VISA programs have resulted in increased readiness, improved 
capacity and the establishment of a core fleet of U.S.-flag militarily 
useful commercial vessels and associated intermodal systems.
    Significant programmatic changes to the RRF since the Persian Gulf 
war have upgraded readiness and improved the overall composition of the 
RRF to better meet DOD mission requirements. Thus, the RRF is 
maintained in a readiness posture to assure its rapid availability to 
provide critical sealift to the Department of Defense. Fourteen Roll-
on/Roll-off ships were added to the RRF, and the decks of 5 existing 
Ro/Ro's were expanded.
    Readiness has been significantly improved by the use of permanently 
assigned 9 or 10 person crews on all high readiness vessels, required 
to be activated in 4 or 5 days; systematic no-notice test activations 
and regularly scheduled maintenance seatrials; outporting of all 4 and 
5 day ships in close proximity to probable DOD loadports; development 
of an automated data base system (MARTS) to record and prioritize 
deficiencies, estimate costs associated with these deficiencies and 
assist in preparing budget submissions; and the development and 
expansion of a logistics support program to ensure all ships are 
provisioned with adequate spare parts to enable continued operation in 
contingencies. The RRF is the most costeffectively administered element 
of the Government organic sealift programs, while adhering to the 
highest readiness standards.
    MARAD's MSP and VISA programs enable the U.S. commercial maritime 
industry to readily assist DOD in meeting sustainment sealift needs. 
These programs are meeting the statutory goals of retaining a core 
fleet of militarily useful vessels under U.S. registry and providing 
assured access to associated intermodal systems that support DOD 
contingency requirements. MSP also contributes to maintenance of a 
labor base of skilled American seafarers available to crew the U.S. 
Government-owned strategic sealift fleet during emergencies, as well as 
the U.S. commercial fleet. DOD estimates that the cost to replicate the 
capabilities of MSP/VISA would exceed $12 billion for initial 
construction, and $1 billion annually in operating costs. The costs for 
providing trained crews and the supporting intermodal structure would 
be additional.
    Question 58a. Through much of the last century, our nation's 
maritime policy was directed toward supporting our national defense 
needs. While meeting our defense needs should and must remain a top 
priority, changes in the global market and advances in the maritime 
industry have clearly put new pressures on the industry that were not 
contemplated during the development of many of the laws and regulations 
that come together to form our current maritime policy.
    What specific changes would you propose to bring our nation's 
maritime policy in line with the maritime industry today?
    Answer. U.S.-flag vessels compete globally on a quality basis, 
offering premium service that assures timely and reliable 
transportation to U.S. and foreign shippers at reasonable prices for 
these services. U.S.-flag vessels cannot compete easily with lower-cost 
competitors in the world market, despite the premium services offered 
by U.S.-flag vessels, if their costs are substantially higher. If U.S.-
companies do not earn sufficient returns to cover costs and the 
continuing investments required in this extremely capitalintensive 
industry, these companies will not be able to keep pace, let alone 
lead, in the world market. Given this marketplace reality, I will be 
carefully analyzing and assessing the options which might be available 
to us in the near term.
    Question 58b. How would these proposed changes provide growth 
opportunities for our nation's merchant marines and allow them to 
compete better in the global market?
    Answer. Policies that have focused on carrier operating costs and 
made U.S. carriers more competitive have attracted or maintained 
investment in the U.S.-flag fleet. For example, during the 1996-1999 
implementation of the Maritime Security Program/Voluntary Intermodal 
Sealift Agreement program (MSP/VISA), 14 vessels were added to the 
U.S.-flag liner fleet in order to participate in MSP, and another four 
were re-flagged under U.S. registry and enrolled as non-MSP, VISA 
vessels. The addition of these vessels halted the evident decline in 
the U.S.-flag liner fleet, and contributed to a nearly 30 percent 
increase in average vessel carrying capacity. As part of my overall 
review of our maritime policies, I will be focused on how we can 
provide growth opportunities for our merchant marine and the maritime 
workforce.
    Question 58c. How would these proposed changes balance our defense 
needs with our commercial needs in today's global market?
    Answer. A competitive U.S.-flag international trade fleet of 
militarily useful vessels crewed by U.S.-citizen mariners serves a dual 
purpose of economic and national security. The presence of U.S.-flag 
vessels in international trade promotes economic security by providing 
American shippers with an alternative to foreign-flag operators. The 
fleet also provides the U.S. Government with legal standing to protect 
the interests of American businesses and consumers in international 
negotiations over shipping and intermodal transportation. This fleet 
also serves as a vital national security asset for executing the 
Nation's forward defense strategy, with a central role in military 
sealift during national emergencies and provides the pool of mariners 
necessary to crew the government's organic fleet during contigencies. 
As we move to shape our maritime policy in the years ahead, we will 
remain focused on the unique dual role of the U.S. merchant fleet, and 
our need to maintain both the economic and national security interests 
of the Nation.
    Question 59a. As you may be aware, I prefer to eliminate restraints 
on U.S. businesses' competitiveness rather than provide subsidies that 
remove incentives for businesses to find new ways to operate and 
compete in the world market. I continue to believe that U.S. companies 
are struggling to compete in the international maritime industry in 
part because of the prevalence of subsidies by other flag-states.
    What are your views on maritime subsidies?
    Answer. Foreign government subsidies to national industries and 
restrictions and barriers to free trade have hurt U.S. companies in 
global markets. U.S. companies will continue to operate at a 
disadvantage compared to foreign flag shipping lines as long as their 
governments maintain policies that distort or restrict market access.
    Question 59b. If confirmed, what change will you propose to help 
improve the competitiveness of the U.S. maritime industry?
    Answer. The Administration will press foreign governments to 
eliminate practices which distort the operation of a free marketplace 
for shipping services and remove restrictions and barriers on U.S. 
companies so that they can compete fairly in the world market.
    Question 60a. Regardless of exaggerated reports on the size of the 
U.S. merchant fleet issued by the previous Administration, the Jones 
Act fleet continues to face an uphill battle in meeting the needs of 
our nation's domestic waterborne commerce. Most users of the domestic 
water transportation system, except for those of our inland waterway 
system, face high costs and lack of adequate service. This is not true 
of our inland waterway system because operators in these areas face 
competition from road and rail service not available to shippers in 
areas such as Hawaii and Puerto Rico.
    While I have attempted to bring about reasonable debate on the 
issue for several years, domestic trade vessel operators and 
shipbuilders who benefit from the barriers created by the Jones Act 
continue to lobby for the status quo. As with other areas of our 
nation's transportation system, it is important that we bring change to 
the maritime industry that will allow for a more competitive 
environment for the domestic maritime industry.
    What are your views on the Jones Act?
    Answer. I support the Jones Act. Like domestic rail and truck 
carriers, domestic vessel operators incur ``U.S. costs'' to operate 
under the same legal structure affecting tax, labor, immigration and 
naturalization, and the protection of public safety and the 
environment--as do all other American businesses. Many foreign-flag 
carriers can operate at lower cost than U.S.flag shipping companies in 
foreign trade, since the former can operate under lower international 
safety and wage standards, and reduced or negligible tax burdens. 
However, if foreign-based shipping companies seeking to do business in 
the United States were required to comply with the same laws as 
American companies, then the cost differential between U.S. and foreign 
waterborne carriage would likely disappear.
    Question 60b. How would you propose to improve competition in the 
domestic market and bring about growth in the domestic trade?
    Answer. Due to the geography of the continental United States, 
waterborne transportation usually does not provide the most direct 
routing for domestic shipments moving from an inland origin to an 
inland destination. Expensive and time-intensive intermodal transfers 
to truck and rail feeder carriers on circuitous routes are often 
necessary to move shipments from land-locked originating points to 
their final destinations. As a result, some shippers find themselves 
dependent on rail and truck transportation, which move cargo at faster 
speeds, but in smaller lots and at much higher cost for each ton-mile 
traveled.
    On the other hand, even with intermodal transfers, water transport 
can be competitive for moving relatively low-value, time-insensitive 
bulk goods because it is so cheap, as is the case in the inland river 
and Great Lakes trades. For relatively high-value general cargo shipped 
over 1,000 miles in oceangoing trades to Alaska, Hawaii, Guam, and 
Puerto Rico, large tug/barges, Roll-On/Roll-Off trailerships, and 
containerships continue to be competitive against air carriage. In 
recent years, tug/barges and even larger and faster containerships have 
begun to compete effectively against rail and truck carriers in the 
medium-distance (e.g., exceeding 500 miles) coastwise trades, as north-
south rail and highway corridors become increasingly congested.
    I will be evaluating ways to encourage market entry by U.S. vessel 
operators into the Nation's coastwise and oceangoing trades.
    Question 61. The U.S. Maritime Administration (MARAD) has a 
statutorily mandated deadline for the disposal of obsolete National 
Defense Reserve Fleet (NDRF) vessels. MARAD currently has 114 vessels 
awaiting disposal, of which 91 are targeted for scrapping and many of 
which pose an environmental hazard to the waterways in which they are 
now moored. MARAD has further been directed to report to Congress on 
how it plans for disposal of these vessels.
    What is the status of that report?
    What is it going to cost the Federal taxpayer to dispose of these 
obsolete vessels?
    How long will it take MARAD to rid our nation's waterways of these 
vessels?
    Answer. A comprehensive report addressing all ship disposal options 
is under development and due to Congress this Spring.
    The cost of disposal will depend upon the specific method or 
methods used as well as the competitiveness and capacity of disposal 
facilities. Preliminary estimates based upon experience with the Navy's 
pilot program involving few domestic shipyards suggest a cost range 
from $2M -3M per vessel depending upon the size, condition, and number 
of ships made available. However, if foreign dismantlers can be used 
either for labor intensive cutting of decks and hulls after some ``pre-
clean'' in U.S. yards, or if entire scrapping can be performed 
overseas, disposal costs would likely be significantly reduced. We are 
in the process of examining all the options available.
    If no systematic plan for disposal is undertaken, then exposure to 
environmental cleanup liability will likely increase. Interim remedial 
costs can be expected to increase as well. Four recent incidents at the 
James River Reserve Fleet in Norfolk cost approximately $3.7M. These 
costs were related to spill clean up, emergency fuel removal, and 
temporary hull plate patching.
    The statutory deadline for disposal of all obsolete vessels is 
September 30, 2006. Even at a vigorous pace of disposal of about 15 
vessels per year, it would take approximately 8 years for MARAD to 
remove the current obsolete ships. Moreover, MARAD expects the current 
inventory to grow as more obsolete ships are received from other 
government agencies. Unless domestic ship scrapping/dismantling 
capability expands, it may not be possible to dispose of the existing 
ships domestically within the deadline.
    Question 62. In the 1970s, there were 30 domestic ship scrapping 
companies. Today, the Maritime Administration (MARAD) considers only 
four companies to be viable, and concerns have been expressed regarding 
those.
    Does MARAD have the tools and personnel required to meet its 
statutory obligation to dispose of these vessels in a safe and cost 
effective manner?
    What actions would you direct MARAD to take in order to draw 
additional companies to the ship scrapping industry and reduce disposal 
costs for the American taxpayer?
    Answer. Before MARAD can precisely determine what resources will be 
required to dispose of the obsolete vessels, the long-term program 
course will have to be decided. Congress provided MARAD $10 million 
through Navy's fiscal year 2001 appropriations to begin scrapping the 
ships in the worst condition. MARAD is utilizing existing personnel 
from other program areas and has engaged contractor support using a 
General Agency Agreement to begin this effort. MARAD is also preparing 
a comprehensive ship disposal report, as required by the National 
Defense Authorization Act of fiscal year 2001, to be provided to 
Congress by April 30, 2001. The report will identify program resource 
requirements, including personnel, to implement a long-term program.
    MARAD is also working with the Department of the Navy, which has 
had a pilot program in domestic shipyards on-going for the past year. 
Any action to draw more companies into the domestic disposal industry 
would expand capacity, thereby permitting removal of more vessels in a 
timely manner. However, a program to a scrap all or most of the vessels 
in U.S. facilities would require a considerable funding commitment over 
a period of years. I am assessing all options before I commit to a 
single course of action.
    Question 63. Over the past 2 years, the United States and China 
have been negotiating a new bilateral maritime agreement. 
Representatives from the U.S. Maritime Administration and their Chinese 
counterparts recently met in Seattle. I understand some progress was 
made toward resolving remaining differences, but a final agreement was 
not reached.
    What are your views regarding bilateral maritime agreements?
    What should be done to ensure that our nation's maritime industry 
does not continue to be subjected to needless discriminatory practices 
because we can't reach agreements on maritime with our trading 
partners?
    Will you commit to reaching a bilateral maritime agreement with 
China by scheduling high-level talks on the matter early after being 
confirmed?
    Answer. It has been the policy of the United States to conclude 
bilateral maritime agreements only in rare cases where circumstances 
warrant such action. In those cases, such agreements have helped to 
strengthen market conditions. Our overriding objective is to assist 
U.S. carriers' activities in China, where their operations are 
significantly burdened by government restrictions, and thereby 
improving competitive conditions for shippers as well. A new agreement 
would help to minimize such restrictions.
    Over the years, executive branch agencies working in parallel with 
the Federal Maritime Commission, have achieved removal of a number of 
restrictions that U.S. carriers faced in foreign markets--including 
China -and we expect that this same approach would be the basis for 
dealing with the PRC in the future.
    The talks that the United States and China held in Seattle in 
December were informal contacts. The U.S. side viewed these contacts as 
a means of ascertaining whether a basis existed for negotiating a 
maritime agreement that would ensure verifiable resolution of U.S. 
carriers' problems in China. Ultimately, the U.S. team, which was led 
by MARAD, concluded that the necessary basis was lacking and the matter 
was not pursued further.
    Thus, I intend to continue to explore the possibility of renewed 
discussions with China in an effort to minimize trade restrictions 
against U.S. companies.
    Question 64. The Department of Transportation has recently released 
a study requested by Congress in TEA-21 on the condition and funding 
for highway connections to intermodal freight facilities, such as 
ports. I find that these connections are in poorer condition and 
receive less funding than other National Highway System miles, and that 
local governments, which are often focused on passenger needs, do not 
readily fund these types of freight projects that have beneficiaries 
well beyond the local area. With projected cargo volumes expected to 
increase dramatically over the coming years, will the Department, under 
your leadership, consider ways to give priority to these potential 
choke points?
    Answer. Yes, the Department will consider ways to give priority to 
connections to intermodal freight facilities. I will work with the 
appropriate operating agencies, including MARAD, FHWA, and FRA, to 
address this issue. As an initial step, the Department plans to engage 
the various constituencies that are concerned with intermodal 
connections to find potential solutions. I believe that the efficiency 
and safety of the nation's freight system have important implications 
for enhancing the nation's productivity and competitiveness in the 
global marketplace.
    During this year, we will be assessing current and future demands 
on the system and the resulting capacity and investment implications. 
The Department will hold a series of national freight forums to 
identify problems and potential solutions for planning, financing, and 
operating these important assets. This will culminate in a national 
freight summit at the end of the year to explore policy recommendations 
for reauthorization of our surface transportation programs.
    Further, the Department will undertake several operational tests 
this year to demonstrate the capability of ITS technologies to improve 
the interoperability among the freight modes. The Federal Highway 
Administration is also conducting a follow-up review of the intermodal 
freight connectors in cooperation with our field offices, the states, 
and MPOs to help advance solutions.

                              COAST GUARD

    Questions 65-66. The Coast Guard has begun a significant 
acquisition program to recapitalize its fleet of 93 Deepwater cutters, 
200 aircraft, and the command and control system that link them 
together. The project is estimated to cost $10 billion over the next 20 
years.
    The General Accounting Office has repeatedly stated concerns about 
this project. In its most recent report, it said the Coast Guard had 
answered many of its previous concerns, but that it was still. 
concerned about the project's cost and management controls.
    What is the Administration's position on the Deepwater project, and 
how will it prioritize it with respect to overall Department of 
Transportation funding?
    Answer. The Deepwater Project is a priority, for the Department and 
is one of Coast Guard's top two recapitalization initiatives. This new 
century will bring greater challenges that the Coast Guard must be 
prepared to face. We cannot meet the needs of the future with a Coast 
Guard fleet from the past.
    I appreciate the management challenges associated with an 
acquisition of this scope. The Coast Guard has been responsive to the 
GAO concerns regarding management controls and funding for this 
project. The Coast Guard has addressed concerns tied to the life cycle 
costs of our current operational assets.
    Innovation and sound business practices will serve the successful 
administration of the project. Taking a holistic approach, the project 
is avoiding the piecemeal approach traditionally taken with government 
acquisitions. Rather, the Deepwater Project is designed to provide a 
widerange of surface, air, command-and-control and communications 
assets to ensure interoperability between the Coast Guard, DOD and our 
allies. The Department is addressing the funding issue within the 
Administration. The Coast Guard is working diligently to manage the 
project successfully.
    Question 67. The Coast Guard's 2000 emergency supplemental 
appropriation included $110 million to replace the 60-year-old 
icebreaker Mackinaw. I understand the actual cost of this single ship 
acquisition could be significantly higher than the appropriated level. 
The Great Lakes cutter essentially breaks ice for 4 months per year. 
While domestic ice breaking is a core mission of the Coast Guard, there 
may be fewer expensive alternatives to building and manning a new 
cutter, including a long-term lease agreement.
    What is your position on such alternatives, and do you plan to 
reevaluate the Great Lakes Icebreaker replacement plan?
    Answer. The Coast Guard anticipates making an FY01 award to design 
and construct a multi-mission icebreaker to replace USCGC MACKINAW and 
has been appropriated funds specifically for this purpose. The total 
estimated acquisition cost includes estimates for the design and 
construction contract, project logistics and management, and previously 
expended concept exploration expenses.

                                CONSUMER

National Highway Traffic Safety Administration/Tire Recall
    Question 68. At the end of the last Congress, Ford and Firestone/ 
Bridgestone's recall of 6.5 million tires prompted passage of the 
Transportation Recall Enhancement, Accountability, and Documentation 
(TREAD) Act. The TREAD Act directs the Secretary of Transportation to 
undertake 20 separate studies and rulemakings to improve highway 
safety. Some consumer groups have alleged that Firestone's recall of 
ATX tires and some Wilderness tires was under-inclusive.
    When will the National Highway Traffic Safety Administration 
(NHTSA) conclude its investigation of the recall and determine whether 
the scope of the recall was appropriate?
    Answer. The Firestone recall covered all ATX and ATX II tires built 
since 1990 of the P235/75R15 size and all Wilderness AT tires of that 
size built at Firestone's Decatur, Illinois plant. NHTSA is continuing 
its investigation into whether ATX and Wilderness tires other than that 
size and/or Wilderness AT tires of that size from Firestone plants 
other than the Decatur plant should also be recalled. To date over 
400,000 pages of documents have been submitted by Firestone and Ford 
Motor Company in response to NHTSA's requests for information (with 
more to come). NHTSA also has contacted seven other tire manufacturers 
for data to enable the agency to make statistical comparisons. Some of 
that data has been submitted. NHTSA expects the remainder in February.
    NHTSA has also begun the process of testing numerous tires 
retrieved from the field. The agency has acquired some of the tires to 
be tested and is continuing the process of locating and acquiring the 
additional tires needed to complete the test program. Several tests and 
evaluations will be conducted. The timing of the conclusion of the 
testing program, and ultimately of the investigation, is dependent upon 
the rate at which additional tires can be acquired and tested. After 
reviewing the results of these tests and completing a statistical 
analysis of the real-world experience of various types and sizes of 
tires, NHTSA will decide whether to seek to expand the Firestone recall 
to include additional tires. The agency anticipates making that 
decision sometime this spring.
    Question 69. In September of 2000, I asked the inspector General of 
the Department of Transportation to review NHTSA's Office of Defects 
Investigation and to assess, among other things, the adequacy of the 
office's collection and analysis of data relating to defects and the 
processes it uses for initiating investigations. I expect the Inspector 
General's report to be published this spring.
    Will you commit to me that NHTSA will carefully consider the 
Inspector General's report and recommendations when undertaking the 
internal reviews and rulemakings ordered in the TREAD Act?
    Answer. I can assure you that NHTSA will carefully and thoroughly 
consider the Inspector General's report and recommendations when 
undertaking the internal reviews and rulemakings ordered in the TREAD 
Act.
    NHTSA has been working with representatives of the Inspector 
General's office since they began their review, providing them with the 
information they have requested and answering their questions about the 
procedures used by the Office of Defects Investigation in opening and 
pursuing investigations. The agency anticipates that the Inspector 
General will make valuable recommendations for the improvement of its 
procedures.
    Question 70. Should NHTSA undertake to review regularly and update 
all of its motor vehicle safety standards?
    Answer. Yes, it should. In addition to NHTSA's activities with 
respect to researching, preparing and adopting new motor vehicle safety 
standards, the agency expends considerable effort to ensure that its 
existing standards are up-to-date and continue to be effective.
    NHTSA has rigorously evaluated its major programs as a matter of 
policy since 1970, and began evaluation of the effectiveness of the 
Federal Motor Vehicle Safety Standards (FMVSS) in 1975. The Government 
Performance and Results Act of 1993 and Executive Order 12866, 
``Regulatory Planning and Review,'' issued in October 1993, now oblige 
all Federal agencies to evaluate their existing programs and 
regulations. Previously, Executive Order 12291, issued in February 
1981, also required reviews of existing regulations. Even before 1981, 
NHTSA was a leader among Federal agencies in evaluating the 
effectiveness of existing regulations and technologies.
    Most of NHTSA's crashworthiness and several crash avoidance 
standards have been evaluated at least once since 1975. A number of 
consumeroriented regulations, e.g., bumpers, theft protection, fuel 
economy and the New Car Assessment Program have also been evaluated.

                                AIRBAGS

    Question 71. The Transportation Equity Act for the 21'' Century 
(TEA 21), which was enacted in 1998, required NHTSA to improve the 
protection afforded by airbags while reducing the risks they pose to 
children and smaller adults. Last year, NHTSA issued an interim final 
rule on ``advanced'' or ``smart'' airbags.
    Is this rule adequate to protect small occupants in low speed 
crashes and unbelted large occupants in high speed crashes?
    Answer. The May 12, 2000, final rule culminated an exhaustive 
effort by NHTSA to specify performance requirements leading to advanced 
air bag systems. These systems will protect all sized occupants and 
virtually eliminate unintended consequences such as injuries to 
children and out-ofposition adults. To assure that the performance 
requirements accomplish these goals, the agency has developed a 
comprehensive plan to monitor advanced air bag technology development 
and real world performance. The plan has seven emphasis areas:
    <bullet> Evaluate real-world performance of advanced air bags in 
both low and high speed crashes;
    <bullet> Conduct research tests to evaluate the performance of 
advanced systems (speed, size, out-of-position occupant performance);
    <bullet> Continue review, research, and evaluation of the 
technology of advanced airbags;
    <bullet> Conduct biomechanics research on Injury Assessment 
Reference Values versus real world injuries. Conduct additional 
validation of dummies/injury criteria (especially for the neck). 
Develop additional dummies as needed;
    <bullet> Monitor compliance testing to assure safe performance of 
advanced systems; publish annual compliance margin reports; conduct 
defect investigations as needed;
    <bullet> Monitor seat belt use. Monitor introduction/effectiveness 
of technology to encourage seat belt use;
    <bullet> Monitor costs of advanced air bag systems.
    I plan to keep Congress and the public informed as NHTSA implements 
the plan.

                    PASSENGER VEHICLE COMPATIBILITY

    Question 72. In collisions between small passenger vehicles and 
light trucks or vans, including sport utility vehicles, passengers in 
the small passenger vehicles are more likely to be seriously injured or 
killed. The increase in the overall number of light trucks and vans on 
the road could compound this problem. Some manufacturers are addressing 
this issue, such as Ford, which recently said that over the next 
several years it will lower the steel beams inside the front ends of 
all Ford sport utility vehicles and pickups to the same height as in 
cars.
    Do you think the market alone will take care of this compatibility 
problem?
    Answer. The increased popularity of light trucks and vans (LTVs)--
pickups, SUVs, and minivans--presents a growing safety problem that 
needs to be addressed. While LTVs account for about one-third of all 
registered vehicles, they are involved in half of all fatal passenger 
car crashes. The safety problem for occupants of passenger cars can be 
attributed to some inherent design differences in SUVs and other LTVs. 
Those differences are due to disparities in size (weight and height) 
and stiffness.
    Some automobile manufacturers have voluntarily introduced changes 
to their light trucks and vans (LTVs) that will lead to improved 
compatibility in crashes between LTVs and automobiles. The primary 
focus of these changes has been to improve the geometric mismatch 
between the frontal structures of the LTVs with those of the 
automobiles so as to improve the structural interaction during a crash. 
In addition to lowering the steel beams to minimize the geometric 
mismatch, Ford also has introduced ``blocker beams'' (i.e., transverse 
beams that connect the front rails) in some of their SUVs to improve 
further the structural interaction in frontal crashes.
    NHTSA is currently conducting research to identify vehicle features 
that affect compatibility and to evaluate their effects in real world 
crash performance. The agency is also using sophisticated computer 
models to assess the safety effects of changes in vehicle size. While 
the agency has identified a number of vehicle improvements to LTVs that 
can be readily made to improve compatibility, the research program is 
focused on what changes can be made to the entire fleet (i.e., both 
LTVs and cars).

                               ROLLOVERS

    Question 73. The National Highway Traffic Safety Administration 
recently issued comparative rollover ratings for passenger vehicles 
based on a static test. Some consumer groups and manufacturers have 
criticized the adequacy of this rating, however, and urged instead that 
NHTSA develop a dynamic rollover test that could, they claim, more 
accurately predict a vehicle's propensity to roll over. The TREAD Act 
requires NHTSA to develop such a test by 2002.
    Will you commit to meeting this deadline?
    Answer. Yes, I intend to meet all of the Congressionally mandated 
deadlines contained in the TREAD Act, including the requirement that we 
develop and carry out a dynamic rollover test program for passenger 
cars, multipurpose passenger vehicles, and trucks with a gross vehicle 
weight rating of 10,000 pounds or less by November 1, 2002.
    Question 74. While the TREAD Act directs NHTSA to initiate a 
rulemaking to revise and update tire standards that have not been 
updated in 30 years, the Act does not require NHTSA to revise other, 
equally old and probably obsolete standards such as the roof crush 
standard, despite 10,000 deaths per year in rollover accidents.
    What action will you take to ensure that NHTSA adequately revises 
the roof crush standard?
    Answer. Although properly restrained, un-ejected occupants who are 
injured by roof intrusion represent a very small percentage of 
fatalities in rollover crashes, research shows that limiting roof 
intrusion may be effective for these occupants. Accordingly, I will ask 
NHTSA to investigate the potential benefits that may be gained by 
stiffer roofs. I understand that the agency is making plans to have a 
public discussion on this issue this spring.
    These actions should be seen in the context of NHTSA's effort to 
address the rollover problem with a multiple-phase program. First, 
NHTSA has initiated a consumer information rollover-propensity rating 
system. This will help consumers make smarter choices when buying 
vehicles and ultimately reduce the number of rollovers. Partial and 
complete occupant ejections account for 68 percent of the approximately 
10,000 people who die each year in rollover crashes. Preventing 
ejections may have a significant benefit in reducing rollover 
fatalities. Public awareness programs such as Buckle Up America 
continue, in an effort to increase seat belt use, which will reduce 
occupant ejections and subsequent fatalities. Rulemaking and research 
programs aimed at preventing occupant ejections include reducing the 
number of door openings through improved door locks and latches and 
investigating ways to prevent people from being ejected out of windows. 
The agency is also investigating ways to enhance occupant protection in 
rollover crashes through improvements in seat belts and padding.

               DRIVER DISTRACTION BY IN-VEHICLE DISPLAYS

    Question 75. Concern about the relationship between driver 
distractions and accident rates has led some State and local 
governments to try to restrict drivers' use of cell phones. Even as 
this is occurring, manufacturers are introducing or proposing to 
introduce cars that contain interactive video and audio devices, Global 
Positioning Satellite displays, and fax machines.
    What if anything should the National Highway Traffic Safety 
Administration do to ensure that these devices don't compromise safety?
    Answer. Since 1991, the NHTSA has been researching the relationship 
between distractions and driving performance. Using instrumented cars, 
NHTSA has been studying the relative demands of different types of 
systems, including cell phones, navigation systems, and audio system 
controls. NHTSA is currently conducting two studies: one is 
investigating the relative demands on the driver of voice and non-voice 
technologies for tasks such as phone dialing, radio tuning, and email 
retrieval; the other is comparing driver distraction as a function of 
hand-held versus hands-free cell phone use.
    As a result of the information gathered during these recent 
activities, NHTSA is planning to undertake the following:
    <bullet> Continue research to understand the factors that affect 
the willingness of drivers to use various technologies and to quantify 
how drivers' use of technology affects their safety-related driving 
performance. This research will utilize the capabilities of the 
agency's new National Advanced Driving Simulator as well as 
instrumented vehicles on actual roads.
    <bullet> Pursue consumer and public information efforts to help 
convey the knowledge gained from research to the public.
    <bullet> Work with industry to support the development of test 
procedures and guidelines that can be used to design equipment that 
minimizes driver distraction.
    <bullet> Monitor products to determine how well manufacturers have 
addressed the safety impact of new technologies prior to their 
introduction into the market place.
    <bullet> Continue to encourage the development and deployment of 
technologies that can address the safety problems caused by driver 
distraction, such as collision warning systems and integrated driver 
support systems.

           CORPORATE AVERAGE FUEL EFFICIENCY (CAFE) STANDARDS

    Question 76. Because of appropriations bills riders, the Corporate 
Average Fuel Efficiency Standard for light trucks has remained at 20.7 
miles-per-gallon since model year 1996.
    Should the fuel efficiency requirements for light trucks be raised?
    Answer. As you point out, provisions in the DOT Appropriations Acts 
for the last 6 years have prohibited the Department from conducting any 
analyses to determine if the CAFE standards should be revised. However, 
the fiscal year 2001 DOT Appropriations Act included language calling 
for a National Academy of Sciences (NAS) study on the effectiveness and 
impacts of CAFE standards. The Department is funding this study and is 
working closely with NAS to ensure its completion by July 2001.
    We are hopeful that the results of the NAS study will provide 
Congress and the Administration with the information we both need to 
make a determination about any changes to the CAFE standards.
    Question 77. The Alternative Motor Fuels Act of 1988 gave vehicle 
manufacturers that make vehicles that run on alcohol or natural gas, 
either exclusively or in addition to gasoline, a credit toward the 
manufacturers' corporate average fuel efficiency standard. The Act 
required the Secretary of Transportation, in consultation with the 
Environmental Protection Agency Administrator and the Secretary of 
Energy, to submit a report to Congress by September 2000 on the success 
of the CAFE credit in promoting alternative fuel use. It also required 
the Department of Transportation to decide by the end of this year 
whether to continue the credit until 2008 or end it in 2004.
    When do you expect the Department of Transportation to submit the 
report required by the Alternative Motor Fuels Act?
    Answer. The draft of this report has been completed. I hope to be 
able to submit the final report as soon as we receive clearance from 
the coordinating agencies.

                    COMMERCIAL SPACE TRANSPORTATION

    Question 78a. Given the recent discussions on the importance of 
space-based assets on national security, along with a growing economic 
reliance on communications satellites, do you believe the Nation has 
the necessary space transportation infrastructure to support these 
priorities?
    Answer. Yes, current infrastructure for space launch operations is 
sufficient for current demand and the U.S. commercial space 
transportation industry has proven that it can conduct a significant 
number of commercial launches (e.g. Iridium) while continuing to launch 
civil and military spacecraft. However, industry and government agree 
that modernization of the antiquated range infrastructure by the Air 
Force (AF) is a priority as the current system is costly to operate. 
These costs are passed on to the commercial user and decrease the 
competitiveness of U.S. commercial space launch providers. Commercial 
use of the launch range was greater than military use since 1998 and 
the commercial industry is concerned that AF modernization proceed as 
quickly as possible and that commercial requirements are considered.
    If DOD and Congress choose to go ahead with proposed constellation 
programs such as Discoverer II, or other unannounced commercial 
constellations emerge, we believe that the U.S. commercial launch 
industry and the Eastern and Western Ranges are capable of handling the 
demand. Also, increased efficiency is expected when the new Evolved 
Expendable Launch Vehicles (Delta IV and Atlas V) will enter service in 
2002.
    Question 78b. How can commercial space transportation better enable 
or promote the national security interests of the nation?
    Answer. Commercial space transportation enhances U.S. national 
security by reducing costs while increasing efficiency. The development 
of the Evolved Expendable Launch Vehicle (EELV) which will be used for 
both military and commercial launches included commercial industry 
input and requirements from the FAA Commercial Space Transportation 
Advisory Committee. The commercial industry sought changes, which were 
accepted by the Air Force, that will decrease the time the vehicle 
occupies the launch pad, decrease processing costs and allow 
operational flexibility at the launch ranges. Recently, the FAA and the 
Air Force signed a Memorandum of Agreement to work together to achieve 
common safety requirements for military and commercial space launches. 
This change will decrease the costs of commercial providers to meet 
safety requirements. Just as commercial airlines, trains, and ships 
support national security interests through transportation of goods and 
services on a reliable and efficient basis today, commercial space 
launch will support reliable, efficient operations including decreased 
costs for the security of our Nation.
    Question 79. In the Department's role as a regulator for commercial 
space launches, given the expected increase in commercial launches and 
activities, what priority do you intend to place on commercial space 
transportation within the Department of Transportation vis-a-vis other 
modes of transportation?
    Answer. The Department has given a high priority to space 
transportation and will continue to do so. The Office of Commercial 
Space Transportation is a distinct line of business within the Federal 
Aviation Administration and has developed a full program of regulatory 
and commercial space development projects. The Associate Administrator 
for Commercial Space has an active regulatory program that is fully 
supported by the Department. They have completed new regulations during 
the past 3 years for launch operations, launch site operations, reentry 
vehicles, and financial responsibility for launch and reentry vehicles. 
The Commercial Space Transportation Office's public/private 
partnership, under which the government works smartly with industry, is 
a strategy it plans to continue in order to foster the further 
development and increased competitiveness of the U.S. commercial space 
transportation industry.
    Question 80. What needs to be done to ensure the international 
competitiveness of the U.S. space transportation industry?
    Answer. The recent extension by Congress, under the Commercial 
Space Transportation Competitiveness Act of 2000 (P.L. 106-405, Nov. 1, 
2000), of liability risk-sharing provisions ensures continuation for an 
additional 4 years of the benefits of stable and predictable risk 
allocation for commercial launch activities. Retention of the existing 
risk-sharing regime has been considered critical to technology 
development and international competitiveness of the U.S. launch 
industry. Congress also directed the Department to conduct a 
comprehensive study of the need to continue the program beyond 2004. 
The Department is committed to conducting the study to include public 
and government views on this important issue.
    The Department has given a high priority to space transportation 
and will continue to do so, as I outlined in my previous response.

                                 ______
                                 
     Response to Written Questions Submitted by Hon. Trent Lott to 
                            Norman Y. Mineta

    Question 1. Secretary Mineta, while much of the focus of the 
Department of Transportation is aviation and highways, maritime 
transportation is often an afterthought. With approximately 90 percent 
of our Nation's international trade, and a significant percentage of 
our domestic trade, carried by water, one of your most important jobs 
will be to ensure our maritime infrastructure, our ports, waterways, 
and maritime industry, are capable of meeting the transportation needs 
of this new century. Much of this infrastructure is aged and in need of 
refurbishment and modernization. Will you commit to work with the, 
agencies within your Department (the Maritime Administration and the 
U.S, Coast Guard) and in other Departments (the Army Corps of 
Engineers) to ensure adequate funding is requested to meet these needs 
and improvements in these systems are not slowed by unnecessary 
regulations?
    Answer. The Administration will work hard to ensure that the Nation 
is served by an intermodal transportation system that is supported by a 
modernized and efficient maritime infrastructure. We will work with 
Congress to provide adequate funding and remove unnecessary regulatory 
barriers to meet these vital infrastructure needs in a timely and cost-
effective manner.
    Question 2. Secretary Mineta, the U.S. Coast Guard and the 
Department of Transportation are nearing a critical decision with 
regard to the replacement of the Coast Guard's deepwater assets. A 
majority of the Coast Guard's aircraft and large cutters are nearing 
obsolescence during the next decade. Implementing the Deepwater 
Capability Replacement Program will require a significant increase in 
the Coast Guard's Acquisition, Construction, & Improvement (AC&I) 
budget, commencing in Fiscal Year 2002. Do you support the Deepwater 
Program? If so, will you ensure the Administration requests adequate 
funding for the program?
    Answer. The Deepwater Project is a priority for the Department. 
Obsolete and ineffective Deepwater assets will be replaced or 
modernized to provide a highly integrated system that will provide 
effective and interoperable assets for the next three generations of 
Coast Guard personnel.
    The Coast Guard has taken an active part in enhancing the 
affordability of the Deepwater project in numerous ways, including 
leveraging technology to reduce the number of replacement assets 
needed, structuring the acquisition in phases, and adhering to the 
principles of good project management as outlined in OMB Circular A-11. 
Rather than replacing the assets on a one-for-one basis, the Project 
follows a mission-based performance acquisitions approach that 
describes the capabilities the service needs to perform its deepwater 
missions. This approach will result in a truly integrated, cost 
effective, and efficient 21St century Coast Guard. The integrated 
system is a set of diverse yet complementary surface, air, command-
control-communications, surveillance, and shoreside infrastructure 
assets that optimize mission performance while minimizing total 
ownership costs.
    Question 3. Secretary Mineta, the 104th Congress worked with the 
Clinton Administration in a bipartisan manner to enact the Maritime 
Security Program. The Congress has fully funded MSP every year. While 
MSP stopped the erosion of the U.S.-flag commercial fleet, I am 
concerned that this fleet, along with its intermodal capabilities, will 
not be sustainable without further progress in improving the 
competitiveness of the U.S.-flag fleet in the international market. 
Without sufficient militarily useful U.S.-flag ships, and U.S.-citizen 
crews to man them and the Ready Reserve Fleet, our Nation s ability to 
transport and sustain our military equipment and forces will be 
dependent on foreign-flag ships in a crisis. What will YOU do as 
Secretary of Transportation to work with the Department of Defense to 
develop a solution to this problem?
    Answer. The downsizing of the U.S. military's presence overseas has 
resulted in an increased reliance by Department of Defense (DOD) 
planners on commercial vessel capacity to meet potential contingency 
requirements. The Maritime Security Program (MSP) was designed to 
preserve a core U.S.-flag liner fleet of militarily useful vessels 
operating in international trade, that is available to support sealift 
operations and which would also contribute to maintenance of a labor 
base to crew the Government-owned strategic sealift fleet during 
emergencies. The MSP is authorized through 2005, and is subject to 
annual appropriation.
    In anticipation of the MSP expiration, it is essential that we 
begin now to assess what steps are needed to assure that we maintain 
our ability to meet national security and economic interests beyond 
2005. In the same context, the best means to sustain a sufficient 
workforce of qualified mariners is to sustain long-term private sector 
employment on U.S.-flag ships. The Department of Transportation, 
through the Maritime Administration, is working with the Department of 
Defense to develop solutions to crewing issues in order to assure 
adequacy of qualified manpower resources in the future, and will be 
considering various alternatives to assure the continuation of a U.S.-
flag fleet to meet sealift requirements.
    Question 4. Secretary Mineta I recently addressed the U.S. 
Conference of Mayors on railroad issues. While you may be familiar with 
the efforts in the Congress to provide Amtrak with the ability to 
obtain badly needed capital through a multi-year bonding authority, I 
discussed a new proposal with the mayors. All across America, there are 
cities and towns that grow up around railroad tracks. As motor vehicle 
traffic grew in these cities, road-rail at-grade crossings increasingly 
developed conflicts between trains and motor vehicles. Today, most 
freight rail customers are located on the outskirts of cities and 
towns. Especially in cities infrequently served by passenger trains, 
downtown railroad tracks create traffic delays for both motor vehicles 
and trains. In many situations, the best solution is to relocate the 
railroad track, rather than close roads or improve their grade-crossing 
signals. While TEA-21 included some innovative mechanisms to address 
the problem of at-grade crossings, I believe current programs are 
grossly inadequate. I intend to introduce legislation this year to 
improve this situation. Will you work me to develop a better solution 
to this problem?
    Answer. I will be happy to work with you and all interested parties 
to develop solutions to this nationwide problem. Both the Federal 
Railroad Administration and Federal Highway Administration are working 
with states and municipalities to address this growing crucial issue. 
As motor vehicle and rail freight traffic have dramatically increased, 
municipalities are experiencing significant increases in noise and 
congestion, and concomitant declines in quality of life. Track 
relocation projects are extremely costly. No specific TEA-21 programs 
directly address this issue, although track relocation is sometimes 
eligible for National Highway System, Surface Transportation Program, 
or Congestion Mitigation and Air Quality Program funding. I agree that 
together, we must explore ways to enable states and municipalities to 
more easily resolve this problem.
    Question 5. Secretary Mineta, the Title XI shipbuilding loan 
guarantee program is critical to the maintenance of an adequate 
commercial shipbuilding industrial base in the United States. Foreign 
shipbuilding subsidies crippled the U.S. shipbuilding industry. Without 
an adequate U.S. commercial shipbuilding industry, we will be dependent 
on foreign shipyards to produce the drilling rigs and platforms 
required to maintain and develop our domestic energy sources and the 
double-hull tankers required to protect our environment. Without an 
adequate domestic shipbuilding capability, we can not reduce out 
dependence on foreign sources for our Nation's energy needs. The Title 
XI program was reinvigorated during the previous decade, which allowed 
U.S, commercial shipbuilders to regain their feet. However, during the 
past 2 years, the previous Administration reduced its support for the 
Title XI program. I believe the Title XI program needs to be funded at 
least at historical levels ($50 million annually), or more. How will 
you support the Title XI program during your tenure as Secretary of 
Transportation?
    Answer. The Title XI program has been instrumental in helping the 
U.S. shipbuilding industry become more competitive during the past 
decade. Over the coming months, I would like to work with the industry 
to evaluate innovative technologies and financing mechanisms, including 
Title XI, to help American shipbuilders improve their competitiveness 
and productivity.

                                 ______
                                 
   Responses to Written Questions Submitted by Hon. Sam Brownback to 
                            Norman Y. Mineta

                            AIRPORT CAPACITY

    Question 1. Mr. Secretary, over the past decade or so, overlapping, 
duplicative, and time consuming environmental review processes have 
hampered the ability of airports to undertake and complete capacity--
enhancing projects throughout the country. A runway project in Memphis, 
for example, took nearly seven years to complete. Given the problems of 
aviation system congestion that are sure to be compounded as travel 
explodes to a projected one billion passengers annually, something must 
be done to address this problem.
    <bullet> What role do you envision the Department playing in 
helping to faciliate the completion of critical capacity-enhancing 
projects in a more timely fashion?
    <bullet> Can the Department, in your view, play a more active role 
in coordinating the environmental review process for these projects 
with other Federal, State, and local entities, so as to ensure 
completion in a timely manner?
    Answer: We will examine DOT/FAA responsibilities to assure that we 
are giving the highest priority attention to important capacity-
enhancing projects and that our reviews, requirements, and processes 
are not providing a drag on the already difficult task of bringing new 
runways on line.
    DOT/FAA will play a more active role in coordinating environmental 
reviews with other agencies to reduce overall review timeframes as much 
as possible. There are specific laws and regulations in place that 
dictate certain requirements and timeframes. These certainly will not 
be ignored, and they place limits on completing all environmental 
reviews simultaneously. However, we can do a better job of coordinating 
reviews, and I will see to it that such coordination is one of our 
priorities.

          FAA-LABOR COSTS AIR TRAFFIC CONTROLLERS--CONGESTION

    Question 2. Mr. Secretary, the recent report of the National Civil 
Aviation Review Commission largely ignored the independent audits 
discussion of the importance of controlling costs.
    <bullet> Do you feel the labor agreements between the FAA and the 
Air Traffic controllers, with its ensuing effects on other parts of the 
FAA, has helped or hindered the process of controlling costs and 
avoiding gridlock?
    Answer: The current labor environment at FAA began with Congress' 
enactment of FAA personnel reform provisions in the fiscal year 1996 
Transportation Appropriations Act. The consequences of that statutory 
change continue to play out at FAA.
    In my view, the FAA must ensure that growth in salary costs has 
been partially offset by cost saving provisions in the agreement. In 
addition, part of the NATCA agreement is that the union agrees to 
support FAA efforts to introduce new technology aimed at making 
operational improvements. This more cooperative atmosphere should 
enhance air traffic efficiency.

             FAA CERTIFICATION PROCESS--NEEDS STREAMLINING

    Question 3. Mr. Secretary, I hope you would agree that aviation 
safety is a major priority for the Departnent of Transportation. 
Fortunately, manufacturers have developed numerous new products that 
could lead to major safety imrovements, in both commercial and general 
aviation, however, they must go through the often byzantine FAA 
certification process.
    <bullet> Would you make streamling the FAA certification process a 
priority, so that safer and more efficient products could be brought to 
market?
    Answer: I understand the need for new technologies and the need to 
integrate them into the cockpit as expeditiously as possible. The FAA 
has already taken several steps to streamline the process of 
integrating new technology into the general aviation and commercial 
fleets but should review the process to see if more can be done. At the 
request of the Administrator, the RTCA Select Committee on 
Certification is addressing 15 certificationrelated recommendations 
that were contained in the February 1999 report from the Task Force on 
Streamlining Certification (RTCA Task Force IV). Solutions to all 
recommendations have been developed in cooperation with many aviation 
industry groups.
    One of the outcomes of the work under way by the Select Committee 
is the FAA's recent decision to establish a prototype ``designee 
managed organization'' (DMO) for general aviation avionics. This 
delegation is specifically designed to speed up the process for issuing 
supplemental type certificates (STC), which are the official FAA stamp-
of-approval for alternations to aircraft. This DMO for general aviation 
avionics is a prototype that will run from four to 6 months. Lessons 
learned from this initial prototype could be expanded to other products 
and possibly into the commercial aviation field.
    Also noteworthy is the Certification Process Improvement or CPI, a 
program jointly developed by FAA and its industry partners and 
customers. The CPI concept advocates an up-front partnership between 
the FAA and a certification customer or applicant, where roles and 
responsibilities are clearly defined for a particular certification 
project. A Project Specific Certification Plan (PSCP) is laid out and 
agreed to by all parties involved in the project. This PSCP delineates 
milestones and deliverables. The CPI principles, when properly 
employed, help ensure that everyone's resources are maximized and 
certification projects are completed in a timely and efficient manner.
    I intend to build on these efforts, ensuring that we follow through 
on any initiative that can improve the certification process.

                                 ______
                                 
        Written Questions Submitted by Hon. Daniel K. Inouye to 
                            Norman Y. Mineta

    Question 1. Mr. Secretary-Designate, there are a number of major 
ship building construction contracts that are pending over at the 
Maritime Administration. For a long time we had a surplus in the Title 
XI account, but last year, we almost completely used all of the Title 
XI funds. This program is vitally important to continue, and I would 
hope that you will be committed to ensure that it is properly funded?
    Question 2. Mr. Secretary-Designate, the last administration 
established an overall study of the needs and future development of our 
marine transportation system. This study, called the MTS study, 
indicates that we will see a doubling of our maritime trade by 2020, 
the study also set up a system for bringing in the private sector to 
discuss the issues surrounding the expansion of trade. I would hope 
that you would continue and encourage this MTS effort?
    Question 3. Mr. Secretary-Designate, we enacted Maritime Security 
Program to ensure that the United States has a substantial presence of 
U.S.-flag ships in international trade, and to ensure that we can act 
unilaterally as a Nation with respect to our economic and military 
security. Other nations have similar programs. The Maritime Security 
Program will be expiring in the next few years. I hope we can count on 
your support in crafting new legislation to continue these policies?

                                 ______
                                 
Responses to Written Questions Submitted by Hon. John Edwards to Norman 
                               Y. Mineta

    Question 1. My State of North Carolina is still suffering from the 
devastating consequences of Hurricane Floyd, one of the worst natural 
disasters ever to hit the state. For 2 weeks more than 70 percent of 
the State was flooded under two feet of water. As a result, thousands 
of people saw their possessions destroyed or seriously damaged, 
including their cars.
    Around 75,000 cars were flooded by Hurricane Floyd, according to 
AAA. I am very concerned that these cars are being rebuilt and sold by 
unscrupulous individuals who aren't disclosing the damage. We know this 
problem is occurring. In fact, the North Carolina Attorney General's 
office has received a number of complaints from consumers on the 
matter.
    The problem is as follows: Assume that a consumer buys a used car 
in North Carolina. North Carolina has strong laws that require car 
titles to indicate whether the car was flooded or had been in a major 
wreck. That way the buyer knows what he or she is getting into. 
However, assume also that the buyer then takes the car to another State 
that doesn't have these strong laws in place. When the car is resold 
there to someone else, the seller isn't required to tell the new buyer 
about the flood or wreck on the prior title. The title is essentially 
``washed'' clean. The irony of this is that the car can then come back 
into North Carolina with no indication it had ever been damaged. North 
Carolina's strong laws have been circumvented. And, the critical point 
is that these cars pose an unknown threat to their occupants and to 
everyone that shares the road with them.
    I suggest that the creation of a national data base either run by, 
or overseen by the Department of Transportation (DOT) to keep track of 
these flooded and wrecked cars, may be a solution to this problem. 
Consumers would be able to go online, type in a vehicle's 
identification number and obtain accurate information about a car's 
history.
    Would you be willing to work toward the establishment of such a 
data base?
    Question 2. During the last Congress, I cosponsored a bill authored 
by Senator Feinstein that contains strong consumer protections and 
would help put a stop to this serious problem. And last July, Senator 
Feinstein and I sent a letter to Secretary of Transportation Slater 
asking that DOT investigate the possibility of a study to examine the 
correlation between prior vehicle damage and fatality and injury rates. 
We have not yet received a response to this letter. However, I know you 
want to improve vehicle safety.
    Will you respond to our letter? Will you work with supporters of 
the Feinstein bill to establish a uniform set of standards for titling 
flooded and wrecked vehicles?
    <bullet> Given that President Bush as Governor of Texas signed .08 
BAC into State law, will he continue to support the .08 standard?
    Drunk Driving.--In 1999, 16,000 people were killed in the United 
States as a result of drunk driving. The US DOT has a goal to reduce 
drunk driving fatalities by 2005 to 11,000 per year.
    <bullet> How do you propose the US DOT work toward reducing 5000 
drunk driving fatalities per year?
    General Aviation California.--We are all familiar with airline 
delays. The images of crowded airports with people spending the night 
on cots or on the floor are becoming more common. As :a result, there 
has been an interest in redesigning the National Airspace System in 
order to create an aviation network that will work more efficiently. 
The emphasis has been on the Northeast. However, we in California are 
facing a similar crisis in our crowded airspace.
    <bullet> Are you going to direct the FAA to redesign the airspace 
in California?
    San Francisco Airport.--In the San Francisco airport, we have 
extreme congestion, especially during times of poor weather and fog. 
There is controversy in the area to build a new runway, which will take 
at least 8 years and not solve the immediate problem.
    <bullet> Without runway expansion, what else can be done at San 
Francisco to decrease the chronic delays and cancellations?
    Rollover.--According to NHTSA, in 1999, 10,657 people died in 
rollover crashes-almost 30 percent of all highway fatalities. Nearly 
two-thirds of deaths in SUVS are as a result of rollover accidents 
versus 22 percent in passenger cars. NHTSA recently carne out with the 
first rollover standard. However, the standard was based on static 
measurements versus a dynamic test that would be more accurate.
    <bullet> Under your direction, will NHTSA use the best science to 
develop an accurate driving rollover standard?
    CAFE Standards.--Today, Support Utility Vehicles (SUVs), mini-vans, 
and other light trucks are about half of all new vehicles that are 
sold. In 1975, when Corporate Average Fuel Efficiency (CAFE) standards 
were. first adopted, they were only 20 percent of the market. The 
current standard is 27.5 mpg for passenger automobiles and 20.7 mpg for 
light trucks. SUVs are categorized as light trucks-instead they are 
used as passenger vehicles.
    <bullet> As Secretary of Transportation, will you support increase 
CAFE standards for SUVs?
    Widening Roads and Gridlock.--One transportation myth is that 
widened roads create excess capacity. However, the reality is ``induced 
traffic.'' When roads are widened, more drivers take those routes and 
development occurs around them. The result is the initial gridlock that 
was eliminated returns to the roads in a few short years. A University 
of California study checked 30 urban counties from 1973 to 1990 and 
found that for every 10 percent increase in new lane-miles there was a 
9 percent increase in traffic. We can't build more roads to end our 
congestion problem.
    <bullet> How do you propose to reduce gridlock on our nation's 
highways?
    Increasine Transit Funding.--Every year during the appropriations 
process, funding for the New Starts Transit program is extremely 
competitive. There is not enough money for new transit systems. By 
having light rail systems, people will be able to commute to work 
without driving, which will improve congestion. Additionally, transit 
is key for low-income workers-there would not be welfare-towork without 
transit. 48 percent of the riders on Los Angeles County MTA's buses 
have household incomes less than $15,000.
    <bullet> During the reauthorization of TEA-21, will the 
Administration support expanding transit funding?
    Transit Minimum Allocation.--In the transit debate, there have been 
discussions on changing transit funding based on a state's need to 
implementing a spending cap for each State or equally dividing the 
funds between the states. This doesn't make sense to me. States have 
different transit needs and should continue to be funded by need. For 
example, in California, transit carries 38 percent of all trips in the 
San Francisco Bay Bridge Corridor and 30 percent of all trips into 
central Los Angeles. Without public transit in the Bay Area, San 
Francisco would need to increase its freeway capacity by 50 percent. 
Both drivers and transit riders would suffer without Federal transit 
funding.
    <bullet> What is the Administration's position on how to fund 
transit fairly?
    Bigger Trucks.--Currently, there is a freeze on bigger trucks-both 
in length and weight. Triple trailer trucks are involved in fatal 
accidents 11 percent more than a single trailer trucks. As truck 
weights increase from the current limit of 80,000 pounds, braking 
ability of the trucks decrease.
    <bullet> Does the Administration support the current freeze on 
bigger and heavier trucks?
    Hours of Service.--Last year, DOT proposed anew rule on bus and 
truck driver hours of service. It was alarming to me because it 
increased maximum continuous drive time from 10 to 12 hours. In 1999 
over 5,200 people were killed and 127,000 injured in crashes involving 
large trucks. DOT research shows that driver fatigue may be a factor in 
up to 15 percent of all heavy truck crashes.
    <bullet> Does the Administration support strong safety laws for 
truck and bus drivers?
    US Coast Guard: Support for Two Rock.--The only Coast Guard 
training center on the West Coast is Two Rock. Almost every year, there 
is some threat to close it down.
    <bullet> Will the Administration support keeping this training 
center open?
    US Coast Guard: General Budget.--The Coast Guard is an incredibly 
valuable part of DOT. They have a broad mission that keeps growing. 
With the firewalled transportation funds for both highways and 
aviation, Coast Guard does not receive enough funding without 
additional appropriation-either supplemental or defense.
    <bullet> Does the Administration support adequate funding for the 
Coast Guard?
    Amtrak.--Since 1997, Amtrak has operated under a Federal mandate to 
become independent of Federal operating assistance by fiscal year 2002. 
According to the Inspector General, it is a challenge for Amtrak to 
reach that goal. We have all heard the importance of Amtrak for the 
Northeast. Well, Amtrak is also very important for California to assist 
in reducing our congestion problem.
    <bullet> Is the Administration going to support Amtrak and the US 
having a national passenger railroad?
    High-Speed Rail.--In California, our airports are extremely delayed 
and congested. The airports are almost at their maximum capacity. To 
ease congestion at airports, it is key that California have high speed 
rail, which is very common in Europe.
    <bullet> What will the Administration do to support the development 
of high speed rail outside of the Northeast?
    Intelligent Transportation Systems.--The last Administration had 
recently announced two intelligent transportation systems (ITS) goals: 
(1) to equip 10 percent of new light vehicles and 25 percent of 
commercial vehicles sold by 2010 with collision avoidance systems and 
(2) to deploy signage and in-vehicle electronic warning to alert 
drivers to hazardous situations.
    Passage of the fiscal year 2001 NDAA, after the FY01 Transportation 
Appropriation was enacted, significantly improved pay for military 
personnel. The Coast Guard is mandated by to match these increases, 
which created a shortfall of $36 million in its enacted budget.
    After the Coast Guard's budget was enacted, the Department of 
Defense adjusted its contract fuel costs. The impact on the Coast Guard 
budget of this decision has been an additional budget shortfall of $28 
million. Meanwhile, the Coast Guard currently has a $27M shortfall in 
aviation spare parts funding, directly impacting aviation operations.
    These three funding issues total $91million. The funding shortfall 
will result in severe consequences and reductions to vital services 
unless addressed.
    Absent immediate relief, and to live within the fiscal year 2001 
appropriation, the Coast Guard was recently forced to redirect 
resources by curtailing operations nationwide. These reductions, which 
will impact law enforcement, fisheries, and illegal migrant operations, 
are necessary to cover the shortfall, which in large part were created 
by circumstances outside the Coast Guard's control.
    I know that DOD is presently putting together a supplemental 
appropriations request, and I understand the Coast Guard's $91million 
supplemental package will mirror the readiness needs that DOD will be 
submitting in its supplemental request. What are your plans to address 
and support the Coast Guard's immediate needs outlined in its fiscal 
year 2001 supplemental request? Also, will you address the long term 
problem of building Coast Guard funding needs into the budget process 
rather than continually relying on emergency supplementals to carry out 
critical operations and maintain basic services?

                             COAST GUARD #2

    The Commercial Fishing Vessel (CFV) industry is one of the most 
hazardous in the nation. On average 78 crewmember deaths were recorded 
per year between 1992 and 1999. As you may know, the Occupational 
Health and Safety Administration ranks commercial fishing as the most 
hazardous occupation in the country. I'm sure you are familiar with the 
book The Perfect Storm. While the storm depicted in the book may have 
been a once in a lifetime event, I can assure that the Coast Guard 
performs hundreds of such daring rescue operations each year in the 
Northeast. Gloucester is but one example of the toll it has taken on 
our coastal fishing communities. Since 1650 the sea has claimed an 
estimated 10,000 Gloucester fishermen. During the 19th Century, 
Gloucester would typically lose 200 fishermen annually--about 4 percent 
of the city's population--to storms in the Gulf of Maine and the Grand 
Banks. The Coast Guard's Commercial Fishing Vessel Safety program is 
something I care deeply about. While the National Weather Service 
provides timely and accurate forecasts so that we no longer have entire 
fleets caught on the fishing grounds during a major storm, the tragic 
statistics continue to roll in.
    Last year the First Coast Guard District--whose area of 
responsibility stretches from Maine to New Jersey--reported the death 
of 13 commercial fishermen. In addition, the District reported saving 
47 fishermen whose vessels had either sunk or caught fire. The Coast 
Guard estimates that 23 of those fishermen are alive today because they 
had a life rafts and immersion suits. The Commercial Fishing Vessel 
Safety Program explains to fishermen the importance of having an 
electronic beacon and life rafts and immersion suits. Fishing and 
fishermen are something that we all care deeply about on this 
committee, in these days of tight budgets can you assure us that the 
Coast Guard will continue funding the Commercial Fishing Vessel Safety 
Program?

                                 ______
                                 
   Written Questions Submitted by Hon. Ron Wyden to Norman Y. Mineta

                            AVIATION--NOISE

    Question 1. How will DOT coordinate with Congress and the aviation 
industry regarding the ongoing international discussions regarding 
Stage 4 noise standards?
    Question 2. The Committee on Aviation Environmental Protection 
(CAEP) of the International Civil Aviation Organization (ICAO) just 
completed its meeting in Montreal on January 17th. CAEP 5 included 
discussions on the Stage 4 noise standard. Although an agreement was 
reached for no global phaseout of Stage 3 Aircraft, EU countries are 
pushing for regional phaseouts. If one of the EU countries acted 
unilaterally to implement a regional phaseout, how would you respond?

                                 ______
                                 
  Written Questions Submitted by Hon. Max Cleland to Norman Y. Mineta

    Question 1. This past December I chaired a Commerce Committee field 
hearing in Atlanta on rail passenger service. Testifying at that 
hearing, among others, were former Secretary Slater, then head of the 
FRA Jolene Molitons, and Amtrak President George Warrington. Because of 
Metro Atlanta's traffic congestion and air quality problems, Georgia's 
transportation planners are looking more and more at options other than 
cars for moving people: for example, intercity bullet trains, light 
rail, and commuter rail lines serving downtown Atlanta from corridors 
extending to Athens, Bremen, Griffin and Senoia.
    What do you see as the role of the Department of Transportation in 
assisting the development of regional commuter and intercity passenger 
rail service? In your view, how can the Congress assist the U.S. 
Department of Transportation in expediting the development of regional 
passenger rail service?
    Question 2. As you know from experience in your home State of 
California, our metropolitan areas face challenges in transportation, 
air quality, and traffic safety issues that involve all modes of 
transportation--highways, inter-city and commuter rail, bus and rapid 
transit systems, pedestrian and bicycle paths. Georgia's population 
growth is double the national average, and metropolitan Atlanta is 
struggling mightily to escape traffic gridlock and polluted air. At my 
request, former Secretary Slater agreed to establish a regional task 
force of U.S. DOT officials from the various transportation modes to 
work with the Georgia Regional Transportation Authority and help cut 
through red tape and provide immediate assistance to their efforts to 
improve mobility and air quality.

                               __________
    Prepared Statement of The Air Crash Victims Families Group\1\, 
        Submitted by A. Frank Carven III and Hans Ephraimson-Abt

    Mr. Chairman: We respectfully endorse the nomination of the 
Honorable Norman Y. Mineta, the outgoing Secretary of Commerce, as the 
new Secretary of Transportation.
    As bereaved families who lost their loved ones in aviation 
tragedies we have worked with the Government, Congress and the 
transportation industries to improve safety, security and the 
relationships among all interested parties.
---------------------------------------------------------------------------
    \1\ The Air Crash Victims Families Group is an informal alliance of 
``The American Association for Families of KAL007 Victims'', ``The 
TWA800 Families Ass., Inc'' ``The Swissair 111 Families Association'' 
the ``EgyptAir990 Families Association and families as well as 
survivors of other air tragedies.
---------------------------------------------------------------------------
    Mr. Chairman, you and your Committee have been extraordinarily 
helpful in addressing our issues: the passengers assistance Acts of 
1996 and 1997, last year the passage of the ``Death Of The High Seas 
Act'' amendment--and hopefully this year, with the. Senate's Advice and 
Consent the new ``Montreal Convention''.
    In order to continue the improvements which were achieved over 
three Administrations we need knowledgeable and experienced leaders in 
our Government, able to address our common issues, most particularly in 
the Department of Transportation.
    Secretary Mineta brings with him the needed experience of an able 
administrator in Government, Congress, business. and a record for the 
public's concerns His record shows that he is uniquely qualified to 
continue, carry on and improve the far-reaching policies of his 
predecessors at the Department of Transportation: Secretaries Samuel 
Skinner, Andrew H. Card, Jr, Federico F. Pena and Rodney E. Slater to 
which he has already contributed in other positions.
    We would welcome your Committee's confirmation of Secretary 
Mineta's appointment as Secretary of Transportation.
  

</pre></body></html>
